<html>
<title> - REAUTHORIZATION OF THE COASTAL ZONE MANAGEMENT ACT</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




          REAUTHORIZATION OF THE COASTAL ZONE MANAGEMENT ACT

=======================================================================

                           OVERSIGHT HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              May 24, 2001

                               __________

                           Serial No. 107-33

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                                _______

                  U.S. GOVERNMENT PRINTING OFFICE
72-578                     WASHINGTON : 2002

____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                

       SUBCOMMITTE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
           ROBERT A. UNDERWOOD, Guam, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey,              Neil Abercrombie, Hawaii
  Vice Chairman                      Solomon P. Ortiz, Texas
Richard W. Pombo, California         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North 
    Carolina



                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 24, 2001.....................................     1

Statement of Members:
    Davis, Hon. Susan A. a Representative in Congress from the 
      State of California........................................     6
        Prepared statement of....................................     7
    Farr, Hon. Sam, a Representative in Congress from the State 
      of California, Prepared statement of.......................    36
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     1
        Prepared statement of....................................     2
    Harman, Hon. Jane, a Representative in Congress from the 
      State of California, Prepared statement of.................    37
    Miller, Hon. George, a Representative in Congress from the 
      State of California........................................    11
        Prepared statement of....................................    13
    Pelosi, Hon. Nancy, a Representative in Congress from the 
      State of California........................................    28
        Prepared statement of....................................    30
    Saxton, Hon. Jim, a Representative in Congress from the State 
      of New Jersey..............................................     4
        Prepared statement of....................................     5
    Thompson, Hon. Mike, a Representative in Congress from the 
      State of California........................................     8
        Prepared statement of....................................    10
    Underwood, Hon. Robert A., a Delegate to Congress from Guam..     3
        Prepared statement of....................................     4
    Woolsey, Hon. Lynn C., a Representative in Congress from the 
      State of California, Prepared statement of.................   125

Statement of Witnesses:
    Burroughs, Dr. Richard, Chairman, Department of Marine 
      Affairs, University of Rhode Island........................    80
        Prepared statement of....................................    81
    Claussen, Eileen, President and Chair of the Board, 
      Strategies for the Global Environment......................   101
        Prepared statement of....................................   103
    Davidson, Margaret A., Acting Assistant Administrator for 
      Ocean Services and Coastal Zone Management, National 
      Oceanic and Atmospheric Administration.....................    16
        Prepared statement of....................................    20
    De Luca, Michael P., President, National Estuarine Research 
      Reserve Association........................................    51
        Prepared statement of....................................    53
    Lawrence, Louise, Chief, Office of Resource Conservation, 
      Maryland Department of Agriculture.........................    58
        Prepared statement of....................................    60
    Savitz, Jacqueline, Executive Director, Coast Alliance.......   105
        Prepared statement of....................................   107
    Tudor, Robert, Deputy Commissioner, New Jersey Department of 
      Environmental Protection...................................    25
        Prepared statement of....................................    38
        Map of Stafford Township, New Jersey, submitted for the 
          record.................................................    47
    Wyman, Craig, Liskow and Lewis, representing The American 
      Petroleum Institute, et al.................................    83
        Prepared statement of....................................    85

Additional materials supplied:
    American Farm Bureau Federation, Statement submitted for the 
      record.....................................................    33
    Bush, The Honorable Jeb, Governor, State of Florida, 
      Statement submitted for the record.........................    34
    Merrell, Dr. William J., President, The H. John Heinz III 
      Center for Science, Economics and the Environment, 
      Statement submitted for the record.........................    31

 
           REAUTHORIZATION OF THE COASTAL ZONE MANAGEMENT ACT

                              ----------                              


                         Thursday, May 24, 2001

                     U.S. House of Representatives

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 9:40 a.m., in 
Room 1334, Longworth House Office Building, Hon. Wayne T. 
Gilchrest [Chairman of the Subcommittee] presiding.

 STATEMENT OF THE HON. WAYNE T. GILCHREST, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. The Committee on Fish, Wildlife, and Oceans 
will come to order.
    Good morning, everyone.
    We can get started because Mr. Jeffords has just made his 
statement, so we know what is going to happen.
    I would like to welcome our witnesses to the hearing on the 
reauthorization of the Coastal Zone Management Act. As most of 
you know, the authorization for this important environmental 
law expired in 1999. We are here to discuss two pieces of 
legislation to extend this landmark statute and to examine 
other coastal management issues.
    Our witnesses will represent a broad range of coastal 
interests, and I am anxious to hear their thoughts and 
recommendations.
    I am disappointed, however, that the Farm Bureau has chosen 
not to come before the Subcommittee and testify to any concerns 
they might have as to the reauthorization of this act. They 
have submitted testimony that we will review, but we were 
anxious to have a basic exchange with them this morning. But 
that has not happened.
    I represent a coastal district, as do many of the members 
on this panel, and I have both the bay and the oceanside. 
Furthermore, I have, as do all the Members on this Committee, a 
deep and sound commitment to stewardship of our coastal 
resources and an appreciation of the work of the state coastal 
management programs and National Estuarine Research Reserves.
    The approaching 30th anniversary of the passage of CZMA 
provides an important opportunity to take a new look at the Act 
and our progress toward meeting its objectives.
    The physical, social, and economic landscape of the coastal 
zone has changed dramatically since the passage of the original 
law. And it is imperative that the Act be reassessed in light 
of these changes.
    Coastal population and development has increased rapidly in 
the last few decades, adding pressure on coastal communities to 
address competing uses of coastal resources and to conduct more 
extensive coastal hazards planning.
    Furthermore, these coastal communities must provide basic 
services to a greater number of residents, which may come at 
the expense of other pressing issues in some cases, especially 
environmental issues.
    Both H.R. 897, introduced by our good friend Congressman 
Jim Saxton and the discussion draft that was provided to the 
witnesses require greater involvement in the management of 
coastal resources at the local level. In addition, both 
measures call for assessment of the objectives of the Act for 
the development of a set of performance indicators and 
measures.
    I look forward to hearing from the witnesses this morning 
and their testimony and their valuable insight into the next 
stage or phase of the Coastal Zone Management Act, so we can 
meet all the pressures and be responsible advocates for both 
our human colleagues that live along the coast and also 
migrating shore birds that live along the coast.
    And I think we can come to a conclusion that, with a 
greater effort, these two often conflicting issues can be 
resolved.
    [The prepared statement of Mr. Gilchrest follows:]

 Statement of The Honorable Wayne T. Gilchrest, Chairman, Subcommittee 
             on Fisheries Conservation, Wildlife and Oceans

    Good morning. I would like to welcome our witnesses to this hearing 
on the reauthorization of the Coastal Zone Management Act. As most of 
you know, the authorization for this important environmental law 
expired in 1999. We are here today to discuss two pieces of legislation 
to extend this landmark statute and to examine other coastal management 
issues. Our witnesses represent a broad range of coastal interests and 
I am anxious to hear their thoughts and recommendations. I am 
disappointed, however, that the Farm Bureau has chosen not to come 
before the Subcommittee and testify to any concerns that they might 
have to the reauthorization of this Act.
    I represent a coastal district that has both a bay and an ocean 
side. Furthermore, I have a deep commitment to the sound stewardship of 
our coastal resources and an appreciation for the work of the state 
coastal management programs and the National Estuarine Research 
Reserves. The approaching thirtieth anniversary of the passage of the 
CZMA provides an important opportunity to take a new look at the Act 
and our progress towards meeting its objectives. The physical, social 
and economic landscape of the coastal zone has changed dramatically 
since the passage of the original law and it is imperative that the Act 
be reassessed in light of these changes.
    Coastal population and development has increased rapidly in the 
last few decades adding pressure on coastal communities to address 
competing uses of coastal resources and to conduct more extensive 
coastal hazards planning. Furthermore, these coastal communities must 
provide basic services to a greater number of residents, which may come 
at the expense of other pressing issues in some cases. Both H.R. 897, 
introduced by Congressman Jim Saxton, and the discussion draft that was 
provided to the witnesses require greater involvement in the management 
of coastal resources at the local level. In addition, both measures 
call for an assessment of the objectives of the Act through the 
development of a set of performance indicators and measures.
    I am looking forward to hearing the testimony of our witnesses and 
I hope that they will be able to provide us with valuable insight into 
the reauthorization of this Act, which is the cornerstone of many of 
our efforts to engage in sound stewardship of our Nation's fragile 
coastal environment.
                                 ______
                                 
    Mr. Gilchrest. I yield now to my good friend, Mr. 
Underwood.

   STATEMENT OF THE HON. ROBERT A. UNDERWOOD, A DELEGATE TO 
              CONGRESS FROM THE TERRITORY OF GUAM

    Mr. Underwood. Thank you, Mr. Chairman. My opening remarks 
will be brief.
    But before I begin, I want to, first, commend you, Mr. 
Chairman, for your leadership in setting forth an agenda for 
the Committee. And I want to thank you for your cooperative 
spirit in working with me and the other Democratic Members of 
the Committee on issues of importance to us.
    A good example of just such an issue is coastal zone 
management. It is not an exaggeration for me to say the 
reauthorization of the Coastal Zone Management Act will be one 
of the most important responsibilities of this Committee this 
Congress.
    It is frequently quoted that some 60 percent of America's 
population live within 50 miles of the coastline. I am happy to 
report that 100 percent of the people I represent live about--
    [Laughter.]
    --live about 3 miles from the ocean.
    Mr. Gilchrest. You know, in my district, they all live less 
than 100 miles from the ocean or the bay.
    We have something in common, Mr. Underwood.
    [Laughter.]
    Mr. Underwood. But we must proceed thoughtfully.
    As you know, efforts last Congress to reauthorization the 
CZMA regrettably ground down into stalemate and some 
frustration. In a sense, I fear that we may be heading down a 
similar path this year.
    And after reading the background memo for this morning 
hearing, I am reminded of the quote attributed to Yogi Berra, 
who said, ``This is deja vu all over again.''
    [Laughter.]
    I remain convinced that the best way to avoid a repeat of 
past frustrations was for the Committee to take a measured 
pause to gain the benefit of new insights and information.
    New threats to coastal resources, such as invasive species, 
increased management capabilities made possible through a new 
geographic information systems and satellite technologies, and 
emerging issues such as marine bio-prospecting and marine 
protected areas, are very complex. They all deserve the 
scrutiny of this Committee.
    And for the Coastal Zone Management Act to remain relevant 
in the 21st century, this Committee should not shy away from 
that investigation.
    Mr. Chairman, you know that I would have preferred for the 
Committee to have first scheduled some general oversight 
hearings before drafting and considering CZMA legislation. 
Nonetheless, you have decided to move ahead with this morning's 
legislative hearing, and I respect that decision, and I hope 
that we will reach a positive end on CZMA legislation.
    I remain optimistic that by working together we will be 
able to craft CZMA legislation that addresses the substantial 
challenges that lie ahead.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Underwood follows:]

  Statement of The Honorable Robert Underwood, A Delegate to Congress 
                               from Guam

    Thank you, Mr. Chairman. My opening remarks will be brief. But 
before I begin, I want to first commend you, Mr. Chairman, for your 
leadership in setting forth an engaging agenda for this committee, and 
I want to thank you for your cooperative spirit in working with me and 
the other Democrat members of this committee on issues of importance to 
us.
    A good example of just such issue is coastal zone management. It is 
not an exaggeration for me to say that reauthorization of the Coastal 
Zone Management Act will be one of the most important responsibilities 
of this committee this Congress. But we must proceed thoughtfully.
    As you know, efforts last Congress to reauthorize the CZMA 
regrettably ground down into stalemate and frustration. In a sense I 
fear that we may be heading down a similar path this year. After 
reading the background memo for this morning's hearing, I was reminded 
of the quote attributed to Yankee great, Yogi Berra, who said, ``This 
is deja vu all over again.
    I remain convinced that the best way to avoid a repeat of past 
frustrations was for the committee to take a measured pause to gather 
the benefit of new insights and information. And I ask, ``Why not?
    New threats to coastal resources such as invasive species; 
increased management capabilities made possible through new Geographic 
Information Systems and satellite technologies; and emerging issues 
such as marine bio-prospecting and marine protected areas are complex. 
They all deserve the scrutiny of this committee. And for the CZMA to 
remain relevant in the 21st Century, this committee should not shy away 
from that investigation.
    Mr. Chairman, you know that I would have preferred for the 
committee to have first scheduled some general oversight hearings 
before drafting and considering CZMA legislation. Nonetheless, you 
decided to move ahead with this morning's legislative hearing, and I 
respect that decision. And while I will continue to urge that we not 
rush into marking up a CZMA bill, I remain optimistic that by working 
together we will be able to craft CZMA legislation that addresses the 
substantial challenges that lie ahead.
    Thank you.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Underwood.
    Mr. Saxton?

STATEMENT OF THE HON. JIM SAXTON, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW JERSEY

    Mr. Saxton. Thank you, Mr. Chairman.
    I have an opening statement, which I will just ask 
unanimous consent be included in the record to save time.
    Mr. Gilchrest. Without objection.
    Mr. Saxton. Thank you.
    Just let me say, first, to Mr. Underwood, who I appreciate 
the great cooperation that we have had over the years, Mr. 
Gilchrest and I can't do this without you, we promise you.
    And we promise you that your fingerprints will be all over 
this, whether we have a legislative hearing--
    [Laughter.]
    --to begin with or whether we do oversight hearings. We 
need you on this very, very much, and your concerns, as far as 
this Member is concerned. The Chairman can speak for himself, 
but you are our partner.
    Mr. Underwood. Thank you.
    Mr. Saxton. And just let me say that, of all the things 
that we do in this Committee, this has to be ranked as one of 
the most important.
    As Mr. Underwood just pointed out, coastal areas are very 
highly populated areas and, at the same time, extremely 
sensitive environmentally. And to the extent that we can be 
good stewards of these highly populated areas, we will be 
successful in preserving a good place to live for all forms of 
life for generations to come.
    On the other hand, if we fail to act on issues that we know 
are important, future generations may not be so lucky.
    The Coastal Alliance, a real leadership organization on 
this, has prepared and published a pamphlet or a magazine 
called ``Pointless Pollution; Preventing Polluted Runoff and 
Protecting America's Coasts.'' It is extremely well-done and 
tells a very, very important story.
    And so I am very hopeful that this year we will be able to 
meet and accommodate the needs of all the Members of the 
Committee, both Republican and Democrat.
    And incidentally, this certainly wasn't any fault of the 
Democrats that we didn't get this done last time.
    [Laughter.]
    But I hope that we will be able to accommodate the needs of 
all the Members of the Subcommittee and the Full Committee, and 
the Transportation and Infrastructure Committee, which will be, 
I am sure, a very interesting task.
    But I am glad that we are starting this process. It is 
extremely important, and I look forward to working with you, 
Mr. Chairman, and the Ranking Member.
    [The prepared statement of Mr. Saxton follows:]

 Statement of The Honorable Jim Saxton, Vice Chairman, Subcommittee on 
              Fisheries Conservation, Wildlife and Oceans

    Thank you, Chairman Gilchrest, for holding this hearing on 
reauthorization of this important Act. I am very pleased to see a broad 
range of perspectives represented here today, though I too am 
disappointed that the Farm Bureau chose not to testify.
    As a representative of a coastal district in the most densely 
populated state in the country, I know firsthand the impact of human 
activities on coastal and ocean resources and the impact of the 
degradation of these resources on our economy and quality of life. Of 
particular concern to me is the issue of non-point source pollution. As 
the leading cause of degradation of our coastal waters, non-point 
source pollution can have devastating effects on a state's seafood, 
tourism and shipping industries by closing shellfish beds, closing 
beaches and clogging major shipping lanes. To begin to address this 
critical issue, my bill, H.R. 897, requires that states spend the 
lesser of $10,000,000 or 35% of the funds available for the resource 
management improvement grants on their non-point source pollution 
control programs.
    Like Maryland, both New Jersey and the nation are dependent upon 
healthy ocean and coastal resources. Programs such as state coastal 
management programs and National Estuarine Research Reserves provide 
the necessary management capabilities and research opportunities to 
protect our coastal environment. I am fortunate that my own state, New 
Jersey, is a leader in both these areas, and I am pleased that both Bob 
Tudor from the New Jersey coastal management program and Mike DeLuca 
from the New Jersey's Jacques Cousteau National Estuarine Research 
Reserve are here today to testify to the merits of these programs on 
behalf of their respective national organizations. I welcome you both 
and look forward to your testimony.
    As the Chairman explained, my bill also provides for greater 
involvement in the management of coastal resources at the local level. 
I believe it is important to engage local communities in this process. 
These local communities are facing difficult coastal management 
decisions as a result of the rapid rate of coastal development that 
they are experiencing and they need to be more fully involved in the 
state programs.
    In addition, my bill calls for the development of a set of 
performance indicators and measures. Performance indicators and 
measures will help us determine our progress towards meeting the 
objectives of the Act and whether we are fulfilling our commitments to 
our coastal constituents and the Nation.
    We must ensure the responsible stewardship of our important coastal 
resources. The CZMA helps provide that stewardship and deserves our 
support. I believe a timely reauthorization of the Act will demonstrate 
our commitment to protect our coastal resources. I too am looking 
forward to hearing the testimony of our witnesses and I thank Chairman 
Gilchrest for his leadership on this important issue.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Saxton.
    Mr. Underwood is a good partner in this effort, and I 
appreciate it.
    We often say, ``I appreciate the hard work of my colleague 
Mr. Saxton,'' but Mr. Saxton has done yeoman's work over the 
past several years toward these important endeavors, and will 
continue to work hard in this effort to make this Act what we 
think the Act was supposed to do in the first place.
    We have two of the four Members present here.
    Welcome, Mr. Thompson and Mrs. Davis. We look forward to 
your testimony.
    Mrs. Davis, you may begin.

   STATEMENT OF THE HON. SUSAN A. DAVIS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Davis. Thank you very much, and I appreciate the 
opportunity to appear before you this morning, despite the fact 
that you can tell I have a chest cold.
    In the interest of your time, I would like to associate 
myself with the detailed and written remarks that will be 
submitted by Representative Farr.
    This morning, I would like to present two ideas.
    The first one is that the Coastal Zone Management Act is a 
document representing thoughtful policy that has controlled the 
interaction of states and the Federal Government for nearly 30 
years regarding the management of the outer continental shelf.
    This policy, as I think you well know, has been supported 
by several Presidents who otherwise held differing views.
    Congress has yearly prohibited the development of the 36 
leased areas off of our coast. Changes should not be made 
hastily or without time for a complete and informed review.
    The second point that I would like to make is that actions 
that occur off of our shores and which, therefore, could impact 
the precious coastline in my district in California--and, 
indeed, the whole state--are of passionate interest to my 
constituents.
    And briefly, may I suggest some basic policy perspectives 
as you consider changes to the Coastal Zone Management Act.
    Number one, we must continue to support Federal 
consistency. The perspective that it is the rights of states to 
control their coastal zones is paramount. Where Federal needs 
are seen to conflict, the policy of Federalism and respect for 
a state's views must have a thorough and contemplative review.
    Second, change, if it is to be made, needs to be based on 
clearly identified problems with the act. It was amended over 
10 years ago, a period which offers ample time to demonstrate 
whether or not there are pervasive problems with the language 
or process of the act.
    Third, good public policy establishes a system for review 
by an agency independent from the parties of the decision. 
Sufficient time must be allowed for a thorough finding of the 
facts or issues. And following that, decisions must be made in 
a timely fashion.
    Because of the nature of coastal zone management, it is 
worth framing this policy issue in the context that decisions 
about using coastal resources are decisions that, once done, 
cannot be undone.
    Fourth, changes in language must be realistic. Actions 
taken on the outer continental shelf, by their very nature, 
will affect the coastline whether that action occurs within the 
legal limits of the state's boundaries or outside them.
    My constituents live along the most southwestern point of 
the United States, a coastline stretching from the border of 
Mexico through the towns of Imperial Beach, Point Loma, Ocean 
Beach, Mission Beach, Pacific Beach, and La Jolla--some of the 
most photographed and appreciated stretches of sand and scenic 
backdrops for joy in the world.
    Indeed, not only the residents of these communities but the 
2 million citizens of San Diego consider them their jewel.
    I imagine that some of you who have served in the military 
and have been stationed at one of the many installations in San 
Diego--or perhaps you have visited for a convention or family 
vacation--know the beauty of our coastline.
    Not only is this coastline a precious local resource and a 
foundation of the economy, it is also a national treasure.
    So I urge you to keep that vision in mind and your policy 
practices in place as you consider requests to change the 
language of the Coastal Zone Management Act and facilitate the 
exploitation of petroleum resources near our shores.
    I want to thank you very much for your work on this issue, 
and thank you for the time to present this morning.
    [The prepared statement of Mrs. Davis follows:]

 Statement of The Honorable Susan Davis, a Representative in Congress 
                      from the State of California

    Thank you for the opportunity to appear before you this morning.
    In the interests of your time, I would like to associate myself 
with the detailed, written remarks that will be submitted by 
Representative Farr.
    This morning, I would like to present two ideas. First, the Coastal 
Zone Management Act is a document representing thoughtful policy that 
has controlled the interaction of states and the Federal Government for 
nearly 30 years regarding the management of the Outer Continental 
Shelf. This policy has been supported by several presidents who 
otherwise held differing views. Congress has yearly prohibited the 
development of the 36 leased areas off of our coast. Changes should not 
be made hastily or without time for a complete, informed review.
    The second is that the actions which occur off of our shores and 
which, therefore, could impact the precious coastline of my district in 
California and, indeed, of the whole state are of passionate interest 
to my constituents.
    Briefly, may I suggest some basic policy perspectives as you 
consider changes to the Coastal Zone Management Act.
    1) We must continue to support `` Federal consistency --the 
perspective that the rights of states to control their coastal zones is 
paramount. Where Federal needs are seen to conflict, the policy of 
Federalism and the respect for a state's views must have a thorough, 
contemplative review.
    2) Change, if it is to be made, needs to be based on clearly 
identified problems with the act. It was amended over ten years ago, a 
period which offers ample time to demonstrate whether or not there are 
pervasive problems with the language or process of the act.
    3) Good public policy establishes a system for review by an agency 
independent from the parties to decision. Sufficient time must be 
allowed for a thorough finding of the facts at issue. Following that, 
decisions must be made in a timely fashion. Because of the nature of 
Coastal Zone Management, it is worth framing this policy issue in the 
context that decisions about using coastal resources are decisions that 
once done can't be undone.
    4) Changes in language must be realistic ``'' actions taken on the 
outer continental shelf by their very nature will affect the coastline, 
whether that action occurs within the legal limits of the state's 
boundaries or outside them.
    My constituents live along the most southwestern point of the 
United States -- a coastline stretching from the Border of Mexico 
through the towns of Imperial Beach, Coronado, Point Loma, Ocean Beach, 
Mission Beach, Pacific Beach, and La Jolla -- some of the most 
photographed and appreciated stretches of sand and scenic backdrops for 
joy in the world.
    Indeed, not only the residents of these communities but also the 
two million citizens of San Diego consider them their jewel. I imagine 
that some of you may have served in the military and have been 
stationed at one of the many military installations in San Diego, or 
perhaps you have visited for a convention or family vacation. Not only 
is this coastline a precious local resource and a foundation of our 
economy, but it is also a national treasure.
    I urge you to keep that vision in mind and your policy practices in 
place as you consider requests to change the language of the Coastal 
Zone Management Act to facilitate the exploitation of petroleum 
resources near our shores.
    Thank you.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mrs. Davis.
    I did spend a little time at Camp Pendleton, and the 
Marines allowed us a great deal of time to soak up the sun on 
the beach.
    [Laughter.]
    Beautiful place.
    Mrs. Davis. Good for you. Please come back.
    Mr. Gilchrest. Sure.
    Mr. Thompson?

   STATEMENT OF THE HON. MIKE THOMPSON, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Thompson. Thank you, Mr. Chairman and Members.
    I would like to thank you for your past record and the 
history of this Committee in protecting our beautiful coastal 
resources and would hope that you will continue that in looking 
at the Coastal Zone Management Act specifically as it applies 
to the Federal consistency provision and as that relates to 
offshore oil drilling.
    The district that I represent is the entire north coast of 
California, just north of the San Francisco Bay all the way to 
the Oregon border. And anything that happens off our coastal--
and in particular, oil drilling off our coast--is going to 
impact my district and the people I represent a great deal.
    We have a sport fishing industry that is about a $7 billion 
annual industry. Tourism of nearly $10 billion. And most of the 
commercial fishing off the California coast is done in my 
district.
    So the health of our coast and the things that live there 
directly impact not only the coast but every industry and every 
business along that coast, and that ripples out throughout 
California.
    A couple of examples are the salmon and steelhead 
populations off the California coast. Their endangered 
classification is directly impacting industries such as timber, 
mining, real estate development, road building; anything at all 
that would impact the habitat of that fishery is going to spill 
over into the local economy.
    Another example is right before coming to Congress, I was 
in the state legislature. And one of the last things I had 
either the pleasure or displeasure of doing was passing 
legislation that became law that forbid the commercial 
harvesting of abalone in southern California--passed by a 
Democratic legislature, signed by a Republican governor.
    And it also included a requirement that abalone fishers 
purchase a stamp, that money going in part to help bring back 
the species. And it was noted by every scientific mind looking 
at this that so much as a small oil spill in the two remaining 
colonies of abalone in southern California would completely 
wipe out the species forever.
    So I think that this is emblematic of the importance of 
what is happening here. The wrong move on policy will not only 
hurt California, but it is going to hurt the nation. And any 
change to the Coastal Zone Management Act that weakens the 
Federal consistency provisions puts California's coast and our 
economy in harm's way.
    If we take away the state's ability to review Federal 
activity, that is going to impact our coastline. It is anti-
states' rights, and it is big government at its absolute worst.
    And to shift the review of state's appeals to Federal 
activities impacting our coast from Commerce to Interior is 
devastating. It is tantamount to the proverbial fox watching 
the chickenhouse.
    I just want to add that I don't understand the need for any 
amendment of this type that would bring about this type of 
devastation. Current law allows states to review what the 
Federal Government does along our coast. It fosters cooperation 
between the state and the Federal Government.
    And I don't think there have been any problems. As a matter 
of fact, the state coastal management plans have agreed with 96 
percent of all Federal actions. And since its inception in 
1972, there have only been 40 appeals to the Secretary, and 
this is out of thousands of activities.
    So, Mr. Chair and Members, I would hope that you would 
continue to take into consideration the beauty and the 
importance of our coastal communities.
    And in the case of California, the entire state has spoken 
repeatedly and consistently against adverse actions along our 
coast that would hurt both that scenic beauty and the species 
that live along that area.
    So I thank you for the hearing and thank you in advance for 
your careful consideration of any proposed amendments that may 
be forthcoming.
    [The prepared statement of Mr. Thompson follows:]

Statement of The Honorable Mike Thompson, A Representative in Congress 
                      from the State of California

    Thank you for giving me the opportunity to comment on the Coastal 
Zone Management Act (CZMA), specifically on section 307, the Federal 
consistency provision of the Act as it relates to offshore oil 
drilling. As a Member of Congress that represents a district that has 
one of the longest coastlines in the Continental United States, 
offshore oil drilling is an issue that is very important to me and the 
people of my district.
    Tourism and sport and commercial fishing are very big industries in 
my district. A 1997 study found that the California coast receives 
about 43 million visitors a year. Coastal tourism generates about $9.9 
billion dollars a year and in some years is the largest economic 
component of the California economy. According to the California 
Resources Agency, the economic impact of sport fishing in California is 
$7 billion and the large commercial fishing industry makes California 
makes one of the top five seafood producing states in the country.
    In addition to industries dependent on healthy coastlines, 
California's Department of Finance determined that of the 35 million 
people that live in the state, 85% of them (29 million people) live 
within two hours of the coast. And the population is rapidly rising. 
This increase will continue to stress the coast's already limited 
resources.
    The bottom line is, an oil spill off the California Coast would be 
catastrophic.
    In offshore areas currently drilled, there are routine small 
spills, and periodic major spills, not to mention environmental 
degradation from business-as-usual operations. According to the 
Department of the Interior, there have been 73 incidents and 3 million 
gallons of oil spilled from OCS oil and gas operations in the last 20 
years.
    An amendment was recently proposed by the oil and gas industry that 
would strip the Coastal Zone Management Act from one of its most 
important functions - the right to review Federal activity that would 
impact a state's coastline. This proposal is a thinly disguised veil to 
weaken the state's ability to comment on or restrict outer continental 
shelf leasing.
    Another proposed amendment would shift the responsibilities of a 
state's appeal from the Secretary of Commerce to the Secretary of 
Interior. This would be a major conflict of interest, effectively 
giving the same Federal agency (Department of Interior) that approves 
oil or gas development leases, the authority to override a state's 
objection to oil and gas leases.
    The suggestion of altering the Federal consistency provision is 
very troubling to me. From the California's Coastal Commission's 
perspective and mine, the Federal consistency provision is the most 
significant aspect of the CZMA. It ensures that states have some 
oversight over what the Federal Government can do to a state's coast. 
The Federal consistency requirement is a primary reason for states to 
join the national coastal management program, a program utilized by 
almost every eligible state. The provision fosters cooperation and 
coordination between Federal and state activities.
    Furthermore, this provision is not one that has created significant 
conflict between states and the Federal Government. In fact, state 
coastal management plans have agreed with almost all Federal actions 
(96% of the time).
    Additionally, since the inception of the Act, there have only been 
40 cases (out of thousands) where the states have appealed proposed 
Federal actions to the Secretary. 14 of the 40 have dealt with offshore 
oil drilling.
    Local communities throughout California have repeatedly voiced 
their strong opposition to oil drilling off of the California coast. 
California has put a moratorium on off shore drilling in state waters, 
has adopted a resolution opposing leases in Federal waters, and has 
recommended the termination of the existing 36 Federal leases. The 
people of California have spoken. They do not want oil drilling off 
their coast.
    Approximately 300 varieties of fish and shellfish are native to 
California's 1,000 mile coastline. California's population far exceeds 
the state's ability to provide for the outdoor recreational needs of 
its residents and visitors.
    An oil spill off of the northern California coast would affect 36 
species of seabirds, 17 species of marine mammals, 2 species of turtles 
and countless species of fish, including endangered salmon species. 
Given these statistics, it would be grossly irresponsible for us to 
relax our standards on offshore drilling.
    Furthermore, the recoverable oil resources off our coast will 
certainly not come close to solving our energy crisis. Energy 
efficiency and conservation will do much more to solve our problems 
than drilling off our coastline.
    In conclusion, states should have the ability to review and comment 
on Federal actions that would affect their coastal areas, especially 
off shore oil drilling and especially when the people of the state are 
so adamantly opposed to it.
    Therefore I appeal to the Committee, the Congress and the 
President--do not weaken provisions that not only protect states' 
rights but also protect our very valuable coastal resources.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Thompson.
    Mr. Miller?

   STATEMENT OF THE HON. GEORGE MILLER, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Miller. Thank you very much, Mr. Chairman.
    I am delighted to be here with my California colleagues to 
speak to you about the suggestion that we should somehow change 
or amend--and, I believe, weaken--the Coastal Zone Management 
Act.
    I must tell you, however, I can't think of two better 
people to testify to, who understand not only the complicated 
ecosystems of our oceans, but also the connections of our 
oceans to our lands, to our bays, to our estuary systems, to 
our wetlands, and others, than my colleagues on this Committee.
    I think my California colleagues have made it very clear 
that our feelings in California are very strong with respect to 
this issue, as they are in many, many other coastal states in 
this nation.
    I had the opportunity, when I was first in Congress, to 
serve on the select Committee on the OCS, where we rewrote the 
OCS Act for this nation to allow and to provide updated 
provisions for oil drilling off the coastal United States.
    I also had the opportunity, under an unfortunate 
circumstance, after the Exxon Valdez to write the oil spill 
liability provisions.
    I think I am somewhat familiar with this industry. And I 
must tell you, I have great respect and am held in awe by what 
this industry is capable of doing. If you read the oil and gas 
journals, the business pages, to see what this industry can do 
in the deepwaters, the kind of capital that they bring together 
and accumulate to provide for deepwater oil drilling today in 
the Gulf of Mexico, their accomplishments in the North Sea and 
the environments of offshore Alaska, this is an incredible 
industry.
    It is a very different industry and a very different 
technology than we in California experienced with Santa Barbara 
oil spill. But it is not foolproof.
    It is not foolproof in any manner. And when things go bad, 
they go very, very bad.
    And it is a fiction to believe that we can clean up an oil 
spill in the open water. It is simply a fiction.
    It is like the escape hatch on the shuttle. It is there so 
we can say to the public, ``Well, they could get out, maybe.'' 
You know, we provided them an exit.
    We have Clean Bay, and we have all this, a huge investment 
by the industry to have cleanup facilities all along various 
coastal areas where there is drilling and where, in my 
district, there is a huge amount of tanker traffic.
    But the fact of the matter is, we have no ability to clean 
that up. We simply manage oil spills, but they do a huge amount 
of damage in the meantime, as they work their way into either 
the rough coast in Mr. Thompson's district or the beaches of 
Mrs. Davis's district. And California has all of that.
    This is not a partisan issue in our state. We are joined by 
our colleagues from the other party. We are joined by our 
colleagues of both parties and nonpartisan officers in every 
city, in every county, in the state legislature, and in the 
Congress on this issue.
    Some people think this is a position of luxury, that 
Californians simply don't want to go along with the program. 
But I must tell you, we are also among the best users of energy 
in this nation.
    I think we are 44th in per capita use. We are using less 
energy right now, for a number of reasons.
    [Laughter.]
    But we were using, before that--and this is why we have a 
little problem with the pricing policy--we are using less now 
than we were in 1998, but we happen to be paying 10 times as 
much for it. But that is another issue for another time.
    The simple fact is this: You are not going to run over the 
coastal states in seeking to drill offshore. President Bush 
knew that. President Carter knew that. President Ford knew 
that. President Nixon knew that.
    This movement is very strong because it is wedded in 
people's visions and views of their states. And it is not just 
in liberal California, northern California, it is not just in 
conservative southern California, but it is in North Carolina 
and South Carolina and along the Florida coast.
    People have made a decision that they have an opportunity 
to have a much more diverse and sustainable economy and 
recreational opportunities and quality of life without this 
production. Other states have made other decisions, and I 
respect that. And I respect that.
    We just finished, last year, because they felt that, in 
fact, they were taking the risk and they weren't getting 
rewarded, we just finished, last year, rewarding them more in 
the CARA act, where Louisiana, Alabama, and other states who 
were drilling get additional rewards for assumed impacts or 
whatever. But they are getting rewarded for that.
    They made those decisions. California has chosen to do 
otherwise. We will continue to do that.
    But to suggest that we now need to amend and weaken this 
act, when, as Mr. Thompson pointed out, of some 10,000 actions, 
40 have been appealed, and only 7, I believe, have been held up 
or overturned on appeal.
    This Act is working because, in fact, it puts the state and 
coastal communities and others in a partnership to make these 
determinations and to come up with the provisions that they 
think are sufficient.
    I don't think this is where the Federal Government should 
go or the Federal Government is going to want to go in terms of 
overriding those decisions by millions of Americans who live 
along the coast of the United States.
    We have been willing to make additional sacrifices and we 
will. And obviously there is a whole debate about energy 
policy. It is very hard to argue that you want to drill off the 
coast of southern California, Santa Barbara, off the Mendocino 
coast, at a time when it is clear to everyone that we continue 
to waste that energy without improved CAFE standards.
    And, Mr. Gilchrest, I shouldn't be lecturing you on any of 
this, but it just simply doesn't make any sense at this point. 
It simply doesn't make any sense at this point.
    I realize there is a quest on within this administration to 
get to the public lands. But clearly, to say that there is an 
artificial line out there, whether it is 3 miles or 10 miles or 
200 miles, that is all interesting, but once the oil is loose 
on the water, once a mistake is made, once a pipeline breaks 
coming across state lands, it doesn't know those state lands 
from Federal lands, Federal waters from state waters.
    That is an integrated problem. And that is why we have an 
integrated system of coastal zone management and consistency 
provisions.
    And we have provided these powers, because if we didn't 
provide these powers, in fact, we would be in a much worse 
political situation than we are today.
    And so I would hope that this Committee, in its review of 
these proposals, would give strong consideration to holding on 
to the current law that provides the states for this voice and 
for some determinations about their economic and their 
environmental future.
    Thank you very much.
    [The prepared statement of Mr. Miller follows:]

Statement of The Honorable George Miller, a Representative in Congress 
                      from the State of California

    I appreciate the opportunity to testify before the Fisheries 
Conservation, Wildlife and Oceans Subcommittee. The Coastal Zone 
Management Act (CZMA) covers numerous issues, including the management 
of the Outer Continental Shelf. To be clear, I adamantly oppose any 
changes to CZMA which would weaken protections for California's coast. 
On Wednesday, the Gas Subcommittee of an Interior Department Advisory 
Panel recommended that the government begin preliminary exploration 
activities in five areas where drilling is currently prohibited. In 
addition, the American Petroleum Institute and the National Ocean 
Industries Association have proposed amendments to CZMA which would 
effectively weaken existing protections for California and other 
protected coastal areas.
    California has 1,100 miles of coastline which contribute $50 
billion to California's economy. California began efforts to protect 
its coast line in 1929. Beginning in 1955, the California State 
Legislature prohibited oil and gas leasing in parts of the state 
waters. In 1994, the State Legislature approved the Coastal Sanctuary 
Act which prohibits future oil and gas leasing in state waters.
    Executive Orders issued by President George Bush, Sr., and 
President Bill Clinton have prohibited new leasing in Federal waters. 
On a year to year basis, Congress has continued to prohibit the 
development of the 36 leased areas off California's Coast. It should be 
clear to this Committee and the Bush Administration that Californians 
do not want to see their coast developed for oil and gas.
    This is the precise reason I am so concerned with proposed 
amendments which would weaken a state's ability to control coastal 
development. CZMA contains a provision, commonly called Federal 
consistency, which requires that Federal actions inside or outside the 
coastal zone must be consistent with state coastal management programs. 
Ninety-five percent of the time, the state and Federal Government 
concur. Since 1978, the Minerals Management Service has approved 10,617 
Exploration Plans and 6,096 Development and Production Plans. There 
have been only 14 cases where the oil and gas industry appealed a 
state's objection to their plan to the Secretary of Commerce. Only 7 of 
the 14 appeals resulted in the Secretary of Commerce deciding against 
the oil and gas industry. The current Federal consistency provision 
works. It allows low impact, non-controversial proposals to move 
forward while providing a process to resolve higher impact and 
controversial proposals.
    I simply cannot understand why the consistency provision needs to 
be amended. The American Petroleum Institute and National Ocean 
Industries Association have proposed amendments which limit the scope 
and authority of states to review impacts of Federal actions and would 
short-circuit the appeals process. States should continue to have the 
authority to review Federal activities in Federal waters impacting the 
state's coastline. The purpose of the Federal consistency provision is 
to ensure that Federal actions in Federal and state waters are 
consistent with a state's coastal management program. States should 
also have access to all the information in Federal proposals, not just 
bits and pieces. Also, there needs to be an independent review, outside 
of the Department of Interior which has to initially approve the 
Federal activity, when Federal actions are disputed. Changing the 
appeals process to allow the Department of Interior to hear appeals is 
like having the fox guarding the hen house. Finally, the current 
appeals process works. In the rare instances when the Secretary of 
Commerce hears appeals, it is necessary that the Secretary and other 
parties have adequate time to submit and review information on coastal 
impacts.
    It should be clear that I am very sensitive to any changes to CZMA 
which upset the delicate balance between state and Federal interests in 
the coastal zone. These efforts to weaken the consistency provision 
combined with the actions of the Department of Interior Advisory 
Committee put California's coast at risk. I can assure this 
Subcommittee that efforts to undermine the consistency language or undo 
the moratorium on leasing in Federal waters will create a huge 
firestorm in California. I urge this Subcommittee to reject efforts to 
amend the consistency provisions in CZMA and continue to support the 
protection of California's coast.
    Thank you.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Miller.
    We don't want to hold on to the current law because we 
don't think the current law is effective enough in protecting 
our coastlines.
    Certainly, there is no consideration by this Committee or 
the two proposed bills to do anything to weaken the consistency 
provisions. If anything, we want to strengthen the consistency 
provisions.
    And there is nothing in any of the legislation--although it 
was pondered, to see if it would be more effective--to move 
this authority from Commerce to Interior. But there is nothing 
in either one of these draft bills to do that either.
    We want to make sure that we hold on to the integrity of 
CZMA. And to do that, you have to ensure that each state and 
each program has the ability to be seen as an equal player with 
the Federal Government--and maybe even more so.
    So it is our intent to look at the reauthorization of the 
Coastal Zone Management Act at its next phase. We have 
certainly planned enough for 30 years; now it is time to 
implement a lot of the ideas and concepts on the ground, 
including the more controversial one--of course, the word 
controversial is a relative term in political circumstances--
but the controversial issue of nonpoint source pollution and 
how we can help strengthen that provision so that the concept 
of reducing or eliminating that problem will be an effective 
part of this act.
    So we appreciate your testimony, especially from Members 
from California, who have a long coastline.
    And, Mr. Miller, the opening part of your statement where 
you mentioned the oil industry, the oil and gas industry--and 
even, to some extent, the oil, gas, and coal industry, or the 
energy industry in general in the United States--it is a pretty 
phenomenal, highly technical, sophisticated industry.
    They do astounding feats with human ingenuity to provide 
the amount of resources to the number of people that they do. 
It is extraordinary.
    But one small mistake can be catastrophic. So it is 
important for us to work with the industry as well, to ensure 
that they provide the resources that are necessary for the 
public. I would hope that we can move into a new phase of 
energy resources in the not-too-distant future.
    But we appreciate your testimony. I don't have any 
questions right now, but I will yield to Mr. Underwood.
    Mr. Underwood. Thank you, Mr. Chairman.
    And thank you for your testimonies today. The spirit and 
the commitment that you have displayed will go a long way 
toward protecting the consistency provisions.
    And I don't think either of the legislations that are 
proposed deal with those specific issues.
    I do want to indicate that I am also struck by Mr. Miller's 
statement about the role of technology in this.
    There is always the attempt to convince people that 
technical expertise and technical know-how can overcome almost 
any problem. And they can overcome a lot of problems, but you 
have to balance against the potential damage of any one of 
these incidents of things that go wrong with oil spills.
    Again, I just want thank you for your testimony.
    I would take the time, if I could, Mr. Chairman, just to 
acknowledge the presence of one of my colleagues from Guam, who 
was a former senator in the Guam legislature, Carlotta Leon 
Guerrero, who is now with the Pew Trust.
    Could you stand up, Carlotta?
    And just to indicate that she has taken a great deal of 
interest in fisheries issues and coastal management issues. She 
is a Republican--
    [Laughter.]
    --so it is a very bipartisan effort.
    I just wanted you to know.
    Mr. Gilchrest. Lose one, gain one.
    [Laughter.]
    Mr. Underwood. That's right.
    I resisted the temptation to say, ``Thank you, Jim,'' 
earlier as we heard the chant on TV.
    [Laughter.]
    Mr. Gilchrest. Thank you, Mr. Underwood.
    Mr. Saxton?
    Mr. Saxton. I am not sure I have anything to add except to 
say, ``Me, too.''
    [Laughter.]
    I guess I would just say this, that together on east 
coast--I am from New Jersey--and on the east coast of New 
Jersey, we have worked together-- former Congressman Bill 
Hughes, former Congressman Jim Howard, Congressmen Frank 
Pallone, Frank LoBiondo, Chris Smith--we have worked together 
as a delegation to try to move forward on various issues which 
had an adverse effect on our coastal waters.
    For many years, for example, New York City and northern New 
Jersey dumped sewage sludge 12 miles offshore, and then later, 
106 miles offshore. And together, our delegation got it 
stopped. It took a long time.
    There was an outfall pipe from a Ciba-Geigy chemical plant 
that went into the ocean in my district, where the Chairman's 
father lives, incidentally, in Toms River, and we got that out 
of the ocean.
    And we got all chemical dumping in the ocean offshore 
waters stopped.
    We got a practice that we called wood burning stopped 
offshore, because it was detrimental and harmful to the 
environment.
    All of these things were point sources of pollution. We 
haven't done squat about nonpoint source pollution, and that is 
where the problem is. And sooner or later, we are going to be 
successful in doing it.
    And so, in our discussions in trying to determine how to 
move forward with this, I said I guess this is just like going 
swimming: You have to jump in and see where we swim to.
    But this is an extremely important issue. And I will also 
just say, parenthetically, that there is no way that I am going 
to support any effort to weaken the consistency provisions of 
this legislation, this law, either.
    Mr. Thompson. Thank you.
    Mr. Saxton. So, thank you for your testimony. We look 
forward to working together to move this issue forward.
    Mr. Miller. Thank you.
    And as I said, I think there are no three people that we 
could testify before who had more knowledge and experience in 
dealing with our coastal zones and our oceans than you three. 
And we appreciate the opportunity to testify here this morning.
    Mr. Gilchrest. Thank you very much, Mr. Miller, Mr. 
Thompson, Mrs. Davis.
    Our next panel will be Ms. Margaret Davidson, Assistant 
Administrator for Oceans, Coastal Zone Management, National 
Oceanic and Atmospheric Administration; Mr. Robert Tudor, Vice 
Chairman, Coastal States Organization; Mr. Michael P. DeLuca, 
President, National Estuarine Research Reserve Association; Ms. 
Louise Lawrence, Chief, Resource Conservation, Maryland 
Department of Agriculture.
    Thank you very much. We look forward to your testimony. We 
appreciate your travel here this morning.
    Ms. Davidson, you may begin.

  STATEMENT OF MARGARET DAVIDSON, ASSISTANT ADMINISTRATOR FOR 
     OCEANS, COASTAL ZONE MANAGEMENT, NATIONAL OCEANIC AND 
                   ATMOSPHERIC ADMINISTRATION

    Ms. Davidson. Good morning, Mr. Chairman.
    Mr. Gilchrest. Good morning.
    Ms. Davidson. Congressman Underwood, Congressman Saxton, 
Congressman Miller, we appreciate the opportunity to testify 
before you today on the reauthorization of the Coastal Zone 
Management Act.
    My name is Margaret Davidson. I am the acting assistant 
administrator for ocean and coastal services for the national 
ocean service component of NOAA, or as they said on ``West 
Wing'' last week, ``N-O-A-A.''
    [Laughter.]
    We are here today to talk to all three panels about the 
Coastal Zone Management Act (CZMA). And it is timely to do so. 
I am particularly pleased because 25 years ago as a law 
student, I actually worked on the original coastal legislation 
for the State of Louisiana.
    [Laughter.]
    So for me, it is a particular pleasure to be here today.
    We are going to focus on three major issues in my quick 
testimony: the success of the CZMA; the emerging coastal 
management issues across our country that challenge our 
Federal, state, territorial, local, and tribal governments; and 
I also want to talk with you about proposed alternatives for 
addressing those emerging issues.
    CZMA, as has been testified, was actually passed in 1972, 
which was nearly 30 years ago. And in the beginning of CZMA, we 
focused on a couple of key things, one of which was, actually, 
establishing state coastal programs.
    One of the beauties of CZMA, as Mr. Miller has pointed out, 
is that it is a highly participatory program with the states; 
the feds provide the national framework, and state government 
can choose to participate in coastal zone management as they 
wish to do so.
    And it is a state plan, and it is state authorities that 
actually guide coastal management in each of the individual 
states. In fact, I view it as one of the first enacted pieces 
of states' rights legislation in this country.
    And the central tenet of CZMA is to balance conservation 
concerns with economic development issues. NOAA provides the 
framework at the national level. We also provide some funding. 
And the states choose whether to participate. In the last 25, 
30 years, 33 out of 35 possible states and territories have 
chosen to participate.
    In fact, the 34th of those states, that program plan is 
under development in the State of Indiana. And I have just been 
informed this week that the State of Illinois wishes to talk to 
us as well about participating in the coastal zone management 
program.
    In which case, all states and territories that would wish 
to participate are coming on board. So national framework was a 
very important thing.
    In addition, CZMA also provides for the National Estuarine 
Research Reserves (NERRS), which has been a very successful 
program. We now have 25 NERRS sites, as we refer to the 
acronym, in 21 states. And there are two in the pipeline that 
have been requested by states and local governments and await 
adequate resources and processes.
    I would like to just quickly point out to you some examples 
in some of the states that have been undertaken over the last 
few years, as well as the fact that even USA Today saw fit last 
summer to run a series over several weeks that really talked 
about the kinds of issues that the Committee and the 
legislation grapples with on a regular basis.
    In the State of California, the San Francisco Bay 
Development and Conservation Commission, which is actually a 
regionally authorized coastal management program, has had a 
particular focus over the last two decades on the issue of 
reversing wetlands loss in San Francisco Bay, which has been a 
very significant issue for them, with the result that in 1970, 
they were losing about 2,300 acres of wetlands in San Francisco 
Bay on an annual basis. And that loss has now been reduced to 
somewhere around four acres per year, which is a very 
significant issue. And, indeed, there has been fairly 
significant wetlands restoration undertaken with the bay.
    The State of Maryland, which I might mention was, the first 
state to step forward to address nonpoint source issues under 
the 6217 nonpoint provisions that were enacted in 1990. And 
Louise Lawrence will be testifying in a little bit about a 
variety of Maryland issues.
    Maryland was the first nonpoint program in the country, and 
one of their great areas of emphasis and success has been to 
focus on issues associated with the tremendous boating 
population on the bay.
    As you well know, Mr. Chairman, this is not just the 
residents of Maryland who like to boat on the bay. There is a 
great number of people, not only from Virginia and Maryland but 
from some other geographies in the immediate region. And so the 
issue of housing boats is a significant one. And the State of 
Maryland Clean Marina Committee has worked very closely with 
Maryland's Department of Natural Resources and really works 
with marina operators to address a variety of issue associated 
with the active boating population.
    In the State of New Jersey, coincidentally, there is a 
National Estuarine Research Reserve on the Mullica River. And 
it has been one of our most active NERRS sites. They have had 
workshops to support local decisionmaking process. They are 
focused on issues of local watershed supply, as well as 
indicators for successful wetlands restoration within the 
watershed.
    In addition, as all of NERRS' sites do, they have focused 
very much on education issues as well. They have a program 
called the Marine Awareness Resources Education Program, which 
has literally trained hundreds of teachers and thousands of 
students across nine school districts in the State of New 
Jersey.
    I think these are just really sort of very typical examples 
of what is taking place across our state and local governments 
to address coastal management issues.
    So, what are some of our emerging issues? And what are the 
ways to address them?
    In the last three decades, since the original passage of 
CZMA, the coastal population has grown from 89 million to 
almost 123 million, which is a gain of 34 million or about 37 
percent.
    In the Department of Commerce, we also have this agency 
referred to as the Census Bureau, and recent data out of the 
Census Bureau suggests to us that this trend continues 
relatively unabated, except for portions of the Southwestern 
U.S.
    As I frequently joke, as soon as they find out that they 
are out of water, they will probably be in your district, Mr. 
Miller.
    There have been many great strides, but clearly, as these 
population trends continue unabated, the issues remain in the 
coast, and we will continue to have many challenging and vexing 
conflicts or concerns at our state and local governments.
    So what I would like to turn to now is to talk about three 
emerging areas that we think that the bills as proposed, with a 
little discussion, will help us to address those issues even 
more significantly.
    Within NOAA, the agency that provides the national 
framework, we really have been thinking about this in three 
ways, Mr. Chairman. We have been thinking about the challenge 
of creating prosperous coastal communities; how we do a better 
job of conserving and restoring our coastal watersheds; and 
measuring success of coastal zone management at all levels.
    Coastal communities are directly addressed in the bills. 
And clearly, it is particularly at the local level that our 
coastal communities are dealing with these challenges and 
frequently don't have enough tools to address the challenges 
that confront them.
    I am fond of pointing out to people, many of our challenges 
are not DC issues; they are not even statehouse issues. They 
are increasingly local planning and zoning issues, and permit 
decisions that are made on a daily basis.
    So what we propose to do, along with you and H.R. 897, is 
to revise CZMA to help our local communities improve 
waterfronts, to address the particular issues related to 
coastal brownfields, to continue to protect and enhance public 
access, and to work with our coastal communities as well as 
other agencies to address and mitigate damages and costs 
associated with coastal hazards.
    As I have mentioned, H.R. 897 is a good beginning to 
address these issues which are national issues, national 
concerns, but that are best addressed at state and local 
levels.
    We believe that H.R. 897 provides a good step toward a new 
approach with a distinctive program that will engage the 
states, the territories, and the communities, and the tribal 
governments, to undertake needed community vision and community 
revitalization efforts.
    I think what is really the important part is that we all 
want to see us bring together the right resources to help local 
communities chart their own futures.
    Coastal watershed, Mr. Chairman--
    Mr. Gilchrest. Ms. Davidson, are you almost--
    Ms. Davidson. Yes, sir.
    Mr. Gilchrest. We are going to try to keep relatively close 
to 5 minutes.
    Ms. Davidson. Okay. I will do so.
    Let me touch on coastal watersheds for a moment: an 
expanded approach to working with communities on the creation 
of watershed conservation and restoration plans, and provide 
the technical assistance that is needed, and work more closely 
with coastal America.
    Finally, we want to, as you proposed, develop a better 
national system of performance measures, not look at outcomes 
but actually address our successes.
    We intend to work with the Heinz Center in cooperation with 
the Coastal States Organization, as well as propose to produce 
a new periodic state-of-the-coast report.
    With that, Mr. Chairman, I will close. I apologize for 
taking more time.
    [The prepared statement of Ms. Davidson follows:]

 Statement of Margaret A. Davidson, Acting Assistant Administrator for 
   Ocean Services and Coastal Zone Management, National Oceanic and 
        Atmospheric Administration, U.S. Department of Commerce

INTRODUCTION
    Good morning, Mr. Chairman and members of the Subcommittee. I am 
Margaret A. Davidson, the Acting Assistant Administrator for Ocean 
Services and Coastal Zone Management for the National Oceanic and 
Atmospheric Administration (NOAA). Thank you for this opportunity to 
testify on the reauthorization of the Coastal Zone Management Act, or 
CZMA. The CZMA has benefitted the Nation, the States, and the citizens 
of our country since its enactment in 1972. The CZMA recognizes a 
national interest in our coastal and ocean areas, and establishes a 
partnership between the States and the Federal Government, in which 
States determine at the local level how best to balance conservation of 
the coastal environment with human uses that depend on coastal 
resources.
    My testimony will focus on three areas: the success of the CZMA to 
date; emerging coastal management issues that need increased attention 
by Federal, State, Local, and Tribal Governments; and alternatives for 
addressing these needs.
THE SUCCESS OF THE CZMA
    In 1972, Congress created the framework and incentives that 
generated a unique partnership among States, local governments and the 
Federal Government to ``preserve, protect, develop, and where possible, 
to restore or enhance the resources of the Nation's coastal zone for 
this and succeeding generations.'' Through their Federally-approved 
Coastal Management Programs, States were given the responsibility to 
balance conservation of the coastal environment with human uses that 
depend on the coastal zone. Each program must address a wide range of 
national goals, including: protecting coastal development and lives 
from erosion and storms; maintaining and restoring the natural beach 
and dune systems; providing for appropriate coastal development; 
protecting and restoring ecologically important coastal habitats; 
furthering the national interest in the siting of energy facilities; 
controlling polluted runoff; improving public access and recreational 
opportunities in coastal areas; revitalizing local waterfronts; and 
ensuring that Federal actions are consistent with State Coastal 
Management Programs.
    The best testament to the success of this voluntary Federal-State 
partnership is the fact that 33 of 35 eligible coastal States, 
Commonwealths, and Territories have received Federal approval of their 
coastal management plans, and that one more State, Indiana, is seeking 
to join the national program. This strong partnership also includes the 
25 Federally-designated National Estuarine Research Reserves (Reserves) 
in 21 coastal States and Commonwealths, with two additional reserves in 
California and New York pursuing designation. Reserves now protect over 
one million acres of estuarine lands and waters and conduct important 
research, monitoring, education and stewardship activities.

PRESSURES ON THE COASTS
    Our Nation's coasts are densely populated and getting more crowded 
every day. Presently, our coastal areas host 53% of the total U.S. 
population living on only 17% of the Nation's land area. The projected 
increases in the number of people living in our coastal areas are 
dramatic. Between 1994 and 2015, coastal population is projected to 
increase by 28 million people (20%), compared to a 22 million increase 
(18%) in non-coastal areas.
    From 1960 to 2015, the population density in all coastal counties 
(excluding those in Alaska) will have grown from 187 to 327 persons per 
square mile - roughly three times the national average. Counties 
located directly along a tidal shoreline are popular locations for 
residential and commercial development. In fact, an average of 360 
people live within every square mile of land in these coastal counties.
    Our coastal regions are also critical to the economy and the 
environmental health of the United States. The 425 coastal counties 
generate $1.3 trillion of the GNP, and coastal industries account for 
more than 28 million jobs, over one-third of the national employment. 
In 1995, just under a billion tons of cargo worth $620 billion moved 
through coastal ports and harbors. Coastal estuaries are among the most 
biologically-productive regions in the Nation, as well as providing 
recreational opportunities for more than 180 million Americans each 
year.
    The United States is not alone in its efforts to balance coastal 
conservation and development. Almost half of the world's population 
lives within 100 miles of the coast, and problems that we find in the 
U.S. are similar to those in other coastal nations. About half of the 
world's coastal nations have undertaken some activities to develop 
coastal management programs. Many of these efforts are patterned after 
the CZMA, which remains at the forefront of coastal management planning 
and implementation.
THE ROLE OF STATE COASTAL MANAGEMENT PROGRAMS
    State Coastal Management Programs and Reserves provide the 
framework necessary to sustain the economic and ecological value of the 
coastal areas. The balance is achieved through various State and local 
programs that allow for the orderly development, conservation, and 
recreational use of the lands and waters in the coastal zone.
    The incentives given to the States and include funding for 
developing and implementing coastal management programs and reserves, 
and a unique type of Federal-State coordination called ``Federal 
Consistency.'' This incentive requires Federal agencies to be 
consistent to the maximum extent practicable, and those applying for 
Federal approvals and funding to be fully consistent with the approved 
State Coastal Management Programs. The Federal Consistency provision 
has worked well, as States have concurred with more than 95 percent of 
the projects reviewed under Federal Consistency. Of the remaining five 
percent, of all the thousands of Federal actions reviewed there were 
only 40 instances where an applicant for a Federal approval appealed a 
state's objection to the Secretary of Commerce. Of that total, 
approximately 14 appeals were associated with proposed Outer 
Continental Shelf (OCS) oil and gas exploration and/or development 
activities.
    In light of the Administration's recent National Energy Policy 
Report and Executive Order 13212 (Actions to Expedite Energy-Related 
Projects), requiring agencies to expedite their review of permits and 
other Federal actions related to energy-related project approvals, we 
will work closely with the Department of the Interior, other 
Departments, and State governments to re-examine the current Federal 
legal and policy regime (statutes, regulations, and Executive Orders) 
to determine if changes are needed regarding energy-related activities 
and the siting of energy facilities in the coastal zone and the OCS.

BENEFITS OF THE CZMA
    The CZMA has provided numerous benefits to the Nation, to the 
States, Territories and to the citizens living, working and recreating 
in our coastal communities. Over the years, the CZMA has received near-
unanimous bipartisan support within Congress, and the wide-spread 
support of State and local governments, interest groups and the public. 
The benefits of the CZMA can be seen in the effectiveness of the 
national system of State coastal management programs, the growing 
network and use of estuarine research reserves, the vitality of our 
coastal economies, and the protection and sustainability of important 
coastal resources and habitats. I would like to highlight a few 
examples:
    Reversing Wetlands Loss -- The San Francisco Bay Conservation and 
Development Commission, a Federally-approved CZMA program, has reversed 
wetland loss from 2,300 acres per year to only 4 acres per year.
    Reducing Risks from Coastal Hazards -- The South Carolina coastal 
program used funding under section 309 and a NOAA Coastal Management 
Fellow to refine and implement a procedure for conducting damage 
assessments following coastal storms. This computer based program 
allows State managers to better understand the relationships between 
damaged habitable structures, natural beach features and erosion 
control structures.
    Improving Access to Coastal Resources -- Under section 306A of the 
CZMA, the Coastal Resource Improvement Program, States have used 
Federal and State funds to substantially increase public access to 
natural and cultural coastal resources. Estimates indicate that States 
have developed more than 1,000 coastal access and resource protection 
projects since 1985. The States have spent more than $50 million in 
Federal funds, equally matched with State and local funds, on these 
efforts. The Maryland CZM Program worked with the Town of Federalsburg 
on a public access project to construct a boardwalk that links two 
greenways--the Marshyhope Creek Trail and the Federalsburg Riparian 
Restoration Nature Trail. This project helped complete a 1.5 mile trail 
system in a ``river walk park,'' including a number of recreational 
features. The park also includes an education component that explains 
to the public the functions of the river systems and the impacts to the 
rivers and coast of the adjacent urban area. In addition, the North 
Carolina coastal program has improved or developed 57 coastal water 
accesses and boardwalks since 1996. During the next year, the Texas 
coastal program will be working with two local governments to develop 
coastal accesses. These projects will use $150,000 of Federal funds and 
will be matched by nearly $300,000 of local funds.
    Supporting Economic Development -- State coastal management 
programs have provided support to numerous coastal communities for 
environmentally-sound waterfront revitalization. The City of 
Wilmington, North Carolina used CZMA funds to develop a riverfront plan 
that served as a catalyst for $4 million in public investment and $100 
million in private investment along the Cape Fear River. This project 
restored the Wilmington waterfront into a vibrant economic and social 
center. The State of New Jersey has also expanded its total acreage of 
waters available for shellfish harvesting for 11 years in a row. This 
is attributed to better water quality due to NJDEP's watershed 
management approach, designation of No Discharge Zones in the Manasquan 
and Shark Rivers, and improved efforts to control nonpoint pollution. 
In 1998, the State set the record for the fewest beach closings, 
according to an NRDC report. NJDEP is also the lead agency on a new 
program to site aquaculture development zones within State waters to 
further facilitate the production of shellfish.
    Controlling Polluted Runoff -- In 1999, Maryland became the first 
coastal State to receive full approval of its coastal nonpoint 
pollution control program by NOAA and the Environmental Protection 
Agency. Development of the coastal nonpoint program was accomplished 
through strengthening the links among existing State and Federal 
management programs that protect water quality. The coastal nonpoint 
program was directly responsible for the Clean Marinas Initiative, a 
program that recognizes marinas for voluntarily putting into place best 
management practices that reduce pollution from boats and marina 
facilities. Maryland's program has served as a national model for other 
coastal States.
    Providing Research and Education -- The National Estuarine Research 
Reserves have developed a uniform system-wide water quality monitoring 
framework at 22 reserves. This information helps scientists, managers, 
and coastal communities understand natural and human-induced changes in 
estuaries around the country. The impacts of farming methods and 
habitat restoration on water quality is a key issue studied at numerous 
sites.
    The Jacques Cousteau National Estuarine Research Reserve in New 
Jersey conducts education programs especially designed to improve 
science instruction to all students while improving environmental 
awareness and academic excellence. Through the Marine Awareness 
Resources Education (MARE) Program, the Reserve trains hundreds of 
teachers each year, reaching 27 schools, nine school districts, and 
thousands of students. In addition, the reserve provides science-based 
training to adult coastal decision makers. Workshops such as those on 
water supply issues in New Jersey's coastal watersheds and ecological 
indicators for salt marsh restoration help bring sound science to 
environmental professionals.
    Eutrophication, caused by nitrogen loading from human and other 
activities in the watershed, is the most challenging management issue 
for Waquoit Bay National Estuarine Research Reserve in Massachusetts. 
This problem is shared by shallow coastal bays along the northern 
Atlantic coast. Research at the reserve has shown that septic systems 
contribute a significant percentage of the nitrogen in Waquoit Bay. 
Current activities at the reserve focus on educating local decision-
makers and citizens in the Waquoit Bay watershed about alternative on-
site disposal systems.
    Under section 315 of the CZMA, the National Estuarine Research 
Reserve System, States have used Federal funds to protect more than one 
million acres of coastal lands and waters for the purposes of long-term 
research, education, and resource stewardship. Reserves also have 
conducted research on the best methods to use for restoration projects 
and have restored over 100,000 acres of degraded estuarine habitat.
    The benefits of the reserve system reach far beyond the protection 
of 25 sites. Education and training programs provide sound, science-
based information to teachers, students, State and local government 
officials and many other coastal decision makers, resulting in better 
stewardship of coastal resources. These outreach activities make the 
Reserves critical components in the implementation of the State coastal 
management programs. For example, since 1998, nearly 5,000 people have 
participated in workshops on coastal issues, and approximately 25,000 
school children participate in reserve educational programs each year.

EMERGING COASTAL MANAGEMENT ISSUES
    While there have been great strides in managing the Nation's 
coastal zones, much remains to be done. Management of the nation's 
coastal zone through State coastal management programs, estuarine 
research reserves, and NOAA requires management programs to address 
increasing pressures on coastal and ocean resources. Pressures on 
coastal and ocean resources are increasing dramatically, and so are the 
resulting management challenges. For example, the projected increase in 
coastal population of 28 million people between 1994 and 2015 will be 
accompanied by increases in solid waste production, urban runoff, 
losses of green space and wildlife habitat, water quality declines, and 
other stresses on the coastal and marine environment.
    We have identified three emerging issue areas that warrant 
consideration during this reauthorization: Creating Prosperous 
Communities, Conserving and Restoring Coastal Watersheds, and Measuring 
Success.
    Coastal communities are facing increasing challenges. Increasing 
numbers of people are moving to our coasts, and many communities do not 
have the ability to plan for or respond to new pressures on the coastal 
zone. The CZMA could provide a focus to help coastal communities 
respond to this population growth by revitalizing urban waterfronts and 
water-dependent economies, restoring and redeveloping coastal 
brownfields, providing for increased public access to waterfronts and 
waterways, and minimizing the threat to lives and property associated 
with coastal storms.
    Coastal watersheds provide the fresh water and habitat needed to 
support our coastal economies, since recreation and tourism depend on 
healthy natural resources. A new focus on watershed conservation and 
restoration is needed to identify areas for conservation as well as 
areas that are suitable for development. Our experience with estuarine 
reserves and coastal management programs reveals that improved 
information is needed about the status of coastal resources, potential 
threats (such as impacts of coastal hazards) and potential compatible 
uses. This information will enhance our ability to manage these areas 
to meet national, as well as local and tribal, interests. The result 
would be new projects to revitalize the coast through restoring, 
conserving and protecting coastal waters and habitats, and encouraging 
compatible uses in areas with high resource values.
    Program reporting and assessment could be substantially increased. 
While the CZMA requires periodic evaluations of State programs and 
reserves, there is a need to develop a national system of performance 
measures (indicators) to assess the health of the natural, cultural and 
economic resources of the coastal zone. There is also a need to 
continue programs to measure the success of a variety of Federal, 
State, tribal and local coastal management efforts. A truly successful 
evaluation system must periodically examine the performance of all of 
the parties contributing to coastal management, regardless of their 
authorizing statute or funding agency.

ADDRESSING EMERGING COASTAL MANAGEMENT ISSUES
    Communities. One alternative is to create a distinct program to 
encourage States, communities and tribes to undertake community 
revitalization and restoration projects. Project development funding is 
available only through section 306A of the Act, which is geared toward 
direct implementation of the approved State coastal management plan. A 
new emphasis could look at developing projects to address coastal 
issues in local communities. H.R. 897 provides a good basis for 
revitalizing coastal communities by creating a community initiative and 
authorizing funding to states and communities that will allow local 
communities to chart their own futures.
    Watersheds. A similar effort could be undertaken to support the 
creation of coastal watershed conservation and restoration plans. These 
plans could lead to the development of projects that would improve 
coastal water quality, ensure adequate coastal habitat, and promote 
compatible uses of lands and waters in the coastal area.
    An option for effectively addressing emerging coastal issues at 
both the local community and watershed scales is to create new 
technical assistance and education initiatives. Changes to Section 310 
of the CZMA could provide for new education, technical assistance, and 
technology development and transfer programs. It could also encompass 
other NOAA programs that provide critical tools and technologies to 
coastal zone management programs. Education initiatives under this 
section could focus on the general public and the business community as 
well as on local decision-makers.
    The CZMA could better address watershed needs by developing a 
greater focus on the outreach and education capabilities of the 
National Estuarine Research Reserves. These enhancements could look at 
expanding the reserve system-wide monitoring program, developing new 
reserves to include all of the coastal bio-geographic regions, and 
increasing opportunities for training coastal decision makers in all of 
the coastal States and Territories. This would enable the reserve 
system to build on the successes already achieved in these areas.
    Performance measures and reporting. To ensure that coastal 
management efforts are directed to the most pressing and important 
issues, a national effort has been initiated to determine the change of 
conditions over time and to develop a set of performance measures on 
the effectiveness of management programs on coastal resources. This 
effort could be based on the experiences of some States, such as 
Florida and New Jersey, that have developed performance indicators and 
measures under State requirements and initiatives. A study that NOAA 
commissioned in 1996, The U.S. Coastal Zone Management Effectiveness 
Study (1998), concluded that the monitoring and evaluation of State 
management measures is possible, yet has not been done in any 
systematic fashion. A regular report on the status of coastal resources 
and the effectiveness of management programs could supplement or 
replace the current biennial report, which is more directly related to 
program administration.

CONCLUSION
    Our Nation's coasts are incredible places - that is why so many of 
us live, work, and play along the shore. Balancing economic prosperity 
and environmental conservation continues to be an important challenge. 
The Coastal Zone Management Act is an important part of our efforts to 
achieve that balance in a manner that benefits all the citizens of the 
Nation. The Coastal Community Conservation Act of 2001 (H.R. 897) would 
improve an already effective relationship between the State coastal 
management programs, the National Estuarine Research Reserves, and the 
Federal government. The CZMA is an effective statute, but there are a 
number of improvements that could be made. At the request of Chairman 
Hansen, the Department is currently working on additional written 
comments on H.R. 897 for consideration by the Committee. I look forward 
to working with you and our partners on this challenge. Thank you.
                                 ______
                                 
    Mr. Gilchrest. That is all right, Ms. Davidson. Thank you 
very much for your testimony.
    I will yield to Mr. Saxton to introduce the next witnesses.
    Mr. Saxton. Thank you, Mr. Chairman.
    A few minutes ago, I mentioned the great progress that we 
have made in New Jersey in addressing many of our coastal 
management and environmental pollution problems. And two people 
are with us today that have been really central to that entire 
effort.
    First, deputy commissioner of the Department of 
Environmental Protection, Bob Tudor on the right, who will 
testify next. Bob is director of our coastal management program 
and, as such, has a very busy schedule and has a done a great 
job. I would like to welcome Bob here today.
    And also, someone who is really no stranger to this 
Subcommittee, Mike DeLuca, who is officially with Rutgers 
University but is here to represent today the Coastal States 
Organization.
    I think you are President of the Coastal States 
Organization?
    Mr. DeLuca. NERRA.
    Mr. Saxton. National Estuarine Research Reserve 
Association. I am sorry.
    [Laughter.]
    And he also is the Director of the Institute for Marine and 
Coastal Studies at Rutgers University and has had everything to 
do with the Jacques Cousteau National Estuary Research Reserve 
on the Mullica River, which Margaret Davidson mentioned a few 
minutes ago, and is also Director of our Leo XV, which we are 
very proud of, and which Mike is, along with a couple of other 
people, primarily responsible for.
    And just by way--not talking too long, but to just let 
everybody know that Leo XV is the first, real-time undersea 
observatory in the world, connected to shore by fiber optic and 
gives people all over the world, via satellite communication, 
the ability to do real-time studies of ocean currents, sand 
movement, wave height, salinity, and others.
    Mike, welcome to you today as well.
    Mr. Gilchrest. If I could interrupt just for a second, I 
need to ask unanimous consent for the gentleman from 
California, George Miller, to sit on the dais.
    Mr. Miller. No objection.
    [Laughter.]
    Mr. Gilchrest. Hearing no objection, so ordered.
    Mr. Miller. Thank you, Mr. Chairman.
    Mr. Gilchrest. Welcome, Mr. Tudor.

   STATEMENT OF ROBERT TUDOR, VICE CHAIRMAN, COASTAL STATES 
                          ORGANIZATION

    Mr.  Tudor. Thank you. Good morning.
    Chairman Gilchrest, Delegate Underwood and Members of the 
Subcommittee, I am Bob Tudor, deputy commissioner of the New 
Jersey Department of Environmental Protection, and vice chair 
of the Coastal States Organization.
    Thank you for the opportunity to testify this morning on 
behalf of the CSO on reauthorization of the Coastal Zone 
Management Act.
    The CZMA has long enjoyed widespread bipartisan support in 
Congress and public support out in the states. CSO looks 
forward to working with you to complete reauthorization this 
year.
    I also would like to acknowledge the leadership of my home 
state representatives on the Subcommittee, former chair Jim 
Saxton and Frank Pallone, for the strong support of coastal 
resource management and protection.
    The overall objective of coastal management's collective 
efforts is simple: to protect and improve the quality of life 
for the people who live near and visit the coast, and to 
protect and restore the natural resources upon which that 
quality of life depends.
    In New Jersey, we are seeking to implement coastal 
management by working with local communities to integrate state 
and regional planning, extensive statewide land acquisition, 
and watershed management into local action.
    Congress can best assist these efforts by reauthorizing the 
CZMA and by amending the Act to do four things.
    First, there should be expanded support for existing state 
coastal zone management programs so that all states can benefit 
from increased appropriations.
    Second, provide specific authorization in addition to base 
coastal programs for states to assist communities to support 
efficient, well-planned growth and to protect and restore 
critical habitats.
    Third, continue to support the flexible, collaborative 
Federal-state CZMA partnership with an increased 
accountability. This is where it relates to the performance 
indicators.
    Fourth, we support the testimony we just heard on the first 
panel to maintain support for consistency review of Federal 
activities that affect state coastal resources and uses.
    CSO strongly supports the intent of both the proposed 
discussion draft and H.R. 897 to increase program support, 
place an expanded emphasis on implementation and support for 
community-based projects, and development a cost-effective set 
of performance and outcome indicators.
    We would like to work with the Subcommittee to revise the 
proposals to ensure they do not undercut existing program 
priorities and commitments. More detailed recommendations are 
provided in my written testimony.
    Our work to protect the nation's coast is far from done. 
Reauthorization and increased support for implementation of the 
CZMA can make a significant difference.
    As illustrated by charts attached to my testimony, 
population density along the coast is already five times the 
national average. More people are moving to the coast every 
day, and coastal recreation and tourism is booming. Development 
pressures and demands on coastal resources are increasing at an 
even faster pace.
    For example, in the Delaware estuary, while population is 
forecast to grow 10 percent over the next 30 years, from 1990 
to 2020, land development is projected to increase by 36 
percent. Despite these trends in increased population density 
and development pressure, we are making significant progress 
toward achieving national objectives.
    I would like to direct your attention to just a few New 
Jersey examples to illustrate this.
    The first is a little schematic here talking about the 
progress in New Jersey, even though population has increased 
and there has been significant growth of development in our 
coastal area, in terms of our back-bay waters that are open for 
shellfish harvesting.
    When we go back to 1976, we had about 74 percent of the 
waterways that were open for shellfish harvesting. Right now, 
we are at a level of about 88 percent. We have a clear, 
overarching umbrella goal that everybody in our agency works 
toward: to achieve 90 percent harvestable by the year 2005.
    And we think by working upon the successes we have had in 
controlling point source pollution, focusing more efforts on 
nonpoint source pollution, as articulated by Congressman 
Saxton, that we will be able to achieve this goal of 90 percent 
of our shellfish waters open for shellfish harvesting by the 
year 2005.
    We would like to be able to--as the Coastal States 
Organization, working with NOAA NOS and this idea of 
performance indicators--is to be able to report out to you in 
future years across a whole range of issues about how effective 
the state-Federal partnership is in affecting these resource-
improvement types of outcomes.
    Another thing that we are proud of in New Jersey--and 
Congressman Saxton made reference to this as well: In the early 
1990's, we had problems in terms of our ocean and bay beaches 
being swimmable, in part due to floatable issues or discharge 
of sludge materials. We no longer have floatable materials in 
New Jersey.
    And our beach closings have a downward trend line, so that, 
last year, out of our 179 ocean-front beaches, only 11 beaches 
experienced closure, and eight of those were in one place. And 
we have specific action plans to deal with that, because we 
have a focused approach to make sure we have zero beach 
closures in the next year or two.
    Similarly, we have made significant progress in closing bay 
beaches. In that case, we have 139 beaches, and we are now down 
to, in the past year, seven beach closures. And we have taken 
steps in those areas to reduce specific sources of nonpoint 
source pollution, so that we don't have the excess bacteria 
counts that would lead to those closures.
    Lastly, dealing with a living resources example, again, we 
were talking about significant increases in population, 
significant increases in housing and commercial development in 
the coastal area. But we have been able to influence the 
pattern of development and the kind of performance standards 
that they adhere to, so that, in this case, we are able to have 
a very significant upward trend in terms of not only viable 
nests for the bald eagle population in the State of New Jersey 
but the habitat that is necessary in terms of feeding and 
foraging to ensure the success of those different nesting sites 
in the State of New Jersey.
    CZMA can also provide a mechanism for resolving issues of 
national significance, such as the exploration of oil and gas 
in offshore waters. Issues regarding energy production vary 
among the states and can be very emotional. CZMA provides a 
framework for states to work through these issues based on 
their individual needs consistent with national policies.
    In Maryland, the coastal program has funded development of 
sensitive area inventories, modeling of growth scenarios, GIS 
mapping, and development of plans to support local governments' 
efforts under the state's economic growth resources protection 
and planning act.
    In Louisiana, the state coastal program is preparing to 
examine pipeline corridors for oil and gas transmissions with 
the intent of establishing corridors where such lines can be 
installed with minimal environmental disturbance through an 
expedited permitting process.
    The CZMA establishes a unique Federal-state partnership to 
achieve the goal of minimizing sustainable economic and 
environmental objectives. Through voluntary participation, 
states promote a national interest based on state and local 
priorities to protect fish and wildlife habitat; support 
compatible coastal development to mitigate coastal hazards to 
protect lives and property; coordinate the siting of energy, 
commercial, and industry facilities; improve access to the 
shore; and restore and develop waterfronts.
    CSO recommends the following CZMA changes:
    Eliminate the cap and increase state grant support under 
CZMA Section 306. Equitable funding increases are needed so 
that all states and territories can share equitably in funding 
increases, maintain commitments to implement coastal zone 
management programs, and grow to meet new challenges.
    Funding for the states' grants to administer and implement 
their coastal programs have been capped at the $2 million level 
for the past 9 years. As a result, many states have received no 
increases in 306 since 1991.
    Fifteen of the 35 eligible states have reached the cap 
and--
    Mr. Gilchrest. Mr. Tudor, we have a vote on.
    I hate to do this, but I will have to interrupt you.
    Mr. Tudor. Okay.
    Mr. Gilchrest. We will come back after the vote.
    But Ms. Pelosi is in the room. And if you wouldn't mind, we 
will have Ms. Pelosi testify. And then what we will do is 
recess, go to the vote, and then come back.
    Mr. Tudor. Okay.
    Mr. Gilchrest. Thank you very much.
    Welcome, Ms. Pelosi. We will give you about 5 seconds to 
catch your breath.
    Ms. Pelosi. That is okay. It is the life we lead.
    Mr. Gilchrest. Yes, ma'am.

    STATEMENT OF THE HON. NANCY PELOSI, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Pelosi. Mr. Chairman, thank you so much for the 
extraordinary courtesy you have extended to me by taking out of 
turn here--
    Mr. Gilchrest. You are welcome.
    Ms. Pelosi. --especially on our way to vote.
    And to the distinguished Ranking Member, thank you also, 
and Members of the Committee, Mr. Miller.
    Thank you to the panel, the inconvenience to them, as well.
    I appear before you to discuss a matter of utmost concern: 
the need to maintain and enhance the critical role of our 
coastal states and the stewardship of our nation's coastal 
environment.
    Mr. Chairman, I am going to stick to my notes, because then 
I will be briefer.
    Mr. Gilchrest. All right, fine.
    Ms. Pelosi. As J.D. Salinger said, if I had more time, I 
would have written you a shorter letter. So this is the shorter 
letter.
    [Laughter.]
    First, I would like quickly to paint a picture for you of 
the marine treasures that lie off the shores of the San 
Francisco Bay area. We are fortunate to have three national 
marine sanctuaries to help protect these resources.
    The Gulf of the Farallones sanctuary contains the largest 
breeding concentration of sea birds in the continental U.S.; 33 
marine mammal species, including endangered blue and humpback 
whales; and breeding grounds for 20 percent of California's 
harbor seals. The sanctuary hosts nurseries and spawning 
grounds for commercially valuable species such as Dungeness 
crab, Pacific herring, and rockfish, and supports many 
commercial fisheries.
    The Cordell Bank National Marine Sanctuary encompasses an 
underwater mountain perched near the edge of the continental 
shelf, where a unique combination of undersea topography and 
ocean currents create an amazingly productive marine 
environment.
    Monterey Bay, the largest marine sanctuary, stretches all 
the way up to San Francisco and includes a rich array of marine 
habitats that abound with life.
    Although these areas have been designated as sanctuaries, 
they are very much affected by human activities on land and 
sea. To protect them, we must remain committed to protecting 
the coastal environment through the Coastal Zone Management Act 
and other policies.
    In 1972, as you know very well, Mr. Chairman, Congress 
enacted the Coastal Zone Management Act--not because you were 
here, Mr. Chairman, but because you have been such a leader on 
these issues--which encourages states to adopt a high national 
standard in exercising their stewardship of the fertile and 
fragile zone. Congress provided incentives in the law to induce 
coastal states to adopt their own coastal zone management plans 
and obtain Federal certification of these plans.
    The Act gives the opportunity to participate in a 
thoughtful decisionmaking process to determine which activities 
are consistent with their coastal zone management plans. When a 
difference of opinion arises between the coastal states and the 
Federal Government over specific activities within the coastal 
zone, the Secretary of Commerce is the ultimate arbiter.
    With energy issues in the stoplight, the CZMA will play an 
important role in decisions on addressing America's energy 
needs. The administration's energy plan emphasizes exploration 
for and extraction of oil and natural gas, and calls for a 
reexamination of policies that restrict energy-related 
activities in the coastal zone and the outer continental shelf.
    Another report released yesterday by a Subcommittee of the 
outer continental shelf advisory board recommends selecting 
five locations within the moratorium areas for a pilot project 
on natural gas extraction.
    Mr. Chairman, as a Member representing a coastal district, 
I assure you that my constituents strongly oppose any efforts 
to resume oil and gas leasing in the moratoria areas. In the 
context of this new pressure to increase offshore drilling, the 
protections provided by the CZMA become all the more important 
to coastal states.
    Representatives of the petroleum industry are promoting a 
wish list of amendments to the CZMA that would significantly 
weaken the role of states in coastal management. Several 
proposed amendments would severely limit the scope and 
authority of coastal states to review activities that could 
significantly affect the state's coastal uses and resources.
    Mr. Chairman, this proposal to weaken CZMA is unacceptable. 
The CZMA is not broken; it is working well, providing a balance 
between preservation and development decisions, and should not 
be weakened in any way.
    There is one area in which the CZMA should be strengthened, 
and that is in the act's ability to empower states to address 
water pollution from nonpoint sources.
    I encourage the Committee to prevent erosion of this 
important statute and to address of coastal nonpoint source 
pollution during the reauthorization process.
    I thank you for the opportunity to present my views.
    And I make this presentation on a regular basis to the 
Appropriations Subcommittee on Commerce, Justice, State for the 
funding for the CZMA. I served on there at one point. It is a 
priority for many of us.
    And as I look at the makeup of the Committee there, I feel 
that we are in our mother's arms, as Phil Burton would say.
    [Laughter.]
    [The prepared statement of Ms. Pelosi follows:]

 Statement of The Honorable Nancy Pelosi, a Representative in Congress 
                      from the State of California

    Chairman Gilchrest, Mr. Underwood, and Members of the committee, 
thank you to for the opportunity to testify today.
    I appear before you to discuss a matter of utmost concern: the need 
to maintain and enhance the critical role of our coastal states in the 
stewardship of our nation's coastal environment.
    First I would like quickly to paint a picture for you of the marine 
treasures that lie off the shores of San Francisco. We are fortunate to 
have three National Marine Sanctuaries to help protect these resources.
    The Gulf of the Farallones sanctuary contains the largest breeding 
concentration of seabirds in the continental U.S., thirty-three marine 
mammal species including endangered blue and humpback whales, and 
breeding grounds for twenty percent of California's harbor seals. The 
sanctuary hosts nurseries and spawning grounds for commercially 
valuable species such as Dungeness crab, Pacific herring, and rockfish, 
and supports many large commercial fisheries.
    The Cordell Bank National Marine Sanctuary encompasses an 
underwater mountain, perched near the edge of the continental shelf, 
where a unique combination of undersea topography and ocean currents 
create an amazingly productive marine environment. Monterey Bay, the 
nation's largest marine sanctuary, stretches all the way up to San 
Francisco and includes a rich array of marine habitats that abound with 
life.
    Although these areas have been designated as sanctuaries, they are 
very much affected by human activities on land and sea. To protect 
them, we must remain committed to protecting the coastal environment 
through the Coastal Zone Management Act (CZMA) and other policies.
    In 1972, Congress enacted the Coastal Zone Management Act, which 
encourages states to adopt a high national standard in exercising their 
stewardship of the fertile and fragile zone. Congress provided 
incentives in the law to induce coastal states to adopt their own 
Coastal Zone Management Plans and obtain Federal certification of these 
plans.
    The Act gives states the opportunity to participate in a thoughtful 
decision-making process to determine which activities are consistent 
with their Coastal Zone Management Plans. When a difference of opinion 
arises between coastal states and the Federal Government over specific 
activities within the coastal zone, the Secretary of Commerce is the 
ultimate arbiter.
    With energy issues in the spotlight, the CZMA will play an 
important role in decisions on addressing America's energy needs. The 
Administration's energy plan emphasizes exploration for and extraction 
of oil and natural gas, and calls for a re-examination of policies that 
restrict energy-related activities in the coastal zone and the outer 
continental shelf.
    Another report, released just yesterday by a subcommittee of the 
Outer Continental Shelf Advisory Board, recommends selecting five 
locations within the moratorium areas for a pilot project on natural 
gas extraction.
    Mr. Chairman, as a Member representing a coastal district, I assure 
you that my constituents strongly oppose any efforts to resume oil and 
gas leasing in the moratoria areas. In the context of this new pressure 
to increase offshore drilling, the protections provided by the CZMA 
become all the more important to coastal states.
    Representatives of the petroleum industry are promoting a wish list 
of amendments to the CZMA that would significantly weaken the role of 
states in coastal management. Several proposed amendments would 
severely limit the scope and authority of coastal states to review 
activities that could significantly affect the state's coastal uses and 
resources.
    Mr. Chairman, these proposals to weaken the CZMA are unacceptable. 
The CZMA is not broken. It is working well, providing a balance between 
preservation and development decisions, and should not be weakened in 
any way.
    There is one area in which the CZMA should be strengthened, and 
that is in the Act's ability to empower states to address water 
pollution from non-point sources. I encourage the committee to prevent 
erosion of this important statute, and to address the issue of coastal 
non-point pollution during the reauthorization process.
    Thank you again for this opportunity to present my views.
                                 ______
                                 
    Mr. Gilchrest. Thank you.
    Ms. Pelosi. Thank you, Mr. Chairman, for the opportunity to 
testify.
    Mr. Gilchrest. Thank you, Ms. Pelosi. You have nailed down 
this testimony.
    Any questions?
    Thank you very much.
    The Subcommittee will stand in recess for about 15 minutes.
    [Recess.]
    Mr. Gilchrest. The Subcommittee will come back to order.
    I was about to apologize when I came back here, rushing 
back here, to all the witnesses and the people in the hearing 
room, for the fragmented congressional time schedule and making 
you all wait. But when I got back here, it looked like 
everybody was having a great time.
    [Laughter.]
    This is the number two highly visited area in Washington 
for tourists, the Resources Committee hearing room.
    [Laughter.]
    I ask unanimous consent that a statement of Dr. William 
Merrell, from the John Heinz Center for Science, Economics and 
the Environment, be entered in to the record; and a statement 
of the American Farm Bureau be entered into the record; and 
also for Members that had statements, for their statements to 
be submitted to the record.
    [The prepared statement of Mr. Merrell follows:]

 Statement of Dr. William J. Merrell, President and Senior Fellow, The 
  H. John Heinz Iii Center for Science, Economics and the Environment

    Good morning, Mr. Chairman and members of the Subcommittee. I am 
William Merrell, President of The H. John Heinz III Center for Science, 
Economics and the Environment. While serving as president of The Heinz 
Center, I am on leave of absence from the Texas A&M University, where I 
am professor of oceanography and marine sciences. I am pleased to 
testify on the reauthorization of the Coastal Zone Management Act 
(CZMA). My testimony will include brief comments on the CZMA and will 
focus specifically on a Heinz Center study on coastal management 
performance indicators and measures that would complement the 
implementation of the proposed performance evaluation system in H.R. 
897.
    We all recognize the importance of our coastal areas to the 
economic vitality and biological diversity of the United States. 
Marine-related economic activities in the coastal zone and coastal 
ocean account for some 2 percent of the U.S. Gross National Product and 
are comparable in scope to other important sectors of our economy. At 
the same time, our coastal areas are under considerable pressures. 
Population growth and its associated impacts may be the most critical 
issue. About half the nation's population now lives in the narrow 
fringe of coastal counties, and by 2015, projections suggest that the 
coastal population will number 155 million. Coastal communities need 
support to plan for and manage growth and development in their coastal 
areas, and the Coastal Zone Management Act enhances and encourages 
proactive coastal zone management.
    Since 1972, when Congress enacted the Coastal Zone Management Act, 
the Act has provided a national framework for improved management of 
the coastal lands and waters of the nation's coastal zone. The Act's 
origins can be traced to the recommendations of the Stratton Commission 
in its final report, Our Nation and the Sea, that explicitly urged the 
passage of Federal coastal zone management legislation to assist the 
states in managing coastal resources and to require Federal programs 
and activities to conform to state coastal policies. The major features 
of the 1972 Act are still in effect: The states have the lead in 
developing plans; the program is voluntary, with no sanctions imposed 
on states choosing not to prepare CZM programs; Federal grants aid 
state governments in developing and implementing plans; and Federal 
agencies must assist states in the CZM process. Coastal zone management 
programs and activities involve all levels of government Federal, state 
and local and that three-tier system is a stable element of this 
voluntary program.
    The CZM program has been very effective in diffusing coastal zone 
management practices to practically all the U.S. coastal zone in the 
coastal states and territories. After 30 years, 33 of 35 eligible 
coastal states, commonwealths, and territories participate in this 
voluntary program (only Indiana, which is presently developing a 
program and Illinois do not participate). The network these 33 states 
have established for implementing coastal programs is extensive, 
spreading coastal zone management considerations widely within the 
state and local governance structure. More than 97 percent of the U.S. 
shoreline is now subject to CZM programs, and no state or territory has 
dropped out of the program in its three decades of operation. CZMA 
stimulated coastal management actions in the states and territories, 
where, in most cases, none had existed before.
    Even after 30 years of success, CZMA must be seen in a larger 
context. Are the nation's environmental programs working? Are we 
getting the benefits from them that our time and effort should bring? 
These questions are being asked by program managers, legislatures, and 
the public, and the answers are not clear.
    Quantitative evaluation of the impacts of the CZM program is 
difficult at best, and relatively little information of this kind now 
exists. Most assessments to date have involved the use of process 
indicators (number of new state laws and regulations, strength of 
enforcement, better mapping, and so on), and not indicators of program 
performance. Developing a set of on-the-ground measures and indicators 
is a high priority at all levels of government.
    To effectively and efficiently protect and improve the management 
of coastal resources, coastal managers must be able to assess the 
performance of their programs. Such performance measures will enable 
managers to monitor the success of implemented management strategies. 
To meet this need, The Heinz Center, working collaboratively with 
NOAA's National Ocean Service, will convene a panel of experts from the 
four sectors government (all levels), industry, academia, and 
environmental organizations 'to develop a common framework and a 
consistent set of measures, or performance indicators, to evaluate the 
effectiveness of state coastal zone management programs in achieving 
the objectives specified in the Coastal Zone Management Act. This 
framework will provide information on regional and national trends or 
issues affecting the coast, will assist coastal managers to improve 
internal management of their programs, and will showcase 
accomplishments and potential needs of specific state programs. In 
addition, such a framework and suite of indicators will provide a 
mechanism for coastal decision makers to assess program effectiveness 
in achieving desired goals, to make policy adjustments, and to allocate 
or reallocate resources. The panel will also consider the role of the 
National Estuarine Research Reserves, as specified in Section 315 of 
the 1972 Act, in developing performance measures and indicators.
    The Heinz Center will review the issues being addressed by state 
coastal programs and the current use of performance indicators and 
measures. Regional multisector roundtables will be held in California, 
Texas, and the Great Lakes area (possibly Michigan), to gather public 
input on the need and value of such an evaluation strategy.
    The Heinz Center study will identify common goals and threads among 
the state coastal programs that can serve as a framework of performance 
measures and indicators to measure the health of the natural, cultural 
and economic resources of our nation's coast. This framework must be 
flexible enough to allow the states to continue to develop measures and 
indicators that are specific to their individual programs. This 
framework will enhance the effective partnership between the states and 
the Federal Government that exists through the CZMA and at the same 
time will provide a wealth of information on our Nation's coastal 
resources and their management.
    I believe that The Heinz Center's Coastal Management Performance 
Measures and Indicators Study will enhance the effectiveness of the Act 
in protecting and managing the nation's coastal resources. Thank you 
for giving me the opportunity to contribute to your deliberations on 
the reauthorization of this important Act.
                                 ______
                                 
    [The prepared statement of the American Farm Bureau 
Federation follows:]

            Statement of The American Farm Bureau Federation

    The American Farm Bureau Federation represents more than five 
million member families in all 50 states and Puerto Rico. Farm Bureau 
is looking for, and will be supportive of, the right mix of public 
policy tools that will enable farmers and ranchers to improve net farm 
income, enhance their economic opportunity, preserve their property 
rights and enhance the nation's environment. The Coastal Zone 
Management Act needs to be supportive of agriculture's needs and goals 
for water quality protection.
    America depends on a strong and sound agricultural policy. American 
agriculture provides food security for this nation and much of the rest 
of the world. We contribute to our national economic security by 
running a positive balance of trade and generating off-farm employment. 
We also contribute to the world's environmental security. In this 
specific area we can, with the proper incentives, do much more.
    Increased regulatory costs on all levels--Federal, state and 
local--are placing a heavy burden on individual farmers and ranchers as 
well as distorting the traditional structure of our industry. Farmers 
and ranchers understand the importance of protecting the environment. 
Their livelihood depends on it. However, the expenses that are incurred 
to meet compliance are taking a heavy toll on farm incomes and forcing 
farmers and ranchers to spread the cost of increased regulation over 
more units of production. The unintended consequence is the inability 
of small- and medium-sized family farms to compete in a highly charged 
regulatory environment.
    Farm Bureau believes there is a need for a new environmental policy 
framework. We need to move beyond the current debate over whether the 
public has the right to mandate features and/or farming practices in 
the rural landscape. We are at that proverbial fork in the road and 
have concluded that mandates are not only counter-productive but more 
important, inefficient. Our members understand that there is need for a 
different set of tools and farm policy options. We believe market 
forces and government programs can work together to enhance the 
nation's productivity and environmental objectives.
    The existing environmental policy framework is not equipped to 
function in a way that is most efficient in achieving the policy 
objectives we are faced with in the future. Command and control 
mechanisms do not provide an attractive incentive for farmers and 
ranchers to produce the things that the public wants. A new, more 
efficient and effective approach should be developed to assist farmers 
and ranchers in providing the public with what it wants. It should be 
voluntary, provide sufficient economic incentives and clearly define 
the benefits that society at large derives from agriculture.
    We believe that the reauthorization of the CZMA should 
affirmatively support a preference for voluntary, incentive-based 
programs for water quality protection for agriculture. The costs of 
planning and regulatory water quality actions for nonpoint sources will 
impact agriculture in the coastal zone. The costs of permits, plans and 
potential production restrictions will be a burden that will put the 
affected farmers at a competitive disadvantage within their industry. 
The coastal zone program should be looking to enhance and support 
agriculture for its contributions to open space, wildlife habitat, and 
the local economy. Ultimately, increased resources must be made 
available to landowners if we are to make continued progress in 
improving water quality.
    Existing programs such as the Environmental Quality Incentives 
Program (EQIP), the Conservation Reserve Enhancement Program (CREP), 
the Wetlands Reserve Program (WRP) of USDA and the Section 319 nonpoint 
grants program of EPA provide resources for landowners to improve water 
quality. In the next farm bill we support efforts to continue and 
expand the opportunities for farmers to increase their environmental 
protection with cost and technical assistance through voluntary, 
incentive-based approaches.
    Farm Bureau policy states that the next farm bill should:
    <bullet> LContinue to improve the environment through expanded 
incentives to encourage voluntary soil conservation, water and air 
quality programs, and advance technological and biotechnological 
procedures that are based on sound science and are economically 
feasible;
    <bullet> LImprove the quality of rural life and increase rural 
economic development;
    <bullet> LProvide willing producers with additional voluntary 
incentives for adopting and continuing conservation practices to 
address air and water quality, soil erosion and wildlife habitat.
    Bridging the gap between where we are now and where we want to be 
in the future requires an expanded public investment in agriculture. 
Increases in conservation incentives are needed to lay the base today 
for responsible growth in our industry.
    Our vision is to capture the opportunity and efficiencies of 
providing producers with additional conservation incentives for 
adopting and continuing conservation practices to address air and water 
quality, soil erosion and wildlife habitat. The Coastal Zone Management 
Act should support this approach for agriculture.
                                 ______
                                 
    [A statement submitted for the record by The Honorable Jeb 
Bush, Governor, State of Florida, follows:]

    Statement of The Honorable Jeb Bush, Governor, State of Florida

    Chairman Gilchrest, Representative Underwood and Members of the 
Committee, thank you for allowing the State of Florida to submit 
written testimony to the Committee as you consider re-authorization of 
the Coastal Zone Management Act (CZMA). This legislation has proven 
critical in assisting Florida in developing and implementing a coastal 
management program that comprehensively manages and balances the 
competing uses of, and impacts to, the nation's coastal resources.
    The entire state of Florida is designated a coastal zone as part of 
the Florida coastal management program. There are over 8,460 miles of 
coastline and no inland location more than 60 miles from either the 
Atlantic Ocean or the Gulf of Mexico. Of Florida's 16 million 
residents, 75 percent live in the state's 35 coastal counties. Our 
environmental, economic, and cultural coastal resources are as diverse 
as our population--sandy beaches, coral reefs, mangrove thickets, 
maritime-related industries and port facilities, military and space 
exploration complexes, historic lighthouses and shipwrecks. Coastal 
resource management is essential for Florida's present and future.
    Florida utilizes two key components of the legislation to implement 
its coastal management program--Federal funding to assist in 
implementation of our state program and the requirement that various 
activities carried out by Federal agencies be consistent with Federally 
approved coastal management programs.
    Florida provides Federal coastal management funding directly to 
local governments for a variety of activities. These range from water 
quality monitoring in sensitive estuaries and bays, master plan 
development for unique local resource areas, and hazard mitigation 
planning by local governments to sea turtle monitoring, dune walkovers 
with handicap access, and public education materials. Federal funding 
has been used to partner on a variety of remarkable activities such as 
creation of a statewide ``virtual'' Florida Maritime Heritage Trail on 
the Internet to make Florida's coastal cultural resources accessible to 
those planning a visit and to those for whom visiting these special 
places is impossible. The program has provided funds to implement a 
beach water quality pilot project, to support planning and protection 
efforts in the Everglades, and to develop a performance indicator 
system unique among the coastal states to assess our coastal management 
efforts.
    The Federal consistency provisions allow coastal states to review 
Federal actions affecting any land or water use or natural resource of 
their coastal zone for consistency with the enforceable policies of the 
state's coastal management program. Specifically, coastal states 
review: 1) activities conducted by or on behalf of a Federal Government 
agency; 2) activities which require a Federal license or permit; 3) 
activities conducted pursuant to an Outer Continental Shelf Lands Act 
lease; and 4) Federally funded activities.
    In Florida, these activities are reviewed in conjunction with 
notices received under Presidential Executive Order 12372, the National 
Environmental Policy Act, the Outer Continental Shelf Lands Act and 
certain Federal permit applications. To avoid duplication, consistency 
reviews are integrated with reviews under the above laws.
    Because the Coastal Zone Management Act requires Federal agencies 
to consider state laws and policies when implementing Federal projects 
and programs, it is an important means to resolve potential conflicts 
and to gain state and public support for proposed Federal actions. 
Early consultation and cooperation between parties maximizes the 
probability of a smooth and expeditious permit review. Early resolution 
of issues helps to avoid costly last-minute changes to projects in 
order to comply with state regulatory requirements. The larger net 
result is that nationwide, Federal agencies are supporting better 
management of coastal resources through effective state-Federal 
partnerships.
    The Coastal Zone Management Act has allowed Florida to review 
thousands of Federal projects under the Federal consistency provision 
since the state's program was approved in 1981. The consistency process 
has enabled Florida to work with its Federal partners at the 
Environmental Protection Agency (EPA), United States Army Corps of 
Engineers (Corps), U.S. Department of the Interior (DOI), the U.S. 
Department of Transportation (DOT) and other Federal agencies to review 
projects expeditiously, identify potential problem areas and, most 
importantly, to reduce impacts and/or improve the environmental 
benefits of Federal activities and decisions affecting Florida's 
environment, economy and quality of life.
    The overwhelming majority of projects reviewed under this provision 
have received the state's approval, deeming them consistent with 
Florida's Coastal Management Program (FCMP), although there have been 
notable exceptions. For example, the state reviews Outer Continental 
Shelf lease sales, exploration plans and development and production 
plans that affect Florida's coastal resources for consistency with the 
FCMP. The consistency process has enabled the state to ensure that 
Florida's marine and coastal resources are adequately protected from 
the adverse effects of offshore oil and gas activities. In one case, 
Florida found Chevron, U.S.A., Inc.'s plan to produce natural gas south 
of Pensacola inconsistent with the state's coastal management program. 
This finding was based on the potential for substantial harm to 
important marine coastal resources which support the state's primary 
industries such as recreation, tourism and commercial and recreational 
fishing. Chevron's appeal of the state's objection is currently under 
consideration by the Secretary of Commerce.
    The following further exemplify how Florida has used its 
consistency concurrence to protect our unique natural resources:
    Federal consistency is the basis of the state's coordination with 
the EPA and the Corps on the siting and management of Ocean Dredged 
Material Disposal Sites. Through consistency coordination, the state 
has redirected this program toward marine resource protection and 
cooperative state-Federal management of activities at the numerous 
sites off of Florida, both in state and Federal waters.
    Working through the consistency process in conjunction with 
Gulfstream Natural Gas Systems LLC during the siting of a natural gas 
pipeline resulted in significant reductions in impacts to sensitive 
offshore biological resources and fisheries habitat. This was achieved 
through the realignment of the pipeline to avoid approximately 50 acres 
of fisheries habitat and an agreement to conduct extensive mitigation 
and monitoring to offset unavoidable impacts.
    Raising concerns to the Corps regarding the proposed disposal of 
dredged beach-quality sand offshore, rather than onto adjacent beaches, 
the Corps agreed to bring the project into compliance with state law by 
depositing the sand on the beach. Consistency is an important 
coordination mechanism for all Federal navigation, flood control and 
beach stabilization projects.
    The Florida Gas Transmission company was alerted to a possible 
conflict with state sovereignty concerns (encroachment on state-owned 
and managed lands) during a natural gas pipeline expansion and 
consulted with the appropriate parties to determine an acceptable 
route.
    Florida reviewed the Corps nationwide permit program for 
consistency with state laws and regulations. By fashioning regional 
conditions that conform to state regulations, we have been able to 
concur with the use of the nationwide permits in Florida.
    During the design and siting of artificial reefs in Federal waters 
adjacent to our state, consistency ensures that adequate marine 
resource protection is included.
    During the project design phase of proposed bridge replacements, 
consistency has ensured there is adequate mitigation for impacts to 
natural resources (including important commercial oyster habitat). It 
is also an important coordination mechanism for all other DOT projects 
in the state.
    Mr. Chairman and Members of the Committee, the intent of the 
Coastal Zone Management Act has always been to foster partnerships 
between the Federal and state governments. Nowhere are those 
partnerships flourishing more than in Florida, and we look forward to 
continuing them well into the future.
                                 ______
                                 
    [The prepared statement of Mr. Farr follows:]

Statement of The Honorable Sam Farr, a Representative in Congress from 
                        the State of California

    Because of the widespread agreement on this issue within the 
California delegation, I am submitting this single written testimony 
with the support of my colleagues Susan Davis, Mike Thompson, and Lois 
Capps.
    Thank you for the opportunity to submit this testimony. I have 
prepared this statement to express my adamant opposition to several 
amendments proposed by the oil and gas trade associations that would 
undermine the Coastal Zone Management Act by weakening the right of the 
states to review Federal activities inside or outside their coastal 
zone and ensure that they are consistent with their coastal management 
programs.
    By enacting the Coastal Zone Management Act in 1972, Congress gave 
the States unprecedented authority and responsibility to manage their 
coastal zones. In California, we take this responsibility very 
seriously. Through the California Coastal Commission, we have been 
managing our coastal resources with a comprehensive statewide plan 
since 1965, seven years before the Coastal Zone Management Act was 
enacted. The success of these endeavors is evident to anyone who has 
visited the California coast.
    Although California currently implements its coastal management 
plan with the lowest per capita Federal funding of any state, our 
commitment to coastal management has served to protect some of this 
nation's most valuable natural assets. Nearly 8% of the entire U.S. 
Population lives in the coastal counties of California and have 
benefitted from this management. California is the most visited state 
in the nation hosting 282 million visitors every year. Our beaches 
contribute $14 billion dollars of direct revenue to the national 
economy. In 1999 there were $150 million worth of fish caught in 
California fisheries. Our waters also contain four of the nation's 13 
national marine sanctuaries which protect some of the world's most 
diverse, and sensitive marine ecosystems.
    Considering the success that we have achieved in California in 
managing our own coastal zone, it is shocking that anyone would propose 
to ``fix'' the Coastal Zone Management Act by removing the states from 
the process of deciding what is best for our nation's coasts. This, 
however, is precisely what the oil industry proposes to do with these 
amendments.
    In their suggestion to amend the definition of ``enforceable 
policy'' to apply only to activities occurring ``within the boundaries 
of the State'', the oil industry is clearly attempting to exempt outer 
continental shelf exploration from state consistency review. Because 
these activities have the obvious potential to significantly impact the 
coastal zone, the only rationale for such a change would be that the 
states are incapable of making informed decisions about the risks and 
benefits of offshore exploration. Such an assumption is contrary to the 
fundamental principles of the Coastal Zone Management Act and would 
undermine the foundations upon which it was created.
    In fact, the Coastal Zone Management Act provides a mechanism for 
the Federal Government to override decisions by the states to allow an 
activity that would contribute significantly to the national interest. 
This appeal process, administered by the Secretary of Commerce, has 
been both effective and fair. In the case of oil industry appeals, of 
which there have only been 14, the Secretary of Commerce has been 
sympathetic to 7. The industry amendments, however, would attempt to 
change this process and give this authority to the Secretary of 
Interior. Although the Secretary of Interior might weigh in favor of 
their appeals more frequently, implementing this change would bifurcate 
the consistency process, and create a clear conflict of interest for 
the Secretary of Interior. There is simply no reason to confuse and 
complicate a process that works effectively.
    I am confident that this subcommittee will see the accomplishments 
of California, and the Coastal Zone Management Act as compelling 
evidence that the consistency provisions within the Act should only be 
strengthened if they are to be changed at all. I, along with my 
colleagues from California, feel very strongly about our coasts and our 
state's right to make the decisions concerning their protection. 
California has done an exceptional job of managing and protecting its 
coastal zone. Clearly the reauthorization of the Coastal Zone 
Management Act should move in a direction that helps us continue to 
make progress. I look forward to working with this subcommittee 
throughout the process to ensure that the Act is strengthened and 
improved.
                                 ______
                                 
    [The prepared statement of Ms. Harman follows:]

 Statement of The Honorable Jane Harman, A Representative in Congress 
                      from the State of California

    Mr. Chairman and Ranking Member Underwood. Our coastal areas are 
one of our nation's most precious resources and must be protected 
against unnecessary offshore drilling.
    The proposed amendments to the Coastal Zone Management Act 
Consistency Provisions are an assault on a State's right to protect and 
manage its coastal resources. In California, State and Federal agencies 
have a long history of working together to preserve our coastal areas. 
These amendments jeopardize that relationship.
    Part of maintaining a healthy coastal zone is ensuring that the 
surrounding areas, be it the Outer Continental Shelf or ``up stream'' 
areas, are also managed responsibly. Restricting the State's ability to 
review non-Federal activity in these sensitive areas undermines years 
of preservation efforts at the state level.
    Information is an invaluable component of good resource management. 
Two of the proposed amendments limit the information available to 
States performing environmental reviews under CZMA--seriously 
handicapping thorough examinations of development proposals. In 
particular, States should not be limited to information requested by 
the Secretary of the Interior.
    Another amendment transfers jurisdiction over Outer Continental 
Shelf oil and gas activities from the Secretary of Commerce to the 
Secretary of the Interior. This is an unnecessary change that will give 
the same Federal agency that approves offshore drilling permits, the 
authority to override States' permit objections--significantly 
weakening the appeal process.
    The final amendment reduces the period of time the Secretary of 
Commerce has to review appeals under CZMA. Requiring the Secretary to 
decide on appeals before obtaining all necessary information is 
reckless and not conducive to sound policy creation.
    Our coastlines are one of our most precious resources and 
protecting them is a top priority. The aforementioned amendments do not 
address this priority and hopefully will not be adopted.
                                 ______
                                 
    Mr. Gilchrest. I feel bad about making people rush through 
their statements. And that is just the way it works to get all 
this done, with everything else that we have to do. And I 
apologize for the lights and all those things.
    But we did sort of jump away from Mr. Tudor's last 60 
seconds or so.
    [Laughter.]
    So, Mr. Tudor, if you have any wrapup statement that you 
would like to make?
    Mr. Tudor. Just to reinforce the four recommendations of 
the Coastal States Organization.
    One was to eliminate the cap and increase state grant 
support under CZMA Section 306.
    Another one was to authorize state grants to assist local 
communities and decisionmakers, and I had provided a little 
aerial photograph of a town in Congressman Saxton's district 
called Stafford Township that showed land-use/land-cover change 
over a 10-year period that has been very instructive to mayors.
    And we have sent that kind of a tool to all municipal 
officials in New Jersey to give them a feel for impervious 
cover linkage to nonpoint source pollution. So I just wanted 
you to be aware of that.
    Third was that the CSO is very supportive of this concept 
of indicators, specifically indicators focused on environmental 
improvement outcomes, those kinds of things. And we are working 
closely with NOAA NOS as part of an integration Committee and 
the Heinz Center.
    And lastly that we feel strongly that we should maintain 
support for state consistency review, the same kind of 
testimony you heard from the California delegation.
    Thank you.
    [The prepared statement of Mr. Tudor follows:]

 Statement of Robert Tudor, Deputy Commissioner, New Jersey Department 
   of Environmental Protection, and Vice Chair of the Coastal States 
                              Organization

Introduction
    Chairman Gilchrest, Delegate Underwood and members of the 
Subcommittee, I am Bob Tudor, Deputy Commissioner of the New Jersey 
Department of Environmental Protection and Vice Chair of the Coastal 
States Organization (CSO). Thank you for the opportunity to testify 
this morning on behalf of CSO and the nation's 35 coastal states and 
territories.
    Since 1970, CSO has represented the collective interests of the 
coastal states and territories along the Atlantic and Pacific Oceans, 
Gulf of Mexico, and Great Lakes. CSO is an advocate for states working 
for sound and balanced management, protection and restoration of our 
nation's natural and economic coastal resources.
    I would also like to acknowledge the efforts of my home State 
Representatives on the Subcommittee--former Chair, Representative Jim 
Saxton, and Representative Frank Pallone, for their leadership and 
support of coastal resource management and protection.
    CZMA has long enjoyed widespread bipartisan support in Congress and 
public support out in the states. CSO looks forward to working with 
Congress to complete reauthorization this year.

Summary of Key Recommendations
    CSO's reauthorization objectives and recommendations can be 
summarized as follows:
    <bullet> LIt is critical that Congress raise the funding for state 
coastal program grants and the cap on allocations of Section 306 grants 
so that all states can share equitably in the funding increases needed 
to address the increasingly complex challenges facing our nation's 
coastal communities. The cap, which has been in place for the last 9 
years, restricts funding to 15 of the 33 states with approved programs. 
Increased program support is needed to enable states and communities to 
keep pace with increasing development, population growth, expanding 
coastal tourism, and land and water use changes in the coastal zone. We 
recommend that funding for these programs be set at $80 million in 
fiscal year 2002, consistent with the proposed budget recommendations 
and be increased in the out years.
    <bullet> LAdditional funding for grants to states to provide 
assistance for coastal communities initiatives to accommodate growth 
efficiently and protect and restore critical open space, habitats and 
coastal resources. Coastal community funding should be in addition to, 
and not compete with, funding for implementing existing state coastal 
program components and commitments. Community assistance grants should 
be available for a broad range of uses , including characterization, 
assessment and planning and studies, as well as acquisition and 
specific projects. We recommend that funding be set at a minimum of $40 
million in fiscal year 2002 for assistance and increased substantially 
in the out years to provide increased emphasis on implementation 
efforts and sustained support for communities and conservation.
    <bullet> LWhile it is essential that states retain the flexibility 
under the CZMA to establish their own priorities for designing and 
implementing coastal programs consistent with national objectives, CSO 
also supports changes to the CZMA that would improve accountability 
through the development of appropriate outcome indicators that can be 
used track the effectiveness of the CZM programs.
    <bullet> LFinally, the CZMA consistency provisions, which require 
Federal activities, licenses and permits to be consistent with 
Federally approved state coastal policies, are the cornerstone of the 
Federal/state partnership under the CZMA. Coastal states and 
territories will oppose any proposals that seek to weaken states' 
rights under CZMA's consistency provisions to review activities that 
affect coastal resources and uses.

The CZMA: A Cooperative Framework for Improving the Quality of Life 
        Along the Coast
    The overall objective of state coastal management's collective 
efforts is simple--to protect and improve the quality of life for the 
people who live near and visit the coast and to protect and restore the 
natural resources upon which that quality of life depends. It is 
increasingly clear that to achieve this objective in the face of 
continuing growth of population and increasing conflicts among people 
and businesses dependent on the coast will require an increased 
commitment shared by all levels of government in partnership with local 
communities and the private sector. Past mistakes need to be remedied 
and future ones avoided.
    Since colonial times, development has been concentrated along our 
nation's coasts and we have depended on the coasts for commerce, 
transportation, fishing and recreation. Until passage of the Coastal 
Zone Management Act (CZMA) in 1972, decisions affecting coastal 
resources were made in piecemeal fashion with little consultation or 
coordination between the Federal, state and local governments. The CZMA 
recognizes that integrated planning and management, and the 
coordination of multiple agency efforts and conflicting mandates are 
important to successful conservation of coastal resources while 
accommodating economic growth.
    In New Jersey, we are seeking to implement this comprehensive 
management regime by working with local communities to integrate state 
and regional planning, state-wide land acquisition and habitat 
characterization initiatives, and watershed management into local 
action. An integrated plan for America's coasts through CZMA supported 
Federal-state-local partnerships can provide an excellent framework for 
balancing competing interests and uses along our nation's coast; 
protecting coastal ecosystems; redeveloping shorelines and urban 
waterfronts; and enhancing the economic vitality of coastal communities 
and the nation.
    A Flexible, State-Based Framework: The CZMA establishes a Federal-
state partnership to achieve the goal of maximizing sustainable 
economic and environmental objectives. The CZMA provides a flexible 
framework to develop collaborative, innovative community-based 
strategies. The CZMA incorporated the essential principles of the 
``sustainability'' and ``stewardship'' more than twenty years before 
the terminology came into vogue. Congress was prescient in 1972 when it 
adopted CZMA to provide incentives:
        to encourage and assist the states to exercise effectively 
        their responsibilities in the coastal zone through the 
        development and implementation of management programs to 
        achieve the wise use of the land and water resources of the 
        coastal zone, giving full consideration to ecological, 
        cultural, historic, and esthetic values as well as the needs 
        for compatible economic development programs. (16 U.S.C. 
        1452(2))
    In developing their coastal management programs, states in 
consultation with local communities, determine the right mix of 
incentives, cooperation, regulation, and education needed to address 
coastal management priorities.
    A Federal-State Partnership: Through the CZMA, Congress provides 
incentives to states to develop comprehensive programs to balance the 
many competing uses of coastal resources. The CZMA provides incentives 
to the states to identify their own coastal management priorities 
consistent with broad national objectives. All Federal funds are 
required to be matched by the states dollar for dollar, and leverage 
significantly more investment from the local partners and the private 
sector. There is no greater testament to the success of the state/
Federal partnership forged by the CZMA than the fact that 34 of 35 
eligible coastal states have chosen to participate in the program. 
Through their voluntary participation, states promote the many national 
interests cited in the CZMA--protecting fish and wildlife habitats; 
managing coastal development in hazardous areas; coordinating the 
siting of energy, commercial and industrial facilities; improving 
public access to the shore; restoring and redeveloping waterfronts; 
streamlining permitting procedures; and involving the public and 
private sector in decision-making.
    Ensuring Consistency with State Programs: In enacting the CZMA, 
Congress recognizes that unless Federal agency actions and permits were 
consistent with Federally approved state CZM plans, the national goals 
of the CZMA would never be reached. Once state programs are Federally 
approved, Federal actions impacting state resources, including licenses 
and permits, are required to be consistent with state program policies. 
The CZMA provisions under section 307 focus on the need for 
coordination and consultation, and include adequate review of state 
actions and full consideration of the national interest.
    NERRS--Living Laboratories and Classrooms: The CZMA also 
established the National Estuarine Research Reserve System (NERRS.) 
NERRS currently consists of a network of 25 state operated coastal and 
estuarine areas. Two more are under development. NERRS are set aside as 
sites to enhance coastal stewardship, monitoring, research and 
education. These sites provide areas for intensive study of the 
estuarine ecosystems that typify the biogeographic regions of the 
United States, so that coastal managers and local decision-makers can 
be provided with a better understanding of the biological, chemical and 
geophysical dynamics which must be taken into account if our efforts at 
coastal and estuarine restoration and protection are to succeed.

The Challenges Ahead
    In the nearly 30 years since the enactment of the CZMA, the Clean 
Water Act and other landmark environmental statutes we have addressed 
many of the immediate problems along the coast. The challenges that lie 
ahead are more difficult and complex. They cut across political and 
ecological boundaries, the public policy spectrum, and all levels of 
government, as well as non-governmental and private sector interests. 
In order to address these challenges effectively, we need to take 
advantage of the inherent strengths of the CZMA to:
    (i) Lcoordinate decision-making across programs and levels of 
governments;
    (ii) Ltranscend specific mandates to address multiple resource 
management objectives; and
    (iii) Lutilize the best available information to develop consensus 
and support implementation of locally-designed solutions that take into 
account broad landscape and ecosystem management goals.
    The population density of coastal counties are already five times 
the national average, and coastal areas are becoming more crowded every 
day. (See chart attached as Appendix A) From 1996-2015, coastal 
population is projected to increase from 141 million to 161 million. 
Increased development pressures inevitably follows population growth. 
For example, in the Delaware Estuary, population is projected to 
increase 10.9 percent, from 4.9 million in 1990 to 5.3 million in 2020; 
while developed land forecast to increase 36 percent from slightly over 
700 acres in 1990 to almost 1000 in 2020. (See chart attached as 
Appendix B.)
    In addition, coastal tourism is one of the fastest growing segments 
of the US economy. In 1999, tourism in New Jersey generated an all time 
high of $127.7 billion in revenues and supported nearly 500,00 jobs. 
The nation's economy is increasingly dependent upon the international 
trade that in 1995 moved cargo valued at $620 billion through our 
nation's ports. Coastal management programs in California, 
Massachusetts, Texas, South Carolina, Delaware and many others are 
working with port communities to identify suitable long term disposal 
and management of dredged material and to assess the impacts of planned 
port expansion on local communities and harbor uses.
    While we have made significant progress in reducing the loss of 
coastal habitats and the pollution of coastal waters, much remains to 
be done. In 1998, there were approximately 7,200 beach closings and 
advisories in coastal and Great Lakes waters, about 30 percent of the 
nation's shellfish-growing areas are closed or have harvest 
restrictions. In New Jersey, between 1986 and 1995 we experienced a net 
loss of agricultural lands, forest lands and wetlands. Pressures are 
particularly acute in coastal areas in New Jersey and other states. 
Increasing outbreaks of harmful algal blooms, the expansion of the dead 
zone in the Gulf of Mexico, and threat of sea and lake level rise are a 
few of sobering reminders that many of our most intractable coastal 
challenges lie ahead.
    CZMA can also provides a mechanism for resolving issues of national 
significance such as the exploration of oil and gas in offshore waters. 
In Louisiana the state coastal management program is getting preparing 
to examine pipeline corridors for oil and gas transmission lines with 
the intent of establishing corridors where such lines can be installed 
with minimal environmental disturbance through an expedited permitting 
process. While issues regarding energy production vary among the states 
and can be very emotional, we must remember that these activities, 
conducted using environmentally sound technology, are important to our 
nation and are important to the economies of several coastal states. 
CZMA provides a framework for states to work through these issues based 
their individual needs but within the national policies.

CZMA Reauthorization Recommendations
    CSO, working with its Delegates and state CZM and NERRS program 
managers, has identified the following recommended changes to the CZMA 
that will support more effective implementation of the nation's coastal 
and NERRS programs to meet future challenges.
    (1) Eliminate the ``cap'' and increase state grant support under 
CZMA Section 306. Equitable funding increases are needed by all states 
and territories to assure the maintenance of existing state commitments 
to implement CZ program activities and administration. Despite 
increasing population, conflicts in the coastal zone, and pressures on 
coastal resources, funding under CZMA section 306 for state grants to 
administer and implement their coastal programs under 306 have been 
capped at the $2 million for the past nine years by the Appropriations 
Committee. As a result, many states with have receive no increases in 
306 grants since 1991, and 15 of the 35 eligible states have reached 
the cap level in fiscal year 2001. (The states currently at the maximum 
include Alaska, California, Florida, Louisiana, Maine, Maryland, 
Massachusetts, Michigan, New Jersey, New York, North Carolina, South 
Carolina, Texas, Virginia and Washington.)
    These grants will provide support for critical coastal watershed 
management, interagency-coordination, habitat characterization and 
restoration, hazard mitigation and public access activities. For 
example:
    <bullet> LIn Louisiana, where 25-35 miles of wetlands are lost each 
year, a 50-year plan for coastal restoration has just been completed. 
This provides a comprehensive blueprint for action needed to protect 
these wetlands which are important to Louisiana and the nation. The 
coastal program also recently introduced an innovative a Permit 
Information Center where permit applicants can meet a permitting expert 
for assistance in preparing applications.
    <bullet> LThe Massachusetts CZM program provided support for the 
four towns abutting Pleasant Bay on Cape Cod, a state Area of Critical 
Environmental Concern (ACEC), to develop local consensus around a 
resources management implementation plan, the state does not have 
sufficient funds to support plans in the remaining 13 ACEC's in the 
coastal area.
    <bullet> LGuam's coastal management program is working in 
partnership with the University of Guam and Guam EPA to develop a 
strategy for managing dredge activities associated with contaminated 
sediments.
    <bullet> LNorth Carolina has awarded almost $9 million in state and 
Federal funds since 1982 for public beach and waterfront access 
projects.
    (2) Authorize state grants to assist local communities and 
decision-makers. These grants should be in addition to state program 
administration and implementation funding and be targeted to assist 
local communities to understand, plan and undertake actions that will 
accommodate growth and support conservation and restoration of critical 
coastal open space, habitats, protective shorelines and other natural 
coastal features.
    Technological advances, such as the development of computer 
generated geographic information systems (GIS), have greatly expanded 
the ability to assess the impacts of infrastructure placement in 
relation to existing development, future growth patterns and natural 
resources. However, local community officials and planners in many 
cases do not have the resources to get past the entry-level threshold 
to make use of these tools, or do not have the information they need to 
consider the impacts of their local decisions on a broad landscape and 
regional ecosystem scale.
    For example:
    <bullet> LIn New Jersey, we are expanding efforts to provide the 
technical tools and information needed for informed, adaptive coastal 
management at the state and local level through development of key 
environmental data on land use and land cover change and coastal 
monitoring, assessment and impact projection tools that will be 
available to local communities.
    <bullet> LThe Maryland coastal program has funded development 
sensitive area inventories, modeling of growth scenarios, GIS mapping, 
and development of plans to support local governments efforts under the 
state's Economic Growth, Resource Protection and Planning Act.
    <bullet> LLouisiana is supporting the efforts of its 19 coastal 
parishes to develop and adopt local coastal management plans, and is 
supporting a web-based tracking system that will allow permit analysts 
and the public view data on projects and affected habitats.
    <bullet> LNorth Carolina has established the Population, 
Development, Resource Information System, a comprehensive database of 
information related to population growth, economic development and 
natural resources which assists in local watershed management efforts.
    (3) Support ongoing review and enhancement of state coastal 
programs to address CZMA goals. Under CZMA, between 10-20 percent of 
the state grants are set aside under section 309 for states to enhance 
their coastal management programs. Under 309, states review the coastal 
management programs every five years to assess how they can be improved 
to address the national goals of the CZMA more effectively. As an 
incentive, no cost-share is required to match this portion of the state 
grants. These enhancement grants are particularly effective in 
supporting state efforts to support local community to improve their 
management efforts.. Congress should consider expanding eligibility for 
enhancement grants beyond the incorporation of specific ``program 
changes'' to include support for innovative projects or other 
activities that will significantly improve the management of coastal 
resources. State enhancement efforts under section 309 should be linked 
with CZMA program review provisions under CZMA 312 and the development 
of coastal programs outcome based performance indicators (see 
discussion below.)
    (4) Direct NOAA to provide and coordinate management-oriented 
research supporting state coastal management efforts by states and 
NERRS. The technical and scientific issues relating to coastal 
management are increasingly complex. NOAA can do a much better job in 
moving beyond development of research, tools and technology products to 
assure the availability of information and tools in a form and at a 
scale that is usable by coastal decision-makers. Communities and states 
must look to new technology and tools that will increase the ability of 
coastal decision-makers to assess, monitor cumulative and secondary 
impacts on coastal resources.
    Congress should consider amending CZMA section 310 to direct NOAA 
to work with states and the National Estuarine Research Reserve System, 
to identify management-oriented research priories and annual work plans 
for research that address state and regional priorities, and to 
maintain a clearinghouse of research, information and technologies that 
will assist states and communities to improve the management of the 
nation's coastal resources. These efforts should be coordinated with 
other Federal agencies and support implementation of the Integrated 
Coastal Monitoring and Research Strategy, recently published jointly by 
EPA, NOAA, USGS and other agencies.
    The lack of adequate information is perhaps the greatest impediment 
to state and local coastal management. In conducting required 
assessments under the CZMA section 309 enhancement grants program, two 
recurrent themes were apparent.
    <bullet> LThe methodologies and data for determining cumulative 
impacts, such as from recreational boating, need to be further 
developed.
    <bullet> LData is lacking to assess trends and the effectiveness of 
state programs.
    NOAA has the capability to fill many of these gaps. Section 310 
needs to be amended to ensure that the expertise, resources, products 
and services of NOAA are delivered to state and local decision-makers. 
These efforts need to go beyond demonstration projects. The results of 
successful demonstration projects need to be transferred to other 
states.
    (5) Increase support for the National Estuarine Research Reserve 
System (NERRS) through CZMA section 315. CZMA reauthorization should 
include the specific technical amendments and reauthorization 
recommendations of the National Estuarine Research Reserve Association 
(NERR). CZMA reauthorization should retain the current cost-share ratio 
and, at a minimum, provide the funding necessary to support the 
existing system of 25 NERRS sites and future funding to support the 
planned growth of the system to fill current state and eco-regional 
gaps. Language should be added to provide funding without match 
specifically to support national education initiatives, including the 
Coastal Training Institutes Initiative and the System-Wide Monitoring 
Program (SWAMP.)
    (6) Support development of cost-effective, outcome and Coastal 
Program Effectiveness Indicators. CSO supports strengthening the 
accountability of CZM programs. The development of indicators that can 
be used to track the effectiveness of coastal management programs in 
supporting state program objectives and national goals of the CZMA. The 
provision should require that appropriate outcome indicators for the 
program be developed in consultation with and participation with State 
representatives, be flexible enough to address the variations among 
state program priorities, and be cost-effective and not unduly 
burdensome to implement. Funding should be provided to the state to 
support the development of state specific indicators and the necessary 
collection and analysis of data to assess program effectiveness.

Additional Specific Comments on the CZMA Reauthorization Discussion 
        Draft and H.R. 897

Adjustment of the Cap on State Grant Allocations:
    CSO Recommendation: CSO supports for the language in the Discussion 
Draft clarifying that all states should share equitably in funding 
increases under CZMA Section 306.
    Comments: This language clarifies the Congressional intent that a 
cap should not be imposed that limits states from sharing in programs 
funding. The current cap of $2 million on state Section 306 grant 
allocations has been imposed annually in the appropriations process for 
the past nine years. Sixteen of the 33 states with approved coastal 
programs are currently at the cap and do not share in any 
appropriations increases for the program.

Allocation of 50 Percent of State Grants to Eligible Coastal Community 
        Projects:
    CSO Recommendations: CSO supports increased authorization of 
funding to states that can be directed to assist local communities to 
address critical growth management, habitat protection and restoration 
needs. CSO cannot support the 50 percent set aside of grants as 
proposed in the Discussion Draft. The set aside would effectively 
reduce grants to many states to administer ongoing coastal program 
commitments. CSO recommends that the Subcommittee consider a separate 
additional authorization for state grants to assist communities as 
provided in H.R. 897 and S. 328.
    Comments: CSO agrees with the intent of both the Discussion Draft 
and H.R. 897 to increase support for grants to states to assist coastal 
communities. However, the approach proposed in the Discussion Draft has 
a potential to undermine both state and local efforts. When combined in 
a single line item, the allocation of 50 percent of a state's grant to 
local assistance could severely impact the implementation of on-going 
state programs. Funding for community grants should be in addition to, 
not reduce, the funding currently available to states under Section 306 
to implement and administer CZM programs. Continued support for these 
state program activities is important to local efforts to accommodate 
growth and protect resources even when the assistance is not provided 
as funds given directly for the local projects.

CZM Funding Levels
    CSO Recommendation: CSO recommends that a minimum of $80 million be 
authorized in fiscal year 2002 for CZMA program implementation under 
current Section 306/306A and 309, and an additional $40 million for 
coastal community grants. Funding in succeeding years should be 
increased to provide for additional funds as needed.
    The $80 million authorization of appropriations levels proposed in 
the Discussion Draft, falls far short of what would be needed to hold 
currently program need whole and provide the additional assistance 
needed to provide the 50 percent envisioned for proposed Coastal 
Community Projects initiative. The $80 million level proposed by CSO is 
consistent with the fiscal year 2001 budget recommendation for current 
CZM program needs, including coastal nonpoint pollution. An additional 
authorization $40 (50 percent of the proposed authorization level in 
the Discussion Draft) should be included in the to initiate the coastal 
community projects initiative

Eligibility for Coastal Community Projects
CSO Recommendations:
    (1) The Subcommittee should community project eligibility criteria 
based on the recommendations of S. 328 and H.R. 897 that includes 
support for development of local plans and which focus on accommodating 
growth and restoring and protecting critical open space and habitats.
    (2) Provisions of the Discussion Draft and H.R. 897 requiring that 
eligible projects must be done ``in conjunction'' with local 
governments should be clarified. States should be able to undertake 
projects in coordination with and for the benefit of local governments.
    (3) Eligibility should include land acquisition, easements and 
other methods for land conservation and protection currently eligible 
under Section 306A. The eligibility requirements should be reviewed to 
assure they include the project categories and types currently eligible 
under Section 306A
    (4) The Discussion Draft should be amended to clarify that 
individual projects do not need to be submitted to the Secretary but, 
rather, eligible community projects should be consistent with 
implementation of the state coastal management plans and submitted by 
the state CZM agency as part of the state's annual CZM implementation 
plan.
Consolidation of CZMA Grants and Elimination of Section 309 Enhancement 
        Assistance
CSO Recommendation:
    (1) Maintain CZMA authority to set aside a portion of the state 
grant, without match, as an incentive to states to enhance CZM program 
effectiveness in addressing national coastal program goals and 
objectives.
    (2) Expand eligibility for 309 grants beyond incorporation of 
technical program changes to include innovative activities and projects 
that will significantly improve state or local coastal management 
efforts to further national goals.
    Comments: The proposed Discussion Draft would consolidate state 
coastal management grants into a new Section 309, and eliminate grants 
to states to enhance their programs to address national objectives and 
emerging issues. While CSO agrees with the goal of simplifying and 
consolidating grants and would like to work with the Subcommittee to 
develop appropriate language, it should not come at the expense of 
current section 309 incentives for states to improve their programs. 
Continuation of the enhancement program and its link to national goals 
is also consistent with the recommendation of both the Discussion Draft 
and H.R. 837 that outcome indicators be developed to determine the 
effectiveness of coastal management programs in supporting the national 
goals of the CZMA.
    Section 309, in its current form, was added to the CZMA in 1990 to 
provide states with no match Federal assistance to upgrade their 
programs in areas identified in the section as national priorities. The 
section requires states to perform periodic assessments of the adequacy 
of their programs to meet these national priorities and develop 
strategies for improving their programs. Consideration should be given 
to expanding eligibility beyond incorporation of specific ``program 
changes'' to encourage innovation projects and activities by the states 
and local communities that will significantly improve the effectiveness 
of coastal program management.
    The development of enhancement strategies is important both to the 
states in assuring a regular evaluation of program effectiveness in 
addressing national goals and to the Federal Government in providing 
incentives to states to upgrade their programs on an ongoing basis to 
address ever changing coastal challenges. The section 309 enhancement 
program has ensured that at least some of a state's share of the annual 
grant allocation is dedicated to improving the program where it would 
otherwise be devoted to meeting the immediate demands for program 
implementation and local assistance.
Proposed Elimination of Technical Assistance under Section 310
    Recommendation: Retain CZMA Section 310, and amend to require 
annual coordination with the states and NERRS in identification of 
results-based coastal management research priorities, and strengthen 
the accountability of NOAA to provide a clearinghouse and work with 
other agencies to expand research and technical support for coastal 
management.
    Comments: CSO believes that one of the centerpieces of this 
reauthorization should be the reinvigoration of results-based research 
and technical assistance by NOAA consistent with section 310. The need 
for information and research at a scale relevant to the states and 
focused on priority coastal management issues, is also important to the 
development of coastal effectiveness indicators. NOAA has a vast array 
of expertise, services and products which have not been fully utilized 
in assisting states with the on-the-ground efforts to address coastal 
issues. The current NOAA leadership is to be lauded for their efforts 
to improve NOAA's technical assistance to states and a revised section 
310 should provide the needed directives to reinforce these efforts..
Federal Consistency Provisions under Section 307
    Recommendation: CSO is pleased to see that no changes have been 
proposed in neither H.R. 897 nor the discussion draft to the provisions 
of section 307 of the CZMA.
    Comments: The title of section 307 Coordination and Cooperation '' 
is not a misnomer. The history of the implementation of section 307 by 
states, NOAA and the Secretary of Commerce refutes any claims that the 
provisions of the CZMA which encourage Federal actions to be consistent 
with state programs have been exercised in an arbitrary and impudent 
manner. Of the thousands of consistency determinations that have been 
made under the Act, only a handful have generated controversy. Even 
those subject to state review authority under the CZMA consistency 
provisions agree that the process has the effect of serving as an early 
warning system of potential problems and encourage states and 
applicants to work out potential problems before they manifest. The 
independent review of appeals of state denials of consistency ensures 
that the overriding national interest is preserved when necessary for 
the national interest. CSO would strongly oppose any changes to the 
CZMA which would substantially alter section 307.
Eligibility of Non-Profits to Implement Community / 306A Projects
    Recommendation: CSO proposes that Section 306A(e) be amended to 
make it clear that funds can be allocated to ``not-for-profit 
organizations.
    Comments: Such grants should be available only to undertake the 
objectives of section 306A and not directly to benefit such groups. In 
some cases. states have identified local non-for-profit groups as the 
best suited to undertake projects or activities eligible under the 
Coastal Resource Improvement Program under Section 306A.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2578.001
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2578.002
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2578.003
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2578.004
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2578.005
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2578.006
                                 
    Mr. Gilchrest. Yes, sir, thank you very much.
    I yield to Mr. Saxton to introduce the next witness.
    You did that?
    Mr. DeLuca, you may begin, sir.

STATEMENT OF MICHAEL P. DE LUCA, PRESIDENT, NATIONAL ESTUARINE 
                  RESEARCH RESERVE ASSOCIATION

    Mr. DeLuca. Thank you, Mr. Chairman.
    I serve as the President of the National Estuarine Research 
Reserve Association, and my testimony is presented on their 
behalf today.
    What I would like to do in the interest of time is to 
forego the majority of my remarks and kind of get to the chase 
here.
    Mr. Gilchrest. Your full statement will be entered into the 
record.
    Mr. DeLuca. Thank you very much.
    But before I do so, I would like to acknowledge the support 
of the membership of this Committee on behalf of CZMA in the 
past, and certainly a special acknowledgement to Congressman 
Saxton, who has been an ardent supporter of coastal management 
programs in New Jersey, including the Cousteau reserve.
    NERRA is dedicated to science-based management of our 
nation's estuaries and coastal systems, and serves as the 
primary advocate for the reserves, a network of 25, soon to be 
26, regionally based programs that represent very diverse 
coastal estuarine systems.
    What I would like to do is just point out a few examples of 
the partnership that exists between the reserves and state 
coastal zone management programs, identify very briefly two 
initiatives that are under way, and then wind up with some 
comments on the reauthorization.
    The NERRS and coastal zone management programs represented 
by my colleague from New Jersey, and certainly by Margaret 
Davidson here, contribute to informed use of estuarine-
dependent resources through an integrated program of research, 
education, stewardship.
    For example, at the Chesapeake Bay, Maryland, reserve, that 
site and the Maryland coastal zone management program partnered 
to develop a restoration plan for submerged aquatic vegetation.
    In Massachusetts, the Waquoit Bay reserve partnered with 
their state coastal zone management program and a variety of 
other agencies to reduce nitrogen loading to the surrounding 
watershed through a combination of land acquisition and 
management strategies.
    It is generally recognized that local and regional land-use 
decisions continue to contribute to degradation of water 
quality, habitat loss, and wetland losses. Yet, the individuals 
responsible for making decisions on these issues--local elected 
officials, planners, government agencies, agricultural 
interests--are often asked to do so without sufficient 
information regarding potential consequences and downstream 
effects.
    To meet these challenges, the reserves have developed 
several systemwide programs, including a systemwide monitoring 
program, a graduate research fellowship program, and an item 
known as coastal decisionmaker workshops.
    In addition to these core programs, the reserve system over 
the past few years has conducted a planning process to identify 
national initiatives in response to increasing demand in the 
coastal management community for expanded reserve products and 
services. These include a coastal training initiative and an 
expansion of the systemwide monitoring program, which is the 
only one its kind devoted to estuaries in the nation today.
    The coastal training initiative enhances existing NERRS 
training delivery systems to provide the best available 
science-based information, tools, and techniques to individuals 
and groups that are making important decisions about resources 
in coastal watersheds, estuaries, and near-shore areas.
    With respect to the second item, that of estuarine 
monitoring capability, we are proposing to expand the 
monitoring program. This is aimed at adding to the current 
system of environmental observations made at NERRS sites. This 
is primarily a water quality monitoring program, and we are 
planning to expand it to look at biological indicators and 
land-use change in estuaries.
    Finally, I would like just to mention that we do enjoy a 
very strong partnership, the reserves, with NOAA, our parent 
agency. This has been recently strengthened by senior NOAA 
leadership, including Margaret Davidson, who has instituted or 
created a coastal coordinating council to foster integration 
between reserves and many coastal program elements of NOAA.
    And also, Laurie McGilvray, who is here, the Director of 
the Estuarine Reserve Division--through that division, we have 
been receiving training materials and assistance to help 
reserves do their jobs better.
    The Coastal Services Center and also the Cooperative 
Institute for Coastal Environmental and Estuarine Technology 
are also very helpful here.
    With respect to the CZMA, NERRA recommends that amendments 
to the Act should provide effective mechanisms to assess the 
technology and information needs of coastal communities, 
strengthen the capacity of the state-Federal partnership to 
support research and monitoring, and improve the access and 
delivery of science-based information.
    I have five specific recommendations with respect H.R. 897.
    And that is, we certainly applaud the efforts of the 
Committee and Mr. Saxton to recognize the role of reserves in a 
separate title. We are very supportive of that. We would 
suggest that two initiatives be codified in that section as 
well, the coastal training initiative and the expansion or 
build-out of the systemwide monitoring program.
    Secondly, there is a provision in there dealing with match 
requirements. Only recently has Federal funding for the NERRS 
begun to increase. We agree that coastal states need to provide 
strong support for the reserves, but that the current cost 
share works well for the foreseeable future.
    Third, we recommend that the current name remain in place. 
Much discussion has been held on this issue over the past. We 
commend the efforts of this Committee with the suggestion to 
rename the program, but keeping the name and ``research'' in 
the name are well-suited to the program.
    And then, of course, we certainly strongly endorse suitable 
authorization levels, including support for construction 
acquisition in the bill.
    I will end my remarks there. I would like to thank the 
Chair and the Committee for the opportunity to testify today.
    [The prepared statement of Mr. De Luca follows:]

Statement of Michael P. De Luca, President, National Estuarine Research 
                          Reserve Association

Summary of Comments on Reauthorization of the CZMA
    NERRA is dedicated to science-based management of our nation's 
estuaries and coastal systems, and serves as the primary advocate for 
the National Estuarine Research Reserve System (NERRS), a network of 25 
(soon to be 26) regionally-based programs representing diverse 
estuarine and coastal ecosystems throughout the U.S. and its 
territories. Through a state-Federal partnership codified in the 
Coastal Zone Management Act, the reserves play a critical role in 
national efforts to sustain healthy estuaries and coastal communities.
    Reauthorization of the CZMA provides an opportunity to strengthen 
the capabilities of coastal communities to address issues of coastal 
development, protection, and habitat restoration. Of particular 
importance to the NERRS, is the framework provided by the CZMA to meet 
the need for informed decision-making at the Federal, state, and local 
levels.
    Amendments to the Act should:
    <bullet> LProvide effective mechanisms to assess the technology and 
information needs of coastal communities at local and regional scales
    <bullet> LStrengthen the capacity of the state-Federal partnership 
to support research and monitoring relevant to local and regional 
needs, and
    <bullet> LImprove the access and delivery of science-based 
information to coastal communities, and evaluate the performance of the 
state-Federal partnership in support of informed coastal decisions.
    Specifically, NERRA offers the following recommendations in support 
of CZMA Reauthorization.
    <bullet> LIncorporate the Coastal Training Initiative and expansion 
of the System-Wide Monitoring Program as key provisions of a separate 
title devoted to NERRS.
    <bullet> LMaintain the existing cost-sharing levels for state (30%) 
and Federal (70%) funding.
    <bullet> LMaintain the name of the program as the National 
Estuarine Research Reserve System.
    <bullet> LAuthorize the NERRS at an initial level of $17 million, 
plus $1 million per out year of the authorization period.
    <bullet> LAuthorize a level of $15 million per year for NERRS 
construction and acquisition.

Introduction
    Good morning. My name is Mike De Luca and I am the President of the 
National Estuarine Research Reserve Association. I also serve as 
Manager of the Jacques Cousteau National Estuarine Research Reserve and 
as the Senior Associate Director of the Institute of Marine and Coastal 
Sciences at Rutgers University. I'd like to thank the Chair, Mr. 
Gilchrest, and members of the committee for the opportunity to provide 
comments on reauthorization of the Coastal Zone Management Act in 
general, and on H.R. 897--the Coastal Community Conservation Act of 
2001 introduced by Mr. Saxton.
    My testimony today is presented on behalf of the National Estuarine 
Research Reserve Association or NERRA. NERRA is dedicated to science-
based management of our nation's estuaries and coastal systems, and 
serves as the primary advocate for the National Estuarine Research 
Reserve System (NERRS), a network of 25 (soon to be 26) regionally-
based programs representing diverse estuarine and coastal ecosystems 
throughout the U.S. and its territories. Through a state-Federal 
partnership codified in the Coastal Zone Management Act, the reserves 
play a critical role in national efforts to sustain healthy estuaries 
and coastal communities.

National Estuarine Research Reserve System (NERRS)
    The National Estuarine Research Reserve System (NERRS), established 
under section 315 of the CZMA, is designed to promote informed coastal 
decisions through site-based estuarine research, education, and 
stewardship. This represents a relatively unique collaboration among 
the scientific, management, and education communities working together 
on a daily basis on local and regional coastal issues. NERRS sites have 
been selected on the basis of biogeographic regions that share 
geophysical and biological characteristics. Coastal states are 
responsible for management of reserve sites, in cooperation with the 
National Oceanic and Atmospheric Administration (NOAA).
    Since the enactment of the CZMA in 1972, 25 estuaries have been 
designated as part of the reserve system including Alaska and Puerto 
Rico, with an additional site (San Francisco) expected to be designated 
later this year. Reserves serve as regional centers of excellence where 
coastal communities can access a broad array of coastal products and 
services:
    <bullet> Ltraining to promote informed environmental decision-
making,
    <bullet> La national monitoring program for estuaries is 
maintained, and
    <bullet> Ltraining opportunities for the next generation of coastal 
researchers, educators, and managers.
    With these key elements, the reserve system is in the unique 
position of serving the national interest while responding to local 
needs.
    Estuaries, dynamic regions where rivers meet the sea, constitute an 
important interface between land use and coastal resources. Considered 
to be among the most biologically productive ecosystems on Earth, 
healthy estuaries are essential to the preservation of robust coastal 
communities. Estuaries support vital nurseries for economically 
important fish and shellfish, provide essential habitat for wildlife, 
create opportunities for ecotourism, and serve as ports for maritime 
commerce. The NERRS and Coastal Zone Management Programs contribute to 
the informed use of these estuarine dependent resources through an 
integrated program of research, education, and stewardship, as well as 
implementation of state coastal zone management plans. For example, at 
the Chesapeake Bay-Maryland NERR, the Reserve and Maryland CZM Program 
partnered to develop a restoration plan for submerged aquatic 
vegetation. In Massachusetts, the Waquoit Bay NERR partnered with the 
state CZM Program and other agencies to reduce nitrogen loading to the 
surrounding watershed through a combination of land acquisition and 
management strategies. In Rhode Island, the Narragansett Bay NERR 
partnered with the state CZM Program to provide assistance in response 
to oil spills and conduct damage assessments. In Maine, the Wells NERR 
has a specific mandate to provide science support for the state CZM 
program, a partnership that promotes daily collaboration between the 
scientific and management communities.
    Local and regional land use decisions continue to contribute to 
degradation of water quality and loss of wetland habitat. Land use in 
watersheds, ranging from agriculture and development to water resource 
allocation and flood control, are becoming increasingly important 
factors coastal and estuarine management. Local elected officials, land 
use planners, government agencies, and agricultural interests are often 
asked to make land use decisions without sufficient information 
regarding the potential consequences to downstream effects.
    To meet these challenges, the NERRS have developed several system-
wide programs to place reserves in a strong position to detect 
environmental change, respond to pressing research needs at the local 
and regional scale, and to provide technical training for the coastal 
stakeholder community:
    <bullet> LThe NERRS System-Wide Monitoring Program is designed to 
provide standardized monitoring and assessment capabilities at each 
Reserve to detect changes in water quality, biological indicators, and 
land use change at the watershed scale.
    <bullet> LThe NERRS Graduate Research Fellowship Program supports 
two graduate research projects at each Reserve annually on coastal 
management topics of concern to local and regional stakeholders. 
Research topics range from stormwater management and restoration 
ecology to invasive exotic plants and fishery habitat requirements.
    <bullet> LThe NERRS Coastal Decision-Maker Workshops target 
individuals involved in local planning and management. Workshops 
provide science-based information on topics responsive to local needs 
such as polluted runoff, watershed management, water supply, and 
restoration science.
    In addition to research, monitoring, education, and technical 
training, Reserves are developing resource stewardship and coastal 
restoration programs that address both site-specific and watershed-
scale information needs. For example, the Rookery Bay NERR partnered 
with 70 local researchers and 100 coastal managers and local officials 
to establish restoration science priorities for one of the largest 
watersheds in Florida.
    Resource stewardship is an essential component of the NERRS mission 
and ensures that site conditions remain suitable for long-term research 
and education programs. Stewardship activities include the control of 
invasive species, restoration of natural hydrologic processes, and the 
conduct of prescribed burns in fire-dependent plant communities. NERRS 
staff also has built strong partnerships with local agencies, 
organizations, and landowners to develop watershed management 
strategies, and Best Management Practices that mitigate disturbance to 
water quality and habitat structure.

NERRS Initiatives
    Over the past several years, the NERRS conducted a planning process 
to identify national initiatives in response to an increasing demand 
from the coastal management community for expanded reserve products and 
services. With the recent increase in appropriations, two of these 
initiatives are now advancing toward implementation a Coastal Training 
Initiative and expansion of the System-Wide Monitoring Program.

Coastal Training Initiative
    One of the most significant challenges in managing the nation's 
coasts today is the need to link science-based information to local 
coastal communities. Decisions made by coastal communities can have 
profound, long-term consequences for estuarine and coastal 
environments. Elected officials, land use planners, regulatory 
personnel, coastal managers, and agricultural and fisheries interests 
are key decision makers who often do not have adequate access to 
relevant science-based information, training, or available technology 
to make informed decisions affecting the coast. Building on past 
success with services for coastal decision-makers (such as workshops on 
global climate change sponsored by the Chesapeake Bay-Maryland NERR or 
the transfer of management-oriented research by the North Carolina NERR 
to coastal decision-makers in many states using an interactive format 
via the Internet), the National Estuarine Research Reserve System 
(NERRS) has developed a Coastal Training Initiative to fill this need.
    The Coastal Training Initiative (CTI) enhances existing NERRS 
training delivery systems to provide the best available science-based 
information, tools, and techniques to individuals and groups that are 
making important decisions about resources in coastal watersheds, 
estuaries, and nearshore waters. Programs have taken the form of 
workshops, seminars, distance learning, technology applications and 
demonstrations. Opportunities for information exchange and skill 
training are expanding coastal management networks and collaboration 
across sectors, and improving local understanding of the environmental, 
social, and economic consequences of human activity in the coastal 
zone. These programs also make use of field experiences, relevant 
research and monitoring, and facilities provided by the site-based 
reserves.
    The CTI was designed to increase the current capacity of Reserves 
to deliver technical training services to under-served constituent 
groups. Reserve staff continue to work closely with State coastal 
programs and others to identify critical issues in the region and key 
coastal decision-makers that could benefit most from relevant science 
and training. Participants in CTI have included state and local elected 
and appointed officials, agency staff, volunteer boards, members of 
NGOs, business organizations, and state and regional professional 
associations whose daily decisions impact coastal resources.
    Reserve staff are implementing the CTI in partnership with national 
and local organizations. At the national level, NOAA's Estuarine 
Reserves Division provides strategic and budget planning and support in 
partnership with NOAA's Coastal Management Programs, Sea Grant, and the 
Coastal Services Center. At the local and regional levels, individual 
Reserves are developing CTI partnerships with State coastal programs, 
Sea Grant programs, local universities and researchers, professional 
organizations, local government agencies, non-profit organizations, and 
a variety of others with expertise, skills, training sites, and 
logistical support. For example, at the Waquoit Bay NERR in 
Massachusetts, the Reserve has partnered with the Sea Grant Program at 
the Woods Hole Oceanographic Institution and the state CZM Program to 
advance their Coastal Training Initiative.

Expansion of the System-Wide Monitoring Program
    Estuaries are highly variable, complex systems where the 
variability in water movement, water quality, habitat, and human use 
vary over a wide variety of spatial and temporal scales. Because of 
this variability, it is often difficult to separate natural change from 
those changes influenced by human use of our coasts and estuaries. Two 
approaches are necessary to address this issue. First, targeted 
research is needed to determine the cause and effect relationships of 
human influence on estuarine variability, and second, a long-term 
monitoring program is needed to characterize the natural variability 
that governs the structure and function of estuarine systems. The 
reserve system has begun building the capability to meet this 
management need.
    As noted above, the NERRS is addressing the first need through a 
graduate research fellowship program where students across the nation 
compete to work on priority needs of the coastal management community. 
Almost 50 graduate students per year receive support from this program 
and present results of their research at national, regional, and local 
meetings where information is transferred to other researchers, coastal 
managers, and those individuals responsible for making daily decisions 
with respect to our coastal and estuarine resources. Student projects 
address such topics as habitat restoration, invasive species, non-point 
source pollution and biodiversity. For example, at the Elkhorn Slough-
California NERR, a student is exploring how seagrass can be restored by 
carbon dioxide enrichment; at the Chesapeake Bay-Maryland NERR, a 
student is linking anthropogenic nutrient inputs to microbially 
mediated nutrient cycling; and at the Padilla Bay NERR, students are 
looking at the invasion potential and consequences of a non-indigenous 
cordgrass.
    In addition to the graduate research program, reserve sites are 
being actively promoted as sites for long-term research by many 
granting agencies such as the National Science Foundation, 
Environmental Protection Agency and, of course, NOAA. This promotion 
directs researchers from throughout the country to conduct long-term 
studies in estuarine research reserves.
    With respect to the second need, that of a long-term, estuarine 
monitoring capability,
    The NERRS operates the only national monitoring program for 
estuaries in the U.S. The system-wide program is designed to identify 
short-term variability and long-term trends in coastal environmental 
quality and health at national, regional, and local levels. The program 
focuses efforts on three critical areas: estuarine water quality, 
estuarine biodiversity, and estuarine land use change. Environmental 
data collected at NERRS sites are managed and accessed via a central 
repository and made available to state and Federal agencies, 
universities and others via the World Wide Web.
    Expansion of the SWMP effort is aimed at adding to the current 
system of environmental observations made at NERR sites. This will be 
addressed through spatial expansion of the water quality monitoring 
program, and the addition of new parameters such as nutrients. Periodic 
syntheses of data are expected to serve as one of the mechanisms by 
which coastal managers can inform their decision-making 
responsibilities.

Partnerships
    The NERRS enjoy a strong relationship with its Federal partner, the 
National Ocean Service at NOAA. This relationship is being strengthened 
by senior NOAA leadership, which recently created a Coastal 
Coordinating Council to foster integration between reserves and many 
coastal program elements of NOAA including Sea Grant. The state-Federal 
partnership, a hallmark of the NERRS, is strong. Two years ago, NOAA 
created a separate Estuarine Reserves Division to support NERRS. NOAA 
also has been increasing its service to the NERRS, especially training, 
materials, and assistance with site profiles from the Coastal Services 
Center, GIS capacity building with assistance from the Cooperative 
Institute for Coastal and Estuarine Environmental Technology and the 
Coastal Services Center, and by providing opportunities for the 
Reserves to play a larger role in coastal science programs at the 
agency.
    Reserves also leverage significant resources on behalf of coastal 
research, education and management through partnerships with government 
agencies at local, regional, and Federal levels, private industry, and 
academia. For example, the Hudson River NERR received approximately $2 
million in funding from the state of New York, Columbia University, and 
the Hudson River Foundation to characterize the benthic habitat of the 
Hudson River. The Jacques Cousteau NERR received more than $1 million 
from Federal, state, and private sources to investigate coastal 
processes at a Long-term Ecosystem Observatory, and to develop science 
enrichment programs for the precollegiate community based on this field 
program. At the Elkhorn Slough NERR, a partnership with the Elkhorn 
Slough Foundation, National Audubon Society and the Monterey County 
Planning Department is gathering critical resource information for a 
regional watershed plan. The plan will be used to guide future land use 
in the watershed surrounding the Reserve. A partnership between the 
North Carolina NERR and private industry has developed an innovative 
educational program known as Estuary Live, an interactive, Internet-
based field trip for students throughout the country. This program 
received awards from USA Today and the Governor of North Carolina. The 
Narragansett Bay NERR partnered with Sea Grant, EPA, the University of 
Rhode Island and many others to convene a Bay Summit that focused 
attention on a broad range of coastal issues. The summit was attended 
by representatives of all but two municipalities and resulted in a 
formal partnership to protect bay resources.

Reauthorization of the Coastal Zone Management Act
    Reauthorization of the CZMA provides an opportunity to strengthen 
the capabilities of coastal communities to address issues of coastal 
development, protection, and habitat restoration. Of particular 
importance to the NERRS, is the framework provided by the CZMA to meet 
the need for informed decision-making at the Federal, state, and local 
levels.
    Amendments to the Act should:
    <bullet> LProvide effective mechanisms to assess the technology and 
information needs of coastal communities at local and regional scales
    <bullet> LStrengthen the capacity of the state-Federal partnership 
to support research and monitoring relevant to local and regional 
needs, and
    <bullet> LImprove the access and delivery of science-based 
information to coastal communities, and evaluate the performance of the 
state-Federal partnership in support of informed coastal decisions.
    Specifically, NERRA offers the following recommendations in support 
of CZMA Reauthorization.
    NERRA applauds the effort to recognize the role of Reserves in 
coastal research, education, and stewardship with the addition of a 
separate title in H.R. 897 devoted to NERRS. This provides a strong 
base with which the NERRS can leverage resources through partnerships 
on behalf of informed coastal management. NERRA recommends that this 
recognition be extended to include and codify the primary research and 
education elements of the NERRS. These are the Coastal Training 
Initiative and the Buildout of the System-Wide Monitoring Program. 
These elements require a long-term commitment to ensure that reliable, 
accurate, and timely information supports informed coastal management.
    NERRA recommends that the existing match funding requirements 
remain in place. Only recently has the Federal funding for the NERRS 
begun to increase. This has required the coastal states and Reserves to 
add significant new match funding to the program. Much needs to be done 
to support basic operations at each site, as well as to implement the 
two initiatives now underway (CTI and SWMP Expansion). NERRA certainly 
agrees that the coastal states need to provide strong support for 
Reserve programs, but the current cost-share (70% Federal-30% state) 
works well for this unique state-Federal partnership and should remain 
in place at this time.
    NERRA recommends that the current name, National Estuarine Research 
Reserve System, remain in place. Much discussion has been held over the 
past several years on the name of this system. The challenge had been 
to come up with a name that represented the research roots of the 
program, but enabled individuals outside the program to pronounce and 
understand what an estuarine research reserve is or what an estuary is. 
With the recent growth in the Reserve budget and hence Reserve 
awareness, this has become less of an issue. Further, funds have been 
used to construct visitor/interpretive centers at many of the reserves 
that have resulted in greater public awareness and recognition of the 
NERRS. Finally, research is one element that distinguishes the NERRS 
from other parks, reserves, and sanctuaries. NERRA commends the efforts 
of this committee with the suggestion to rename the program in H.R. 
897, but keeping the name and keeping research in the name are well 
suited to the program.
    With respect to authorization levels, NERRA recommends that a 
stable base for each Reserve site is $500K to support basic operations 
plus additional funding to support the two primary initiatives (CTI and 
SWMP). Thus, NERRA supports a 5-year reauthorization beginning at $17 
million and increasing by $1 million per year to accommodate new sites, 
expansion of products and services, and cost of living increases.
    NERRA strongly endorses incorporation of funding for construction 
and land acquisition into the Reauthorization measure as stated in H.R. 
897. The NERRS have established procedures for setting priorities for 
construction and land acquisition, and recently assembled long-term 
plans to meet construction and land acquisition needs. Incorporation of 
funds for these purposes ($15 million per year) into the CZMA will 
provide a stable, long-term source of funding for the NERRS to maintain 
facilities in support of research, education, and stewardship programs, 
as well as to acquire key land and water areas for watershed 
management.

Closing
    I'd like to thank Chairman Gilchrest and members of the Committee 
for the opportunity to present testimony on behalf the Reauthorization 
of the Coastal Zone Management Act. I will be pleased to answer any 
questions the Committee may have at this time.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Mr. DeLuca.
    Our next witness is from Maryland, representing the State 
Department of Agriculture. Ms. Lawrence, welcome.
    Ms. Lawrence. Thank you.
    Mr. Gilchrest. We look forward to your testimony.

  STATEMENT OF LOUISE LAWRENCE, CHIEF, RESOURCE CONSERVATION, 
               MARYLAND DEPARTMENT OF AGRICULTURE

    Ms. Lawrence. Good morning. I wanted to thank the Chairman 
and Members of this Committee for granting this opportunity for 
me to speak today.
    My name is Louise Lawrence. I am Chief of the Office of 
Resource Conservation with the Maryland Department of 
Agriculture. My section is responsible for agricultural soil 
conservation, water quality, and natural resource protection 
programs.
    My involvement with coastal zone issues is illustrated by 
my service on the Chesapeake Bay Critical Area Commission, the 
Maryland Interagency Nonpoint Source Coordination and Grants 
Committee, the Coastal Bays Implementation Committee. And I 
have been the liaison for my agency for coastal zone programs 
since 1985.
    The coastal zone program in Maryland is implemented in 16 
counties that cover two-thirds of the state. We get about $2.5 
million in Federal funds for coastal zones in Maryland every 
year.
    Our program is networked. And what this means is that it is 
implemented by an array of agencies. My agency is one of them. 
It implements many elements of the program.
    It also means that we use all sources of funds to implement 
the program, not just the Federal money, but there is a lot of 
state and local effort and funds and staffing resources to 
implement it.
    We also have a number of programs that supplement or 
support coastal zone on the Federal and local and state levels. 
Some of these are the Chesapeake Bay Program, the National 
Estuary Program, the coastal bays program, and the Clean Water 
Act Section 319 nonpoint source program.
    All of these programs have somewhat similar objectives, but 
all of them have a little different emphasis in terms of how 
they want their money to be spent and what types of measurable 
results they expect to see in the end.
    And for all these Federal programs, we get about $8 million 
worth of funding to implement the requirements.
    In state fiscal year 2000, the state put in over $97.5 
million, so you can see that leveraging of Federal funds is 
pretty significant in Maryland. We are very committed 
financially and with our programs to implement objectives and 
goals that are consistent with the Coastal Zone Management Act.
    Despite its commitment to coastal zone, I did mention the 
need to maintain flexibility in how we implement that program. 
Because we have several agencies who are responsible for 
implementing at the state and local level, as well as the 
Federal level, we tend to use Federal money to fill in gaps 
that we have.
    One example I would like to use is that in the 1980's, the 
State of Maryland put a lot of emphasis on the Chesapeake Bay 
Program, and so our department got a lot of staff resources, 
but they had to be targeted in the Chesapeake Bay watershed.
    In the mid-1990's, we got approval for a national estuaries 
program, and that part of our state was not part of the 
Chesapeake Bay watershed. We were really not allowed by policy 
to target staff to that area to do agricultural programs, so we 
used a CZM grant to do that.
    That cost about $30,000 a year. We had a technical position 
that worked at a local soil conservation district office, 
helped farmers to develop and implement best-management 
practices.
    We do have a state cost-share program that helps fund these 
practices. We provide about 87.5 percent of the cost of them. 
So between 1995 and 2000 when CZM funded that position, at 
about $30,000 a year, the amount of cost-share money the state 
contributed to actually implement those programs was over 
$565,000.
    So you can see how that one position leveraged state money 
to allow farmers in that watershed that wasn't previously 
captured by some of the state technical assistance programs to 
achieve coastal zone management goals.
    One other comment that I wanted to make that has been made 
before relates to the cap that is placed on 306 funds. As that 
currently stands, despite modest national increases in funding 
to coastal zone programs, there are several states, and 
Maryland is one them, whose funding has been capped. Our 
funding has been capped for 8 years.
    And the draft language bill goes a long way toward 
addressing this need. What we would like to see is language 
that allowed all eligible coastal states to receive increased 
funding in years when the appropriation increases.
    I guess the final point that I would like to make, that I 
tried to illustrate with my example, is the need for 
flexibility in programs. I think that when you try to earmark 
funds to specific things, it ties the hands of the states from 
being more creative in the way that they administer their 
programs.
    In Maryland, that is especially important because of the 
way that we have networked it through a number of agencies, and 
we try to mix and match results.
    So I have included in my written testimony a couple 
suggestions about ways that we could assure that local 
communities have adequate funds to implement goals consistent 
with their needs as well as achieve the goals of the Committee 
in targeting local community work.
    Again, I would like to thank you all for allowing me to 
speak. I think several people have made the comment that we are 
loving the coastal zone to death as bigger and bigger parts of 
our population are migrating there. And I encourage you and 
commend you for your efforts to protect the fragile and 
important resources of our coastal zone areas. Thank you.
    [The prepared statement of Ms. Lawrence follows:]

 Statement of Louise Lawrence, Chief, Office of Resource Conservation, 
                   Maryland Department of Agriculture

Introduction
    Thank you, Chairman Gilchrest and members of the Committee, for 
providing me the opportunity to speak here today. My name is Louise 
Lawrence and I am the Chief of the Office of Resource Conservation at 
the Maryland Department of Agriculture. My section within the 
Department of Agriculture has responsibilities related to agricultural 
soil conservation, water quality and natural resource protection 
programs. We coordinate program delivery and implementation through a 
network of local, state and Federal cooperating agencies. I serve on 
the Chesapeake Bay Critical Area Commission, Maryland Coastal Bays 
Implementation Committee, Maryland Interagency NPS Coordination and 
Grants Committees and have been the liaison for Coastal Zone Management 
programs for my agency since 1985. I am here to provide comments on the 
reauthorization of the Coastal Zone Management Act.

Coastal Zone Management Act in Maryland
    The coastal zone in Maryland covers two-thirds of the state, 
encompassing 16 of our 23 counties. Although the state's total physical 
area is not large compared to a number of coastal states, Maryland's 
extensive shoreline and burgeoning population place it with 15 out of 
35 states whose 306 program funding is currently capped. Federal 
coastal zone management support to Maryland averages $2.5 million 
annually.
    Maryland's Coastal Zone Management Program is a networked program. 
This cooperative approach applies both to program implementation 
responsibilities and program funding. Maryland Department of Natural 
Resources acts as the lead agency coordinating the program. A number of 
local and state agencies carry out implementation. For example, one of 
the responsibilities of the Maryland Department of Agriculture is 
implementation of agricultural soil conservation and water quality 
programs. Technical assistance for this program element is delivered 
through local soil conservation district personal. CZM grants will 
support four technical positions in 2001 to assist to farmers in 
targeted watersheds. The Maryland Department of Agriculture will 
provide up to 87.5% of the cost of installing best management practices 
implemented by farmers to control erosion, reduce nutrient movement and 
manage animal waste. This is just one example of how CZM programs are 
coordinated and Federal funds leveraged to achieve program goals.

Program Coordination and Funding Flexibility
    The coastal zone program has been the precursor and, in many cases, 
the catalyst for this coordinated approach being applied in a number of 
programs to expand water quality protection, habitat enhancement, 
living resources protection and community partnerships statewide.
    <bullet> L1983: Maryland's Chesapeake Bay Initiatives emphasized 
nutrient reduction and water quality objectives to improve habitat and 
protect fisheries resources. The program was applied to Maryland's 
portion of the Chesapeake Bay watershed encompassing all or part of 
every county.
    <bullet> L1985: The Chesapeake Bay Critical Area Protection Program 
created the framework for locally developed land use policies for the 
fragile area within 1000 feet of tidal waters. Implementation is 
through community partnerships within 16 CZM counties and over 60 local 
jurisdictions. Coastal zone management funding has provided crucial 
support to local efforts to implement these requirements.
    <bullet> L1989: Section 319 of the Clean Water Act required states 
to address non-point source pollution in a comprehensive statewide 
plan. An interagency team continues to coordinate and implement these 
programs.
    <bullet> L1992: Implementation of practices to achieve Chesapeake 
Bay Program goals is delineated by watershed and community input and 
ownership through Tributary Strategy Implementation Teams fostered.
    <bullet> L1996: Maryland received funding under the National 
Estuary Program and began a coordinated approach to develop strategies 
to address water quality, fish and wildlife, recreation and navigation 
measures and community and economic development through local, state, 
Federal and community partnerships in Maryland's Coastal Bays 
watersheds. Program implementation through a networked approach began 
in 2000.
    <bullet> L1997: Section 6217 emphasized the importance of 
addressing non-point sources of water quality in the coastal zone and 
created a number of management measures to be implemented. Maryland's 
networked program was the first to be approved nationally.
    <bullet> L2000: Renewal of the Chesapeake Bay Agreement, in 
addition to strengthening commitments to nutrient reduction and water 
quality, places new emphasis on sediment control and habitat protection 
and enhancement.
    For all their similarity of objectives, these programs also have 
slightly different emphasis expressed by the strings attached to the 
Federal funding they provide and the performance measures they use to 
assess progress. Maryland receives approximately $8 million in combined 
Federal funds from the Coastal Zone Management Program, Non-point 
Source Protection Program (Section 319 of the Clean Water Act) and the 
Chesapeake Bay Implementation Program . In state fiscal year 2000, 
state agencies implementing strategies to achieve these programs' 
objectives spent $97.5 million in state funds. This budget does not 
include all staff and funding resources provided by the network of 
local, regional and Federal partnerships engaged in achieving program 
objectives.
    The current financial commitment to coastal and non-point programs 
is not adequate to meet the challenge posed by these complex natural 
resource management issues. Funding is a fraction of what has been 
dedicated to address the more easily targeted and measurable point 
source issues. Estimates of what it will take to achieve the new and 
ambitious Chesapeake Bay Program goals are simply expressed by the 
motto: Big Ideas, Big Policy, Big Money.
    Maryland, despite its significant financial commitment to coastal 
zone management program objectives, depends on the resources brought to 
the table by Federal grants and the technology transfer accomplished by 
collaborations engendered by these networked programs. We count on 
Federal funds to help us fill in program needs or gaps that are not 
supported with state money. For example, Maryland's instituted a policy 
in the mid-1980's which prioritized agricultural staff resources to 
activities in the Chesapeake Bay watershed. In the mid-1990's when the 
state budget was static, we were able to use Coastal Zone Management 
funding to provide a technical position at the local soil conservation 
district to help farmers implement best management practices in the 
Coastal Bays. Adding this essential piece to a puzzle that already 
included adequate state cost share for BMP installation, allowed 
Maryland to accelerate agricultural BMP implementation in the Coastal 
Bays by filling a gap that would have otherwise gone unaddressed.
    It is important that the Coastal Zone Management Program maintain 
the flexibility necessary to allow states to fill in gaps and adapt 
resources available to their specific budgetary puzzle.

Recommendations
    It is important that the Coastal Zone Management Act be 
reauthorized to assure accomplishments and ongoing efforts to protect 
coastal resources and communities continue to be promoted by support at 
the Federal level. The goals, objectives and strategies of the Coastal 
Zone Management Program are still appropriate for the issues we face in 
2001. I commend efforts to translate these accomplishments to 
measurable results that the public can understand. I urge you to make 
the process of developing these measures interactive and flexible so 
states who implement coastal zone and related programs can maintain 
consistency among varied program efforts.
    Foremost in terms of need is funding. As previously noted, the 
resources available do not begin to match the enormity of the 
undertaking necessary to achieve program goals. If strides are to 
continue in the face of increasing pressure on the resources in coastal 
areas, additional financial resources will have to be allocated.
    A related concern is the current cap placed on 306 funding. Despite 
modest national funding increases, Maryland funds have been flat over 
the past 8 years because of a funding cap place on states with large 
populations and extensive shoreline. This year, the funding cap will 
limit available resource support to 15 of the 35 coastal states. The 
language in the draft bill will help address this issue by ensuring 
that all eligible coastal states receive increased funding in years 
where the appropriation increases.
    Finally, I'd like to reiterate the need to maintain the flexibility 
currently built into the program so states can continue to coordinate 
Federal funds and fill in gaps to achieve program objectives. 
Earmarking or restricting the use of funds will impact base program 
activities and reduce our ability to transition programs and test drive 
new ideas. I respectfully suggest the committee consider one of the 
following ideas to support local communities within the CZM Program:
    1. Support to local communities can be achieved without a direct 
earmark. This can be accomplished not limiting the definition of local 
community support to direct project implementation. In Maryland we have 
provided mapping resources, planning resources and staff support to 
assist local communities in implementing coastal programs. All of these 
efforts were targeted to fill an unaddressed need and achieved program 
objectives.
    2. Include support to local communities as an objective within the 
performance evaluation system. This would encourage states to utilize 
all funding sources to assure objectives supporting local government 
are implemented.
    3. Split out the local government section as the Senate Bill does 
so that is has its own dedicated funding source that will not compete 
with base funding.

Conclusion
    In conclusion, I would like to reiterate Maryland's support of 
reauthorization of the Coastal Zone Management Act. Coastal states have 
come a long way in understanding and addressing this moving target of 
coastal resources issues. We must build flexibility into our programs 
and innovation and creativity into our collaborative approaches to 
resolve the complex issues presented by coastal resource protection. 
More must be done to protect these fragile resources for the 
environmental health and economic well being of coastal communities. 
Thank you.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Ms. Lawrence.
    The cap that a couple of you have mentioned has not been 
put in the existing legislation or the authorization, but it is 
done in the Appropriations Committee. So we will certainly pass 
your concerns along to them.
    I wanted to ask each of you, if you care to comment, both 
drafts of the reauthorization propose that a certain percentage 
of the authorization be earmarked or be spent for implementing 
nonpoint source pollution programs.
    Ms. Lawrence, you just mentioned for the need of 
flexibility to deal with a whole host of problems in Maryland 
based on the Chesapeake Bay program and the coastal zone 
management program that is not in the Chesapeake Bay watershed.
    Could each of you briefly comment on the proposal to spend 
a certain percentage of the dollars that you get through the 
grant program on implementing nonpoint source pollution 
programs or systems?
    Who would like to go first?
    Ms. Lawrence. Well, I am on a roll.
    Mr. Gilchrest. One is about 10 percent required; the other 
on is about--I think, Jim, yours is 35 percent?
    One is 35 percent; one is 10 percent. That money would have 
to be spent on implementing nonpoint source pollution programs 
on the ground.
    Ms. Lawrence. Just to sort of reiterate my remarks, I 
guess, in general, I think nonpoint source control is very good 
because that is primarily what my agency does in terms of 
working with the agriculture community. So we would love to 
have additional money.
    But I guess from a more practical standpoint, I do believe 
that it is important to keep flexibility. And what we have seen 
in some of the 319 funding is they also want to have money 
spent directly on in-the-ground projects, and I fully support 
that concept.
    What I would like to suggest is that same objective could 
be achieved if you used some of the measurable-results 
accounting system that is proposed in the bills to say that 
states have to show that they have a certain percent in the 
ground but not make them spend just Federal money on that.
    In Maryland, we spend a lot of money on in-the-ground 
projects, so we sometimes need help with things like planning 
and mapping and other things that state money doesn't provide 
for us.
    So if we have the flexibility to mix and match and still 
meet whatever your objective is to fund some percent, with all 
our programs, I think that would be more consistent with how 
Maryland could best function.
    Mr. Gilchrest. I see.
    Mr. Tudor?
    Mr. Tudor. Yes, I would reinforce that perspective. I think 
the general idea is flexibility but with accountability. And we 
should have to report back to you how we are making a 
difference.
    In my state, we don't think of nonpoint source just in the 
context of a little box with coastal zone management. I like to 
leverage all the resources that are available. So we have 
millions of dollars that are available from corporate business 
tax; we have Clean Water Act monies; we have Department of 
Agriculture monies in the form of what they call the EQIP 
program; and we have the coastal zone management monies.
    And what we like to do is, on a watershed basis, focus on 
particular problems. So for me, it is not a particular issue. 
If 10 percent was allocated to nonpoint source, we could move 
forward to do that. But what we would like to be able to do is 
be able to have our base programs be kept intact.
    There is a big emphasis in the Coastal Zone Management Act 
on enforceable policies, so we have a significant permitting 
and enforcement capability that relates to new development in 
the state. And so, if we start getting from 10 percent to 50 
percent allocated to community assistance or nonpoint source, 
then that would significantly bite into our capability to 
implement the base program.
    Mr. Gilchrest. I see. Thank you.
    Ms. Davidson?
    Ms. Davidson. Mr. Chairman, I really think that it is 
appropriate in some ways to defer to the states, because they 
are the people charged with implementation. But I think the 
lower number is an appropriate number because of not only the 
flexibility issues, but there are a variety of things.
    Ms. Lawrence specifically referenced, as did Mr. Tudor, 
watershed planning and bringing to bear things like geographic 
information system tools. Increasingly, local and regional 
governments are concerned with planning issues, and they also 
want to bring forward a lot of other data.
    We have been pushing with NOAA to collaborate between 
coastal programs and the Sea Grant programs on something called 
nonpoint education for municipal officials, in which we bring 
together satellite imagery and GIS kinds of tools and help them 
to chart their own future in the ways that they want to best 
address these land-based sources of pollution.
    And it is not always a regulatory approach. The local 
government chooses.
    Mr. Gilchrest. I see. Thank you.
    Mr. DeLuca?
    Mr. DeLuca. I would also concur with my colleagues on the 
panel here and opt for flexibility.
    There are many ways that we can begin to address the 
nonpoint source issue, certainly through some additional 
research but also through training and education. At my site, 
we have been putting some funds into developing build-out 
scenarios for watersheds and enabling planners to envision 
their communities 20 and 50 years from now. And it is a very, 
very powerful tool.
    In this process, we have been able to leverage a very 
modest amount of reserve dollars into larger dollars for 
research, training, and education programs from our partners.
    So I would certainly opt for the flexibility to continue to 
leverage investment in these programs.
    Mr. Gilchrest. It sounds like the panel doesn't want an 
earmarked percentage of dollars.
    I am not sure who on the panel might know the answer to 
this, but based on the--this will be my last question, and the 
I will yield to the gentleman from Guam.
    Since the Coastal Zone Management Act has been put in 
place, does anybody know how many acres of wetlands have been 
protected, restored, enhanced, or created? And that is a part 
of the whole nonpoint source issue. Do we have that data?
    Ms. Davidson. Mr. Chairman, I think that burden falls on 
me. And the exact number is a little hard to discern because it 
is not just a NOAA-related number. There are other agencies; 
Department of Agriculture, for instance.
    What we do know is that it is on the order of hundreds of 
thousands. I will have my folks see if we can pull up a more 
exact number for you, in response to the question.
    Mr. Gilchrest. So we are looking at protecting or restoring 
or creating--
    Ms. Davidson. Yes, sir.
    Mr. Gilchrest. --hundreds of thousands of acres of 
wetlands?
    Ms. Davidson. Yes, sir. It is on that order. I just don't 
know the exact number at the moment.
    Mr. Gilchrest. The suggested USA Today articles, during the 
course of the summer, don't seem to bear that out.
    Ms. Davidson. Okay.
    Mr. Gilchrest. But we will look forward to that 
information.
    Ms. Davidson. Yes, sir.
    (NOAA's response follows:]

    As stated previously, determining the exact number of coastal 
wetlands protected, restored, enhanced, or created is a difficult task 
due to the number of players involved with wetlands protection as well 
as the lack of accurate and consistent data. Based on information from 
the National Wetlands Inventory, in the early 1970's there were 
approximately 5,500,000 acres of marine and estuarine wetlands in the 
continental U.S. This number declined to 5,337,000 acres in 1986, a 
loss of over 150,000 acres. Between 1986 and 1997, there was a net loss 
of approximately 10,400 acres, bringing the total to 5,326,600 acres. 
The rate of decline for this period was 82% lower than the rate of 
decline over the previous decade.
    This reduction in the rate of loss is at least partially 
attributable to additional protections afforded to most coastal 
wetlands through the creation and adoption of state coastal management 
programs and improvements in federal authorities. Nonetheless, this 
remains a high priority issue for state coastal programs. In the latest 
round of section 309 assessments 16 states identified wetlands as a 
high priority issue, and 7 as a medium priority.
    While we continue to lose coastal wetland habitat, we are at the 
same time working to restore and protect this habitat. For example, 
over the past 25 years, the National Estuarine Research Reserve System 
has been involved in the restoration of over 100,000 acres of damaged 
and polluted land and water, including wetland habitat. These restored 
wetlands are now protected as part of the NERRS sites.
    As part of the proposed coastal indicators and state of the coast 
report, we hope to work with our local, state, and federal partners to 
develop a better way to track some of this information in order to 
better understand what is happening to the Nation's coasts, including 
the trend in coastal wetlands protection and restoration versus loss 
through development.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Ms. Davidson.
    Mr. Underwood?
    Mr. Underwood. Thank you, Mr. Chairman.
    Perhaps it is time to pull out that chart about the 
decrease in the rate increase.
    [Laughter.]
    Mr. Gilchrest. Right.
    Mr. Underwood. We can go back to that original chart that 
we were working with the other folks from NOAA.
    Ms. Davidson, how many states does NOAA anticipate having 
fully approved by the end of this year for the coastal polluted 
runoff program?
    Ms. Davidson. Mr. Underwood, there will be 10 states with 
full approval. There are a number of states in the pipeline, 
sir.
    Mr. Underwood. I understand that as of today there are only 
four or five?
    Ms. Davidson. Fully approved, yes, sir.
    Mr. Underwood. Fully approved.
    Ms. Davidson. But we anticipate a number of states meeting 
the rest of their hurdles in the next few months. Several are 
just a matter of the paperwork being processed this summer.
    Mr. Underwood. So there is no particular cause for concern 
in terms of the progress of these approvals?
    Ms. Davidson. No, sir, I don't believe that we do. I think 
that most of the states are moving forward.
    Mr. Underwood. The Committee later on this morning will 
hear from an individual representing the American Petroleum 
Institute, recommending some changes to the Section 307 Federal 
consistency provisions.
    Is there an emerging position? Or do you know if the 
administration will take a position on supporting these 
changes?
    Ms. Davidson. What I do know, Mr. Underwood, is that the 
Vice President's energy task force has asked us to review 
existing statutes and regulations on CZMA consistency issues. 
And we are currently doing that in collaboration with the 
Department of Interior.
    The issues that they have are related to timing, what kind 
of data needs to be brought forward for the record. And we are 
working to identify ways to clarify both of those concerns that 
they have.
    Mr. Underwood. Do you know how long this process will take?
    So there is an active consideration of reviewing these 
consistency provisions?
    Ms. Davidson. Yes, sir. It was in the energy policy 
recommendations that just came out. And within the Department 
of Commerce, we have been holding some discussions on this 
matter directly.
    Mr. Underwood. Well, thank you for that.
    Mr. Tudor, in your testimony, you cite the need for NOAA to 
provide better assistance to coastal managers, and I think that 
is a legitimate role for the Federal Government to play. It is 
my understanding that NOAA has made a lot of strides in this 
area for coastal management.
    Could you describe how effective the Coastal Services 
Center in Charleston has been for your own work?
    Mr. Tudor. Yes. I could say a couple things.
    We are working closely with them right now in terms of 
something called a coastal fellow program, where they are able 
to bring resources and linkage to their coastal center to the 
states.
    In terms of information management, they have done things 
related to looking at land-use/land-cover change over time in 
the coastal area, so that the states can take advantage of that 
information.
    We have talked about the need to maybe work together better 
so that we fashion products that are not so much useful from 
the Federal Government to the state government, but allow the 
state to work better with local governments and give them 
something at that scale.
    And we think, from the perspective of technical 
assistance--I believe it is Section 315 in the CZMA--that we 
would want to continue to maintain that but maybe even enhance 
that capability.
    Mr. Underwood. That is very important information.
    I would like to go back to Ms. Davidson. Are there any 
plans in NOAA to--I guess you would know what my next question 
would be--to open up such a center for the Pacific?
    Ms. Davidson. Why, yes, sir. I believe that National Ocean 
Services is currently engaged with developing an operating plan 
for the Pacific services center to address the particular 
issues associated with not only the State of Hawaii but the 
territories and the islands.
    Mr. Underwood. I certainly want to continue to monitor the 
progress of that effort. I think it is very necessary, and it 
is very critical.
    Just lastly, Mr. DeLuca, are the research reserves 
monitoring polluted runoff?
    Mr. DeLuca. Not at this time. We have been in a position 
where there haven't been a lot of resources directed to the 
reserves for many, many years. And it is just within the past 
year that we have received an infusion of funding to expand and 
actually add parameters such as nutrients and parameters 
related to polluted runoff to the system.
    Right now, the system supports basic water quality 
monitoring. And with the monies that Congress provided last 
year, we are in the process of expanding that to address 
polluted runoff issues.
    Mr. Underwood. Thank you for that.
    And I would just urge my colleagues on the Committee that 
we pay particular attention to review of the consistency 
provisions as they are occurring.
    Thank you very much.
    Mr. Gilchrest. Thank you, Mr. Underwood.
    Mr. Saxton?
    Mr. Saxton. Thank you, Mr. Chairman.
    Before I ask several questions, let me just say that the 
young lady sitting to my left, a Sea Grant fellow, Jennifer 
Murphy, has been with us for better than a year, and today is 
her last hearing.
    She served with me while I was Chairman and now, of course, 
with Chairman Gilchrest, and we would like to thank her for the 
great job that she has done in helping us understand many 
issues.
    She is a graduate of the University of Washington and comes 
from Massachusetts.
    We look forward to the remaining days. And, incidentally, 
she is a sailor.
    [Laughter.]
    That makes her great in my eyes.
    [Laughter.]
    Thank you for the wonderful job that you have done, 
Jennifer.
    Let me just pursue this issue of implementing nonpoint 
source plans. While we were sitting here listening to your 
desire to not have funds earmarked, whether they be 10 or 35 
percent of the funds, to be spent on nonpoint source pollution, 
staff informed me that out of the better than 30 states--was it 
33 states?--only Maryland, California, Puerto Rico, 
Pennsylvania, Virginia have implemented nonpoint source plans 
as required by Federal law. The others have something called 
conditional approval, which I am also told is not a term found 
in the law.
    [Laughter.]
    So I think it could be accurately said that out of 33 
states, 28 are out of compliance, as far as the law is 
concerned. And that troubles me.
    Ms. Davidson, how do we solve this problem? The states 
don't want to have earmarks. I understand that, from the 
states' point of view. And I am a great states' rights guy; I 
believe in all the flexibility because all states are 
different.
    We don't handcuff state decisionmakers, but how do we get 
compliance?
    Ms. Davidson. As I mentioned, Mr. Saxton, why it is true 
that there are only a handful that have fully approved programs 
at the moment, we do expect to have at least 10 if not a dozen 
to have removed the nonofficial designation of not fully 
approved.
    In a couple of cases, it is really just a paperwork kind of 
problem.
    I have been spending a lot of time, sir, sitting down with 
the states over the last 6 months and talking about this issue 
and about the range of concerns that each of them have with the 
issue within their jurisdictions and the ways in which they 
want to approach it.
    And it has been very clear to me in talking with them about 
this, sir, that they all have an interest in addressing land-
based sources of pollution. But they also want to take a 
variety of approaches, one of which I referred to, which is: 
How do you bring together some data and some display 
information to help persuade local building officials, for 
instance, planning and zoning boards, to act on these matters?
    We have been also talking with people in the Department of 
Agriculture and NRCS about how we can build broader, more 
cooperative programs.
    So it is clear to me that states want to use a variety of 
mechanisms. Some are enforceable. Some are persuasive. Some are 
educational.
    And we want to work with the states to provide that 
framework and those resources, sir, both financial as well as 
technical, to help them address land-based sources in the way 
that make the most sense within the context of state and local 
authorities.
    Mr. Saxton. But the progress that you are making is--the 
deadline for compliance was 1995. Six years have passed by; 
five states are now in compliance. At that rate, it will be 28 
more years before the states are all in compliance.
    Ms. Davidson. Well, I would quibble with you a little bit, 
because if 10 are actually approved by the end of 2001, at that 
rate, we might make it by 2010.
    [Laughter.]
    But it is an issue of concern to us as well. And that is 
why I mentioned looking at a broader suite of tools to bring to 
bear in the issue.
    I think it is outcome issues that you are concerned with, 
Mr. Saxton, how do we clean up the water?
    Mr. Saxton. Yes, ma'am.
    Ms. Davidson. I think there are a variety of ways to 
approach that, sir. And even those states that would not wish 
to undertake enforceable mechanisms, I think there are 
strategies that they can use to address those concerns as well.
    So you and I share a similar concern. The question is how 
to get the states to do it. But it is not always by insisting 
only on sticks. I think you have to provide carrots as well, 
sir.
    Mr. Saxton. Mr. Tudor provided this colorful map of 
Stafford Township, New Jersey, which is in my district. It says 
on this side here:
    The yellow outlined area delineates areas that were 
developed as of 1986. The solid yellow areas have been 
developed between 1986 and 1995, a 10-year period.
    And then it says ``/1997''; I guess maybe some others were 
added. Maybe it is a 12-year period.
    The total area of impervious surface--like buildings, 
sidewalks, driveways, parking lots, et cetera--is about 1,425 
acres. About 230 of this total were added since 1986. The total 
area of impervious surface constitutes 5 percent of the total 
acres in the municipality.
    And when I look at it, and look at the colored-in yellow 
area, it looks like, and I am just guessing, it look like maybe 
we have developed, the last 10 years, the development has 
proceeded at maybe at 30, 40 percent additional development 
during that period of time.
    Is that an accurate characterization, Mr. Tudor?
    Mr. Tudor. I think it might 30 percent of the area that was 
the subject of traditional development.
    Mr. Saxton. Right.
    Mr. Tudor. But when you look at the whole community or 
think of it in terms of the whole watershed, there are many 
parts of the watershed that are being protected and the pattern 
of development is being concentrated.
    Mr. Saxton. Sure. Some areas east of the parkway are 
protected by the Pinelands.
    Mr. Tudor. Yes. Correct.
    Mr. Saxton. And in other parts of the township, we have 
spent a lot of Federal money to expand the Forsythe wildlife 
refuge. And some of the rest of it is wetlands. So there is 
undevelopable area for a variety of reasons.
    Mr. Tudor. Right.
    Mr. Saxton. The developing area is developing very rapidly.
    Mr. Tudor. That is correct.
    And really, the purpose of this tool was to make the local 
officials aware that this concept of impervious cover is very 
important, and that at some level, maybe 15 percent of a 
watershed, you fundamentally change the hydrology of your local 
streams. There is increased sedimentation, increased nutrient 
loading, and then, ultimately, that that would affect the bay 
system, and that we have to do the kinds of things contemplated 
in the 6217 programs, in terms of the different controls and 
application of them.
    Mr. Saxton. Are you familiar with Stafford Township's 
groundwater recharge program?
    Mr. Tudor. Yes. They are very progressive in terms of 
having a good storm-water management ordinance, a good 
groundwater protection ordinance, a good well-head protection.
    They have changed their master plan. They have conservation 
zones that allow for development of like one unit per 20 acres.
    And they are a good example of what you need to do to get a 
handle on this kind of a problem.
    Mr. Saxton. Actually, I am familiar with the local 
officials, and I know of their commitment to good environmental 
stewardship.
    And I also know of their groundwater recharge program, 
which is in the process of being implemented, which is quite 
extensive.
    Mr. Tudor. In terms of encouraging infiltration as opposed 
to runoff off the land and out in the bay.
    Mr. Saxton. That's right.
    Mr. Tudor. That's correct.
    Mr. Saxton. I guess I would say two things about this as an 
example. One is that it is illustrative the rapid growth that 
we are getting in many coastal areas; this is not just Stafford 
Township.
    When I go home this weekend and drive down the road in my 
district and look over my shoulder, there will be new houses 
there that weren't there last week. That is how fast 
development occurs in coastal areas.
    And I am not talking right on the ocean; that has been 
developed for years. Right on the bay, that has been developed 
for years.
    I am talking about 20 miles inland, 30 miles inland, 40 
miles inland. It is absolutely astounding how fast we are 
covering up land and giving water no place to go but down the 
street and in the storm drain and in the streams and washing 
all kinds of things along with it.
    I was frustrated last year when some of our Members were 
successful in amending out the provisions to provide for some 
mandated percentage of money to implement and encourage 
nonpoint source programs to be implemented.
    The states were given 5 years when the law was passed in 
1990. It now has been 11 years, and only 5 states have 
programs. And I find that discouraging.
    Maybe our expectation in 1990 was unrealistic. But we need 
to take some measure to help states with this really important 
program.
    Mr. Chairman, I yield back.
    Mr. Gilchrest. Thank you, Mr. Saxton.
    Mr. Saxton. I yield back the time that I used beyond my 
time.
    [Laughter.]
    Mr. Gilchrest. We will yield you as much time as you need 
anytime you need it.
    I just have a quick follow-up question, so if any of the 
other Members want a follow-up question as well.
    Ms. Lawrence, can you give us some idea of how, through the 
Maryland Department of Agriculture, you have been able to 
implement on the ground a program for nonpoint source pollution 
and what does that involve? CRPs, CREPs, wetlands? And how do 
you work with Coastal Zone Management Act people and how do you 
work with the local planning and zoning people to implement 
that program?
    Ms. Lawrence. The Maryland agriculture program is also sort 
of a networked effort, and we have folks at the local level 
called local soil conservation districts. They are independent 
subdivisions of the state. We also have our Federal 
counterparts at USDA.
    So we coordinate resources that are brought to bear by the 
state as well as the Federal and local level to deliver 
programs. We have a state cost-share program, as I mentioned 
earlier, that helps fund best management practices.
    Last year, we spent $6.5 million for just best-management 
practices. We spend another $2 million for cover crop programs, 
which was an identified need in Maryland as an add-on. And we 
have some new programs that relate to nutrient management that 
we also got some funding for as well.
    So altogether, we have pretty close to $20 million in cost-
share available in the state to help farmers.
    Mr. Gilchrest. So actually on the ground you develop 
buffers on the farm?
    Ms. Lawrence. Yes.
    Mr. Gilchrest. Crop rotation, all of those things?
    Ms. Lawrence. Animal waste management, waterways, erosion 
control measures, animal waste storage structures. Things that 
would mirror pretty much what 6217 called management measures 
that address soil erosion as well as addressing animal 
operations and grazing management and all those different 
issues.
    Mr. Gilchrest. They work well on the farm?
    Ms. Lawrence. Yes.
    Mr. Gilchrest. Is there any connection between preserving 
that land as agriculture to losing it to development in a 
discussion with CZMA or the local planning office or changing 
the zoning?
    Ms. Lawrence. We don't specifically get that involved in 
zoning issues. What our department does do, which is something 
that I am a little less familiar with, is ag land preservation.
    And we have many of our programs delegated to individual 
counties, and we work with them. They get part of the money 
that comes off the transfer taxation to implement programs 
locally, so they can set their own goals.
    Mr. Gilchrest. Would you say that ag land, with these 
nonpoint source pollution programs, which may not be called 
that down there, but the waterways and buffers and crop 
rotation and the nutrient management and all of that, would you 
say that is a better way to deal nonpoint source pollution than 
a shopping plaza?
    Ms. Lawrence. I would certainly say so. And I think that 
you prove it with science and you could prove it with economics 
as well, that for local communities, agriculture benefits a 
community a lot more.
    And it is probably an old study; it was back in the early 
1980's with Chesapeake Bay Critical Area Act. But they showed 
for development, for every dollar you get back in taxes for 
development, the local community spends $3 for infrastructure 
costs.
    Agriculture has no infrastructure costs.
    Mr. Gilchrest. Cecil County just recently updated that 
about a year ago, and it is just about the same numbers. For 
every dollar you get from a subdivision, it is costing the 
local government about $2, and for every dollar you get from ag 
land, it is only costing the local government about $.50. So it 
is economically advantageous to a community.
    I don't want to take away from shopping plazas, and people 
need homes to live in, and things like that, but it is a 
relentless problem with us up here.
    On what Jim was trying to say, we have implemented some of 
these programs, and when you read the USA Today article, you 
see rampant development never ceasing within 50 miles of the 
coast.
    You may not be able to answer these questions, and I do 
want to yield to my colleagues, but two more quick questions.
    One deals with the Heinz Center study, about when will that 
be done so we can take a look at it. Is there something that we 
should do to put in some criteria or indicators that I guess 
that the Heinz Center is trying to evaluate?
    These are rapid fire; that was, I guess, to Ms. Davidson.
    And, Ms. Davidson, the other one: Do you have any idea 
about how many acres or miles of coastal areas are protected 
from development, how many acres are now developed?
    And the last question, to the extent that development 
requires Federal permits--oh, this is a note to me. I don't 
think I am supposed to read it.
    [Laughter.]
    But I will read it anyway. It might help everybody in the 
room besides myself.
    To the extent that development requires Federal permits, 
the states can review these permits for consistency with state 
CZMA plans. And that is a good part of the bill.
    So I am not chastising you, because I know how difficult it 
is to preserve land when you get a lot of mix of interest in 
the local communities.
    Ms. Davidson?
    Ms. Davidson. Your first question related to a study that 
we have undertaken with the Heinz Center.
    I would like to point out that also over the course of the 
last year that I have been meeting with state and local and 
other folks to talk about performance indicators. We thought 
this was a very important subject.
    And realizing the scope of it, have undertaken a 
collaboration with the Coastal States Organization and Heinz 
Center to actually look more closely at performance measures 
for integrating coastal management.
    Exactly when it is completed, I can't tell you that date. 
Although I understand we will shortly be getting some more 
assistance, Mr. Saxton, at the Heinz Center to help work on 
that study.
    Thank you, Jennifer.
    Mr. Saxton. Mr. Chairman?
    Mr. Gilchrest. Mr. Saxton?
    Mr. Saxton. I have something that I have to do at 12 
o'clock, and I wonder if I could just be recognized for a 
minute, because I have to leave.
    Mr. Tudor indicated, Mr. Chairman, that there are many 
things that New Jersey and other states have done. And I would 
like to give him the opportunity to talk in particular about 
New Jersey open space, the various programs that we have in 
place, because I know that we have been working diligently to 
come into compliance with CZM.
    And I just want to give him the opportunity to talk about 
the many steps that we have taken in coastal states and 
particularly in New Jersey.
    Mr. Tudor. Actually, CZM is one of the tools in the toolbox 
to make a difference. Other tools in the toolbox are things 
like a very aggressive land acquisition program; a statewide 
watershed management program where you are looking beyond 
municipal to all the land that flows to a particular waterway.
    It is to line up the Clean Water Act requirements related 
to TMDLs, where you would say, what are the impairments of your 
waterways, and how can you make sure to improve them achieve 
the water quality standards to protect public health and 
aquatic life.
    So what we do is we integrate across all of those things to 
put in place, in a very customized way--say, something that 
would make sense for Ocean County, Stafford Township, relative 
to in northwestern part of the state that is more mountainous 
versus the coastal Cape May peninsula that has some significant 
water supply kinds of issues.
    We think some of the things we have been able to do with 
coastal zone money is to be able to fund, using sort of 
information resources, things like a very sophisticated GIS 
system, to do these land-use/land-cover kinds of analyses.
    We have funded our habitat characterization efforts. Most 
people think when protecting endangered and threatened species, 
you are talking about protecting a certain species on a certain 
site. We have been able to take that in what we call a 
landscape kind of analysis, where we are able to look at 
protecting multiple endangered and threatened species, whether 
it be plants or wildlife, and then target our acquisition 
dollars so that we have a habitat protection outcome or a water 
quality outcome.
    The Chairman just talked about the riparian buffer concept. 
We are very aggressively right now trying to buy up the land 
that is immediately adjacent to our waterways, specifically 
focusing on headwaters of streams and things like that.
    So I think from our perspective, in terms of the 6217, we 
are one of the states that has this conditional approval. I 
think we are, right now, just held up based a storm-water 
management regulation. It is one of those kinds of things that 
we have yet to adopt.
    Mr. Saxton. Would you take just a minute to describe the 
acquisition/development right retirement programs that were 
initiated under Governor Whitman's administration, to save--
what was it? A million acres, I believe?
    Mr. Tudor. Like I say, we very much have a results-based 
management conceptual framework. We want to set quantitative 
milestones of where we want to be 5 years down the road, 10 
years down the road.
    And in the case of land acquisition, open space, we said we 
wanted to buy a million acres in New Jersey. Well, New Jersey 
is only 5 million acres total, so we wanted to buy a fifth of 
state. In order to do that, there was a set-aside of a portion 
of the sales tax in New Jersey, so that we would have $98 
million a year to buy land, which then could be used as a basis 
for further bonding, so that you get approximately $200 million 
a year.
    That money is split three different ways. One is to do 
direct state acquisition. One is, 40 percent is farmland 
preservation. And then there is pass-through money for local 
governments to buy land.
    And Congressman Saxton says that he was very concerned 
about the rate of sprawl in our state. And basically, we are in 
like a little bit of a race right now to buy those pieces of 
land that are critical in some way or another so that we can 
have the resource values that we need to protect into the 
future.
    So with that program over the past couple of years, we have 
acquired, I think we are up to 185,000 acres over a couple of 
years. It is focusing a lot of attention on it right now.
    Mr. Saxton. Thank you. I just wanted to make sure that, 
after I was fairly strong in my first round of questions, that 
you had an opportunity to talk about the great things that you 
are really doing.
    [Laughter.]
    Mr. Tudor. Okay. All right.
    Mr. Saxton. Thank you.
    Ms. Davidson. Mr. Chairman?
    Mr. Gilchrest. Thank you, Mr. Saxton.
    Ms. Davidson. Mr. Chairman, your second question was about 
performance indicators?
    Mr. Gilchrest. Yes.
    Ms. Davidson. And we would concur with the desire to not 
only strengthen but hold us to the accountability of well-
designed performance measures for not only the national program 
but for the system of state programs that we work with.
    I think they need to be outcome-based rather quantity-
based. Originally, we tended to focus on things like how many 
coastal zone programs did we have. And I think the bottom-line 
are the issues that you and your colleagues are raising:
    What have we done about wetlands? What have we done about 
water quality? What have we done about the rate of growth and 
covering the land with impervious surfaces?
    I think those are the kinds of performance indicators that 
both the national framework and the state programs need to be 
held to. And we are looking to the lead of states like New 
Jersey and Florida who have already done this at a state level, 
and hope to incorporate this at the national level as well.
    Mr. Gilchrest. Is this the type of thing that the Heinz 
Center is evaluating?
    Ms. Davidson. Yes, sir. That is the intent.
    Mr. Gilchrest. Do you need a legislative fix to incorporate 
those indicators into the program? Or can it be done from NOAA?
    Ms. Davidson. I believe the bill as proposed does provide a 
framework for that, sir. And I think that we can, working with 
your staff, fill that out to make it happen. I think it is a 
very good concept.
    And your last question was about acres that were developed 
versus undeveloped, and I will have to get back to you on that 
specific information, as well as the one you asked earlier with 
regard to wetlands.
    [NOAA's response follows:]

    Attachment 1 is a table and chart based on 1990 data that compares 
developed versus nondeveloped land in coastal counties. The table also 
provide information comparing the amount of land developed in coastal 
counties of each state versus the amount of land developed in the 
noncoastal counties in those same states. In 83% of the states for 
which we have data, the amount of developed land in coastal counties is 
greater than that of non-coastal counties. (Please note that those 
areas classified as nondeveloped areas are not necessarily protected 
from future development). Over the last 10 years, the amount of 
developed land has likely increased substantially, and the trend in 
greater development along the coast has continued.
    Attachment 2 is the amount of Federal land in coastal counties 
which is protected from development through a variety of authorities. 
This information does not include those lands that are protected from 
development using state, county, or local authorities and mechanisms. 
NOAA is presently working with states to obtain this data in a 
consistent and comparable manner. Again, through the proposed coastal 
indicators and state of the coast report, we hope to work with our 
local, state, and federal partners to develop a better way to track 
some of this information.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2578.007
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2578.008
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2578.009
                                 
    Mr. Gilchrest. Thank you very much.
    Mr. Underwood?
    Mr. Underwood. Thank you very much, Mr. Chairman.
    Ms. Davidson, I know that it is one of the requirements of 
the Coastal Zone Management Act state efforts to guarantee 
public access. As we talk about trying to protect the coastal 
areas, one of the things, obviously, is that we want to make 
sure that the public indeed has access to the areas. And some 
of the developments which are occurring as outlined here in 
this township may be impeding that, covering up previous access 
routes.
    Can you generally characterize what is the state of the 
public access to coastal areas?
    Ms. Davidson. That concern was one of the reasons for the 
original enactment of CZMA, that concern, and it continues 
unabated.
    A number of states have done some really innovative things, 
including identifying areas that have been used historically by 
folks and having them dedicated as public access.
    In addition, a number of states have actually also 
experienced lawsuits associated with this issue as well that 
have made it a challenge.
    We could put together, if you would like, sir, a complete 
accounting of what the states have done with regard to this, on 
a state-by-state basis.
    Mr. Underwood. I really would appreciate that, because that 
is one those very tough issues as well, trying to balance what 
some people perceive to be their private property rights versus 
public access.
    I also just want to take the time to thank you for your own 
efforts for CZMA. I think they are highly regarded, and they 
are well-respected. And I just wanted a chance to note that.
    Ms. Davidson. Thank you.
    (NOAA's response follows:]

    Attachment 3 is the report on state enhancement grant assessments 
and strategies on public access which NOAA worked with the state 
coastal management programs to put together in 1999. The report 
provides state specific summaries of coastal access activities, the 
strategies states have developed to address coastal access, obstacles 
and needs of the state programs, and finally tables depicting type and 
distribution of state public access projects. In the latest round of 
section 309 assessments, completed in March 2001, 20 coastal states, 
including Guam and Maryland, identify public access as either a high or 
medium priority issue.
                                 ______
                                 
    NOTE: The report, ``State Enhancement Grant Assessments and 
Strategies-Public Access'' from NOAA/NOS/Office of Ocean and 
Coastal Resource Management/Coastal Programs Division has been 
retained in the Committee's official files.

    Mr. Underwood. Thank you.
    Mr. Gilchrest. Thank you, Mr. Underwood.
    This definitely will be the last question. All of you have 
been very patient. Of course, we have another panel.
    Ms. Lawrence, what I would like to do is just read a part 
of the American Farm Bureau Federation's statement, and ask you 
to comment on it.
    I quote, ``We believe that the reauthorization of CZMA 
should affirmatively support a preference for voluntary 
incentive-based programs for water quality protection for 
agriculture. The cost of planning and regulatory water quality 
actions for nonpoint sources will impact agriculture in the 
coastal zone. The cost of permits, plans, potential production 
restrictions will be a burden that will put the affected farms 
at a competitive disadvantage within their industry.''
    Now, has Maryland worked through that? We don't want to 
burden the farmers anymore, because then they will leave the 
land and you get Wal-Mart in there, so we want to keep the land 
where it is, unless we can change Wal-Mart into a proponent of 
agriculture.
    Have you seen any of those problems of restrictions and 
high costs of permits and all of the rest of that with dealing 
with your agriculture friends to put in buffers and deal with 
the issue of nonpoint source pollution?
    Ms. Lawrence. I think it is the point that Ms. Davidson 
made a little bit ago about sometimes you don't get enough bang 
for your buck when you say it needs to be regulatory or 
enforcement-based programs.
    I am working the other side of the issue these days. As you 
know, we have a regulatory program for nutrient management. And 
sometimes the cost and the check and balancing for regulatory 
programs is burdensome.
    And I think the farm community is especially reluctant to 
be put in that arena with a power plant or somebody else whose 
business is scrutinized in that way.
    So I think that there are times when you have issues that 
you need to address with some sort of regulatory action. But to 
blanket a whole industry and say everyone must do these things 
sometimes can be a concern because one size does not fit all, 
and you try to make everybody fit into a box.
    And I think that that is a weakness of our nutrient 
management program. It is very hard to make over 14,000 people 
who have very individual operations fit through that same box 
and say you all must do these things.
    So I would say that there is room for both of them and they 
should be complementary. But I don't think to say that 
regulation is the only method is good.
    One point that I would make about the Farm Bureau comments 
is, I think their concern always is too much regulation, but 
the other overlying factor is that if you just pull out those 
farmers in the coastal zone areas of this country and say, 
``You have to meet this level of management,'' and everybody 
else doesn't have to, then it does put them at somewhat at a 
disadvantage in some ways.
    That is not to advocate regulating everybody in the 
country, but it makes it a division in terms of what measures 
of performance you expect from one group versus another group.
    Mr. Gilchrest. I see. Thank you.
    Ms. Lawrence. So I think that is a bigger issue, really, 
than regulation or not regulation.
    Mr. Gilchrest. On a side note, some time I would like to 
talk to you about nutrient management plans in Delaware versus 
Maryland.
    Ms. Lawrence. Okay.
    Mr. Gilchrest. And the issue of co-permitting.
    Ms. Lawrence. Favorite topics.
    Mr. Gilchrest. Yes.
    I want to thank all of you for coming. It has been very 
helpful to us with this dynamic, sophisticated panel. Thank you 
very much.
    Our third panel will be Dr. Richard Burroughs, Chairman, 
Department of Marine Affairs, University of Rhode Island; Mr. 
Craig Wyman, Liskow and Lewis; Ms. Eileen Claussen, President 
and Chair of the Board, Strategies for the Global Environment; 
and Ms. Jacqueline Savitz, Executive Director, Coast Alliance.
    Thank you all for coming.
    Dr. Richard Burroughs, we will begin with you, sir.

STATEMENT OF RICHARD BURROUGHS, CHAIRMAN, DEPARTMENT OF MARINE 
              AFFAIRS, UNIVERSITY OF RHODE ISLAND

    Mr. Burroughs. Yes, my name is Rick Burroughs. I am a 
professor at the University of Rhode Island.
    It is a pleasure to be here to support the reauthorization 
of the Coastal Zone Management Act. What I would like to do is 
briefly explore three areas: first, nutrient pollution control; 
secondly, evaluation; and third, data.
    There has been a substantial increase in our scientific 
understanding with respect to nutrients since this Act was last 
authorized. In particular, the Pew Oceans Commission marine 
pollution report has summarized nutrient data from a variety of 
estuaries around the country.
    And I am pleased, I should say, to be joined by Eileen 
Claussen, who serves on the commission itself.
    The work that I did with Don Boesch of Maryland was related 
to the marine pollution report.
    In that report, we summarized data that are currently 
available, were able to identify nitrogen and phosphorous and 
limiting nutrients in systems, and were able to identify where 
these nutrients come from. If we look specifically at nitrogen, 
we can see that there are atmospheric, agricultural, point, and 
urban sources.
    And we know certainly in Chesapeake Bay and other estuaries 
that nutrients in excess amounts cause significant 
environmental problems.
    Now, the question, I think, before the group in terms of 
this reauthorization is: How do we go about connecting the new 
science to coastal protection? And I think the part of the Act 
that relates to the coastal community grants offers an 
opportunity to do so.
    Let me explain. Using the scientific data that we now have, 
we can pick coastal regions with known nutrient problems. In 
fact, there is a chart in the report that does that. We can 
also, in many instances, begin to estimate the sources of 
pollution. And if we can estimate these sources, then we can 
look at specific responses and, in fact, target funds to local 
coastal communities that are willing to control important 
sources of nitrogen.
    So I would certainly encourage, as you go forward with the 
legislation, looking at the potential for targeting some of 
your activity. I know this doesn't answer the percentage 
question that you raised earlier, but I think there is a 
possibility of targeting your activities toward those coastal 
environments that have nutrient problems which could be 
controlled through the initiatives under the act.
    My second topic is the question of evaluation. I would 
second the discussion that I think Margaret Davidson and others 
have introduced, that we need to look at evaluation in terms of 
program outcomes, not program outputs. So we are not looking 
just for process--how many plans, how many permits--but rather, 
are there changes in the environment that we can reasonably 
attribute to actions taken under the law.
    Now, how might we do this? I think one thing that would be 
helpful is to identify in the legislation the use of these 
evaluations. Who is going to use them? How are they going to 
use them? When are they going to use them?
    Certainly, that is around the edge of this. It is very 
clear that the states could use this information. Certainly 
this Committee would use the information. The parent agency, 
Department of Commerce, could use the information.
    I think those uses of information and identifying them 
early on in the process will make it easy to focus on exactly 
what might be done next.
    I would say that focusing on program outcomes is important 
and would be very pleased to hear the results of the Heinz 
study on particular measures related to that.
    And I would say the Coastal States Organization, from the 
perspective of the coastal states, that the states themselves 
be allowed to identify measures that they believe are important 
for their own programs. I think that would be very useful.
    Finally, in the reporting of results, you have laid out in 
the legislation a number of program outcomes. It might be 
useful to report the results of the evaluation by specific 
outcomes, listed in the law.
    Finally, in the area of data, many have mentioned that data 
are a limiting commodity. And some of the questions earlier 
today indicated that there are gaps that we need to fill. It is 
pretty clear that the funding for the projects that might be 
undertaken under the reauthorized law could have as a 
contingency the collection of data that would be used for 
evaluation. The results of the 24-month report on measures for 
performance evaluation, might be utilized in contracting 
individual projects.
    Thank you for the opportunity to speak on behalf of the 
protection of our nation's coasts.
    [The prepared statement of Mr. Burroughs follows:]

  Statement of Richard Burroughs, Professor and Chair, Department of 
               Marine Affairs, University of Rhode Island

    Mr. Chairman and Subcommittee members, I am Richard Burroughs, a 
marine policy professor from the University of Rhode Island. In the 
past, I have written about policy and management related to coastal and 
marine resources. As you know, the Coastal Zone Management Act that you 
are considering reauthorizing today is one of the central elements of 
this universe. As a student, I was pleased to participate in a 
scientific conference on critical problems of the coastal zone that 
predated the original passage of this legislation in 1972. A few years 
ago through the Urban Institute, I contributed to an evaluation of a 
companion coastal program, and, most recently, I wrote sections of the 
Pew Oceans Commission report on Marine Pollution.
Nutrient Pollution of Coastal Waters
    The Pew Oceans Commission report on marine pollution devoted 
considerable attention to nutrients such as nitrogen and phosphorous 
which, in excess amounts, cause problems for coastal waters. The 
sequence, well known to people in this room, is that plentiful 
nutrients trigger bursts in primary production and other shifts in 
ecosystem health which result in impacts from harmful algal blooms to 
low oxygen in bottom waters. The former can affect human health through 
Pfiesteria or other means and the latter disrupts ecosystems and 
organisms that people depend upon for recreation or commercial harvest.
    A primary contribution of the Pew report was to summarize the 
literature concerning nutrients and their impacts. Most commonly the 
culprit is nitrogen. Potential sources of nitrogen to coastal waters 
include urban runoff, agriculture, and the atmosphere which are all 
diffuse nonpoint sources. The final group, the point sources, consist 
of sewage treatment plants and other pipe discharges. Identifying 
estimated sources of nitrogen for individual estuaries allows 
government to target those causes for which the greatest chance for 
improvement exists. For example, Narragansett Bay in Rhode Island 
appears to be dominated by point sources. In contrast, agriculture is 
the most important source of nitrogen to Chesapeake Bay, and 
atmospheric sources dominate in Barnegat Bay, New Jersey.
    Knowing the sources of nitrogen being added to coastal waters has a 
vast and important impact on governmental program design. This 
reauthorization could use that information to good effect. Directing 
nutrient reduction activities to those geographic areas where 
legislative authorities allow control of a known source would be most 
successful. Targeting the largest and most governable sources makes 
sense, much in the way that only certain communities may participate in 
urban development programs. Thus, because point sources and atmospheric 
sources are covered by other legislation, the best use of coastal zone 
management authorities may be directed to agriculture and diffuse urban 
runoff that affect coastal areas.
    Provisions of this type are compatible with the coastal community 
conservation grant sections of Mr. Saxton's H.R. 897 and your own 
discussion draft. By matching a current scientific understanding of 
cause with additional legislative direction in the coastal community 
grants, more environmentally effective management will result.
Evaluation of State Coastal Zone Management Program Outcomes
    Now I'll consider evaluation. You noted that evaluation of the 
implementation of coastal zone management plans in the states requires 
new attention. Both section 111 of the discussion draft and section 108 
of H.R. 897 identify the need for measurable outcome indicators for 
each of the management objectives noted in the law as it is today.
    Those current objectives include expediting the process of 
governmental decisionmaking, coordinating with Federal agencies and 
local government as well as the public, assisting in planning for 
living marine resources and for land subsidence as well as sea level 
rise. These program outputs must, of necessity, precede specific 
actions. However, they fall into the category of plans as opposed to 
tangible actions to affect environmental quality. Evaluation of plans 
and processes, while desirable, is not as salient as evaluation of 
actions.
    Thus, focusing on other objectives embodied in the law that are 
more action oriented will produce greater progress. The latter 
constitute program outcomes. They include protection of natural 
resources and minimization of the loss of life and property in areas 
vulnerable to hazards. Furthermore, state programs are to give priority 
to public access and to respect the needs of coastal-dependent uses 
such as ports, recreation, and energy developments. Finally, assistance 
for redevelopment of urban waterfronts and ports as well as coastal 
development to protect the quality of waters and resources (wetlands, 
beaches, reefs, fish and wildlife) are also specifically identified. 
These outcome oriented management goals are clearly the most important 
but complex.
    The complexity arises because at times the objectives may be viewed 
as incompatible. For example harmonizing coastal-dependent industrial 
facilities with protection of natural resources and water quality may 
be difficult because individual interests demand ever larger shares of 
a limited coastal zone.
    A major analytical opportunity to address this apparent 
incompatibility would be to assess the success in reaching these 
separate objectives as described in detail below. Next the effect of 
individual objective achievement in multiple states could be analyzed 
in terms of impacts on the coast. Finally, as a part of the next 
reauthorization, the Congress could reflect upon the impact of the 
program on the nation's coast and adjust objectives, if needed.
    Previous evaluations include state specific section 312 reviews and 
national CZM effectiveness studies. Both have struggled with the 
challenge of establishing appropriate analytical protocols and 
acquiring data. The structure proposed in the discussion draft and bill 
significantly advances the strategy to accomplish better assessment. I 
wish to add some additional details concerning development of measures 
and use of results.
    First, the Congress through this reauthorization can anticipate who 
will use the results of the evaluation and how this will be done. An 
important context for this is the Government Performance and Results 
Act. In specific, performance by outcome management objective will be 
determined on a state by state basis using the mutually agreed upon 
performance measures. Thus, the state agencies will both define and 
utilize the results of the evaluation.
    Second, a detailed process for the derivation of performance 
measures is necessary. Each state CZM agency will nominate separate 
performance indicators for management objectives related to program 
outputs. A parallel but separate research exercise will result in the 
independent development of output indicators. Then the composite list 
with explanations will be assembled by NOAA and released for state and 
public review. These results are consistent with the 24 month deadline 
in the proposed legislation.
    Third, the national composite picture will be established from an 
aggregation of state performance measures by outcome objective. Each of 
the output objectives would have state specific performance reported. 
NOAA would respond to the Congress at the 48 month deadline with both 
state performance and a national aggregation of results by objective.
    Finally, achievement of the above would lay the groundwork for two 
important changes. Once the performance measures by objective are 
identified, program implementation could go forward with the 
requirement that funding be contingent upon collection and reporting of 
performance data. Another change is that prior to the next 
reauthorization and upon completion of the first iteration of the 
performance evaluation system, the Congress could conduct a goal/
performance review. Informed program and/or goal adjustments will flow 
from the new performance information.
    Thank you for the opportunity to express my views on this important 
legislation for our coasts and the nation.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Dr. Burroughs.
    Mr. Wyman?

           STATEMENT OF CRAIG WYMAN, LISKOW AND LEWIS

    Mr. Wyman. Good afternoon. We appreciate this invitation to 
appear at today's hearing. I am here on behalf of the API, 
NOIA, U.S. Oil and Gas Association, the IPAA, and the 
International Association of Drilling Contractors.
    Listening to the gentleman just before me and the second 
panel today, I was struck by the hundreds of activities that 
are addressed by the CZMA and its programs that are not 
addressed in my testimony today. I have really been asked to 
address a very narrow section of the act, a very important 
section of the act.
    More specifically, I am here to present industry's concern 
regarding certain problems that involve CZMA consistency 
provisions as they relate to OCS activity.
    We are gravely concerned that these problems will not only 
continue to harm the oil and gas industry but might actually 
threaten the viability of the OCS leasing program.
    The OCS Lands Act and the CZMA, in harmony with NEPA and 
other national environmental laws, direct the environmentally 
compatible development of Federal OCS oil and gas.
    The oil and gas found on the Federal OCS are the property 
of all American citizens. The revenues collected from OCS 
leasing and production are deposited in the U.S. Treasury.
    We ask Congress to reflect carefully on the CZMA's impact 
on our national energy policy since damage to the OCS leasing 
program would have serious adverse impacts on the nation's 
already strained ability to meet increasing fuel supply needs.
    By the end of 2000, Federal OCS accounted for fully 26 
percent of domestic natural gas production and 26 percent of 
domestic oil production. At the end of last year, over 83 
percent of all oil royalties paid on Federal and Indian leased 
lands and over 74 percent of natural gas royalties came from 
the OCS.
    The figures are expected to continue to rise.
    We have included in our written testimony certain suggested 
amendments to the CZMA consistency review provisions for OCS 
activities that we believe would eliminate uncertainties and 
delays under the current CZMA requirements.
    These revisions have four aims. And I believe, from what I 
heard earlier, some of these aims may have been misunderstood. 
To clarify, these aims include a limitation on the territorial 
scope of a state's consistency review of private permits; a 
provision to allow an OCS plan to contain a single consistency 
certification and determination for oil-related activities; a 
provision to specify that the Secretary of the Interior would 
determine information requirements for consistency 
certifications and would be the decisionmaker for override 
disputes involving OCS activities; and fourth, a provision to 
ensure timely decisions in override appeals by imposing a 
specific decision deadline.
    In our written testimony, we provide a fuller background of 
the CZMA's relationship with the OCS leasing program and the 
problems that have prompted our suggested amendments. We will 
briefly do so here.
    Under both the OCS Lands Act and the CZMA, no Federal 
agency may issue a permit to conduct any proposed OCS activity 
unless an affected coastal state concurs with the lessee's 
consistency certification or unless the Secretary of Commerce 
overrides the state's objection.
    In recent years, a number of states have used their 
consistency determination authority to attempt to stifle 
offshore development. Moreover, certain CZMA objections have 
been upheld by the Secretary of Commerce on dubious grounds.
    Even in those instances where the Secretary has overridden 
the state's objection, the appellate process has been hampered 
by inordinate delays. For example, during the 1990's, appeals 
involving OCS activities took from 16 months to 4 years from 
the state's initial objection to the final override decision.
    If the direction of the CZMA consistency process has taken 
with regard to OCS activities is allowed to stand, we believe 
that OCS lessees, as well as bidders at future OCS lease sales, 
will continue to face stark uncertainties regarding their 
planning efforts. The OCS leasing program must ensure that 
lessees that comply with their lease terms' operational 
requirements and the nation's environmental laws have a fair 
chance at a return on the investments.
    The current CZMA consistency process has worked to thwart 
that end.
    We again thank the Subcommittee for this opportunity to 
appear.
    Congress made an explicit finding in the OCS Lands Act 
amendments enacted over 22 years ago that the development of 
OCS resources is vital to the nation's energy future. The CZMA 
also provides for priority consideration to be given to the 
siting of major energy facilities in coastal areas.
    I have attempted to focus on several problems in the CZMA's 
consistency process that have hindered these national 
objectives. The suggested amendments included in our written 
testimony would work to distinctly improve the efficiency, the 
certainty, and the fundamental fairness of the consistency 
process.
    Thank you again.
    [The prepared statement of Mr. Wyman follows:]

     Statement of Craig Wyman, Representing The American Petroleum 
 Institute; The National Ocean Industries Association; The Independent 
    Petroleum Association of America; The United States Oil and Gas 
 Association; and the International Association of Drilling Contractors

    We appreciate the opportunity to appear at today's hearing on the 
proposed reauthorization of the Coastal Zone Management Act (``CZMA''). 
I am here to represent several oil and gas trade associations including 
the American Petroleum Institute (``API''), the National Ocean 
Industries Association (``NOIA''), the U.S. Oil and Gas Association 
(``USOGA''), the Independent Petroleum Association of America 
(``IPAA''), and the International Association of Drilling Contractors 
(``IADC''). These five national trade associations represent hundreds 
of companies, both majors and independents, engaged in all sectors of 
the U.S. oil and natural gas industry, including exploration, 
production, refining, distribution, marketing, equipment manufacture 
and supply, and other diverse offshore support services. We believe 
that a critical section of the CZMA regulatory program has run adrift 
of Congress's legislative intentions and, if left unchecked, could 
permanently harm this nation's offshore leasing program under the 
integrally-related Outer Continental Shelf Lands Act (``OCSLA''). The 
member companies ask Congress to reflect carefully on the CZMA 
reauthorization's impact on our national energy policy.
    In the OCSLA, Congress has declared that the OCS is a ``vital 
national resource reserve . . . which should be made available for 
expeditious and orderly development . . . .'' 43 U.S.C. Sec. 1332(3) 
(emphasis added). The CZMA in turn at 16 U.S.C. Sec. 1455(d)(8) clearly 
provides that each approved state CZMA program must contain ``adequate 
consideration of the national interest involved in planning for, and 
managing the coastal zone, including the siting of [energy] facilities 
. . .'' (emphasis added). In an effort to regain and restore these 
congressional directives, we respectfully submit today's testimony in 
support of much-needed revisions to the CZMA's consistency review 
process.
    These associations' member companies hold the vast majority of the 
oil and gas leases on the OCS, and their members have bid tens of 
billions of dollars at OCS lease sales. In our view, the CZMA 
consistency certification program as applied to OCS activity over 
recent years has seriously undermined the ongoing viability of OCS 
lease operations. The import of the program's flawed administration is 
the alteration of the economic risk structure of the OCSLA crafted by 
Congress after decades of experience and study. Potential bidders in 
OCS lease sales have valid, serious questions whether their lease 
investments will be rendered worthless as a result of subsequent CZMA 
consistency certification disputes. We are gravely concerned that these 
problems will not only continue to harm the oil and gas exploration and 
producing industry, but might actually threaten the viability of the 
entire OCS leasing program. The damage to the OCS leasing program--the 
source of 26% of both domestic natural gas production and domestic oil 
production--could be severe and could have serious adverse impacts on 
the nation's already strained ability to meet increasing energy and 
fuel supply needs.
    The revisions that we suggest to the CZMA consistency review 
provisions for OCS activities would improve the effectiveness of the 
consistency process and eliminate uncertainty and delays under the 
current CZMA requirements. These revisions would:
    <bullet> LClarify the territorial scope of a state's consistency 
review of private permits;
    <bullet> LAllow a single consistency certification determination 
for all activities;
    <bullet> LSpecify that only the Secretary of the Interior would 
determine information requirements for consistency certification and 
legal criterion for overrides;
    <bullet> LEnsure timely decisions in override appeals by imposing a 
specific deadline.
The CZMA Consistency Process
    The CZMA broadly covers both coordination of permitting activity 
among Federal and state agencies and the Federal funding of state 
programs for the management of coastal areas. The CZMA's 
``consistency'' provisions, which are intended to accomplish this 
Federal/state coordination, are the focus of the present inquiry. The 
consistency process, in turn, is broadly divided into two types of 
consistency ``determinations,'' i.e., those made directly by Federal 
agencies when considering the effects of their own actions on a state's 
coastal zone, and those required for applicants for Federal licenses 
and permits having effects on a state's coastal zone. Today's testimony 
is directed mainly on the impacts of the proposed regulations on the 
private permitting processes. However, increased difficulties by 
Federal agencies in conducting their consistency procedures can 
generate adverse impacts on the private sector as well.
CZMA's Relationship with the OCS Leasing Program
    OCS mineral leases are issued by the MMS under the authority of the 
Outer Continental Shelf Lands Act, 43 U.S.C. Sec. 1331 et seq. OCSLA 
leases require lessees to pay up-front cash bonuses, followed by 
periodic lease rental payments, for the tracts they acquire. 43 U.S.C. 
Sec. 1337. Under the OCSLA statutory scheme, an OCS lessee may 
thereafter prepare a Plan of Exploration (``POE'') as part of the 
``exploration'' stage of lease activity. <SUP>1</SUP> If recoverable 
resources are found, the lessee may then submit to the MMS a Plan of 
Development and Production, or ``POD,'' to continue on to the 
``production'' stage. <SUP>2</SUP> In the course of filing either plan, 
the OCSLA further stipulates that the OCS lessee will certify that its 
activities will be consistent with the coastal zone management plan of 
any affected state that has an approved CZMA program. See 43 U.S.C. 
Sec. 1340(c)(2) (applying CZMA certification requirement to exploration 
plans); 43 U.S.C. Sec. 1351(h) (applying the requirement to production 
plans).
---------------------------------------------------------------------------
    \1\ As described in a leading treatise on Federal oil and gas law, 
the POE will include: a description of the type and sequence of 
exploratory activities; a description of drilling vessels, platforms, 
and other structures to be used; the types of geophysical equipment 
that will be used; the location of each exploratory well planned; an 
oil spill contingency plan; an air-quality analysis; and other relevant 
geological and geophysical information. . . . If drilling affects a 
state with a Federally-approved coastal zone management program, an 
Environmental Report (Exploration) must also be submitted. . . . 
Patrick H. Martin, Outer Continental Shelf Leases and Operating 
Regulations, in 2 Law of Federal Oil and Gas Leases, 25-1, 25-36 (Rocky 
Mountain Mineral Law Foundation 1999).
    \2\ The POD ``includes information similar to that in the 
exploration plan: the specific work to be performed; a description of 
drilling vessels, platforms, and pipelines together with safety and 
pollution control features and labor, material, and energy 
requirements; well locations; current interpretations of all relevant 
geological and geophysical data; environmental safeguards and safety 
standards; and a time schedule of the activities to be undertaken.'' 
See Martin, supra at 25-38.
---------------------------------------------------------------------------
    Under the CZMA consistency requirements, a Federal agency is 
prohibited from granting any further permits to conduct activities 
under a POE or DOP unless the state has concurred that such activities 
are consistent with its approved CZMA program, or unless the Secretary 
of Commerce ``overrides'' the state's objection. In recent years a 
number of states, including North Carolina, California and Florida have 
used their consistency determination authority to attempt to stifle oil 
and gas leasing, exploration and development. Moreover, certain state 
CZMA objections have been upheld by the Secretary of Commerce on 
dubious grounds, meaning that further OCS development was thwarted. 
Even in those instances where the Secretary has overridden the state's 
objection, the appellate process has been hampered by inordinate 
delays. For example, during the 1990s, appeals involving OCS activity 
have taken from 16 months to 4 years from the state's initial objection 
to the final override decision.
    This testimony focuses on two themes. First, the testimony 
underscores the importance of the OCS leasing program to this nation. 
Next, it discusses those areas of the CZMA consistency process which 
could be improved through amendments to the CZMA as part of the pending 
reauthorization legislation.
The OCSLA Leasing Program is Vital to This Nation
    The integrity of the leasing program established by the OCSLA, 43 
U.S.C. Sec. 1331 et seq., is vital to this nation. The OCS program 
supplies an essential share of domestic energy production in addition 
to billions of dollars of non-tax governmental revenues.
    By the end of 1999, nearly twelve billion barrels of oil and over 
130 trillion cubic feet of natural gas have been produced under the OCS 
leasing program. <SUP>3</SUP> By the end of 2000, the OCS accounted for 
fully 26% of domestic natural gas production and 26% of domestic oil 
production. <SUP>4</SUP> At the end of 1999, over 8,100 oil and gas 
leases issued under the OCSLA existed on the nation's Outer Continental 
Shelf. <SUP>5</SUP> Additional leases have been issued by the MMS, and 
lease sales will continue into the foreseeable future. Over the last 
eleven and one-half years alone, OCS lessees have paid the Federal 
Government over $6 billion in lease bonuses. <SUP>6</SUP> Indeed, the 
MMS collected over $1.4 billion in lease bonuses in 1997, $1.3 billion 
in 1998, and $.3 billion in 1999. <SUP>7</SUP> As of the end of 2000, 
over 83% of all oil royalties paid on Federal and Indian leased lands, 
and over 74% of gas royalties, came from the OCS. <SUP>8</SUP>
---------------------------------------------------------------------------
    \3\ Statistical Highlights Fiscal Year 1997, U.S. Department of the 
Interior, Minerals Management Service (1998); MMS Offshore Stats, Year-
end 1999, U.S. Department of the Interior, Minerals Management Service.
    \4\ http://www.mms.gov/stats.ocsproduction.htm.
    \5\ MMS Offshore Stats, Year-end 1999, U.S. Department of the 
Interior, Minerals Management Service.
    \6\ U.S. Bureau of Census, Statistical Abstract of the United 
States: 2000 (120th Edition); Washington, D.C. (2000); MMS Revenue 
Collections, January-December 1998, U.S. Department of the Interior, 
Minerals Management Service; MMS Revenue Collections, January-December 
1999, U.S. Department of the Interior, Minerals Management Service.
    \7\ Statistical Abstract of the United States: 2000, supra n. 6. 
Bonuses totaled $440 million in 1999 and $249 million in 2000. Mineral 
Revenue Collections, January-December 1999, 2000.
    \8\ Mineral Revenue Collections, supra n.7.
---------------------------------------------------------------------------
    If the direction the CZMA consistency process has taken with regard 
to OCS activity is allowed to stand, all OCS lessees, as well as 
bidders at future OCS lease sales, will face stark uncertainties 
regarding the OCSLA statutory scheme. The OCS leasing program should 
work to ensure that OCS lessees that comply with their lease terms and 
operational requirements have a fair chance at a return on their lease 
investment. Instead, the CZMA consistency program has allowed states to 
unilaterally use the process as a tool in their philosophical 
opposition to offshore drilling. As observed by the Court of Federal 
Claims in the context of an analogous CZMA consistency dispute 
involving the North Carolina Manteo project, ``common sense suggests 
that no sophisticated oil and gas company with many years of experience 
in drilling for oil in offshore leased tracts would knowingly agree to 
pay the huge, up-front considerations . . . for such tenuous and 
unilaterally interruptible drilling rights. <SUP>9</SUP>
---------------------------------------------------------------------------
    \9\ Conoco Inc. v. United States, 35 Fed. Cl. 309, 324 (Fed. Cl. 
1996).
---------------------------------------------------------------------------
    We are also concerned that the Department of Commerce's implicit 
endorsement, in recent override decisions, of certain state CZMA 
objections based on a purported ``inadequacy of information,'' will 
only embolden other coastal states that categorically oppose offshore 
development to misuse the CZMA and OCSLA processes. Accordingly, the 
industry's incentive to bid for OCS leases, especially in new, frontier 
OCS areas, will be drastically undercut.
Possible CZMA Legislative Proposals to Address Industry Concerns
    This section of today's testimony addresses possible legislative 
changes to the CZMA to address concerns regarding the impact of the 
CZMA consistency review process on the future orderly exploration and 
development of the Federal OCS. As discussed above, certain coastal 
states in recent years have become increasingly aggressive in using the 
consistency review process to obstruct offshore energy development. A 
combination of such state action and Congressional intervention led to 
the June 2000 U.S. Supreme Court decision in Marathon Oil et al v. 
United States, 530 U.S. 604, 120 U.S. 2423, in which the court ordered 
the Federal Government to return over $158 million in bonus monies paid 
for leases in the Manteo area offshore the state of North Carolina. 
<SUP>10</SUP> The Manteo experience, along with others, shows the need 
to improve CZMA consistency review procedure to avoid such process 
breakdowns in the future. Towards this end, our member companies have 
identified a focused and limited collection of critical CZMA provisions 
that could be amended to promote a more rationally based national 
program.
---------------------------------------------------------------------------
    \10\ In that case, the Supreme Court determined that restitution of 
the bonus monies was justified after the state's CZMA authorities, as 
well as later Federal legislation, had imposed additional information 
requirements for a POE that had otherwise been described by MMS 
officials as ``the most comprehensive body of environmental information 
ever assembled on a proposed well in the history of the U.S. offshore 
drilling program.
---------------------------------------------------------------------------
    A. Amendment of the definition of ``enforceable policy'' in 16 
U.S.C. Sec. 1453(6a)
    In order to effectuate congressional intent, we recommend that the 
definition of ``enforceable policy'' be changed to limit the expansion 
of a state's CZMA consistency review over activities outside of its own 
geographic boundaries. The legislative history of the 1990 CZMA 
amendments <SUP>11</SUP> is clear that Congress did not intend to allow 
the expansion of the territorial scope of state consistency review of 
Federal licenses and permits. Nevertheless, a number of states, as well 
as Commerce in its recent December 8, 2000 CZMA consistency procedure 
rulemaking, <SUP>12</SUP> have taken the position that states may 
review activities and block permits issued for activities taking place 
in other states.
---------------------------------------------------------------------------
    \11\ Coastal Zone Reauthorization Amendments of 1990, Pub. L. No. 
101-508 (the ``1990 Amendments''). For OCS Plans, however, we 
acknowledge OCS lessees are potentially subject to consistency 
certifications for coastal zone impacts occurring in one or more 
``affected states.'' The member companies do not intend the proposed 
amendment to the definition of ``enforceable policy'' to rescind the 
special Congressional consent to affected states' consistency review of 
OCS Plans under 16 U.S.C. Sec. 1456(c)(3)(B).
    \12\ 65 Fed. Reg. 77124 (December 8, 2000) (the ``CZMA 
rulemaking'').
---------------------------------------------------------------------------
    In the 1990 CZMA amendments, Congress removed the word ``directly'' 
before ``affecting the coastal zone'' in the statute's provisions for 
Federal agency consistency certification for Federal agency activities. 
The intent of this change was to ensure that Federal agency activities 
both within or outside the coastal zone were subject to CZMA 
consistency review, not to expand a state's authority for consistency 
review to another state. In essence, the 1984 U.S. Supreme Court 
decision in Secretary of the Interior v. California found that MMS 
lease sales did not ``directly'' affect the coastal zone, and thus were 
not subject to CZMA consistency review. To overturn the Supreme Court 
decision Congress removed the words ``directly affecting'' from CZMA 
Section 307(c)(1)'s requirement for Federal agency action and provided 
that consistency would now be required for ``Each Federal agency 
activity within or outside the coastal zone that affects any land or 
water use or natural resource of the coastal zone . . .'' (Emphasis 
added.)
    At the same time, in what were termed technical changes, the 
entirely separate provisions in CZMA Section 307(c)(3)(A) and (B)--
applying Federal consistency review to private permit applicants and to 
OCS Plans--were amended to refer to those consistency activities ``in 
or outside'' of the coastal zone affecting ``any land or water use or 
natural resource'' of the coastal zone. (Emphasis added.) Unlike CZMA 
Section 307(c)(1), these latter sections had not previously been 
written to place the adverb ``directly'' before the verb ``affecting.'' 
Again, this change was not intended to expand a state's authority for 
consistency review.
    The Conference Report plainly states Congress' actual intention 
regarding the future construction of CZMA Section 307(c)(3):
        The conferees want to make it clear that the changes made . . . 
        [to Section 307(c)(3) governing private permit applicants] are 
        technical modifications. None of the amendments made by this 
        section are intended to change the existing implementation of 
        these consistency provisions. For example, none of the changes 
        made to Section 307(c)(3)(A) and (B), and (d) change existing 
        law to allow a state to expand the scope of its consistency 
        review authority. Specifically, these changes do not affect or 
        modify existing law or enlarge the scope of consistency review 
        authority under Section (c)(3)(A) and (B), and (d) with respect 
        to the proposed project to divert water from Lake Gaston to the 
        city of Virginia Beach, Virginia, for municipal water supply 
        purposes. These technical changes are necessary to, and are 
        made solely for the purpose of, conforming these existing 
        provisions with the changes to Section 307(c)(1) of the CZMA 
        which are needed to overturn the Watt v. California Supreme 
        Court decision. (Emphasis added). H.R. Conf. Rep. 101-964, at 
        968 et seq., reprinted in 1990 U.S.C.C.A.N. at 2673, et seq.
    Prior to the 1990 amendments to CZMA, the public record shows that 
both DOJ and the Corps of Engineers had issued legal opinions and filed 
briefs in Federal courts which disputed a state's authority under the 
CZMA to conduct consistency review outside of its own boundaries. 
During the most recent Department of Commerce CZMA rulemaking, 
exhaustive comments submitted by the City of Virginia Beach with regard 
to the ``Lake Gaston dispute'' (mentioned specifically in the 
Conference Report quoted above and involving North Carolina's attempted 
CZMA veto of a Virginia-based project), highlighted the specific 
legislative history regarding the 1990 amendments, as well as other 
fundamental rules of statutory construction, that establish that one 
state's coastal policies cannot be legally enforced to block a Federal 
permit applicant's activities taking place entirely in different state.
    The ``Lake Gaston dispute'' ultimately led to a December 3, 1992 
Secretarial override decision in which the first Bush administration's 
Secretary Franklin ruled that North Carolina lacked legal authority to 
block an activity located entirely in another state. It was not until 
1993 that a political policy reversal by Clinton-appointee Secretary 
Brown acquiesced to the NOAA legal staff's position that promoted such 
state extra-territorial review authority.
    The record is thus quite clear that, both before and immediately 
after the time the 1990 Amendments were passed, the predominant Federal 
Government position rejected a state's authority to conduct consistency 
review for private permit applicants' activities outside of its 
boundaries. When passing the 1990 Amendments, Congress made clear that 
no change to the scope of existing state review authority over private 
permits would occur. Accordingly, an amendment to the CZMA to change 
the definition of ``enforceable policy'' is necessary to overturn the 
Department of Commerce's newly minted and untenable position that 
expands a state's consistency authority outside its boundaries.
    B. Amend 16 U.S.C. Sec. 1456(c)(3)(B) to allow a single consistency 
certification for an OCS Plan to cover all activities, including air 
and water permits
    The oil and gas industry has experienced inordinate delays 
regarding the lack of coordination between Federal agencies in 
processing permits for OCS activities, especially including delays 
involving separate state consistency reviews for those permits. There 
are also serious concerns raised by the recent CZMA rulemaking 
indicating that new ``licenses or permits'' involving heretofore-
routine approvals of OCS activities will be subject to separate 
consistency review.
    This amendment is intended to increase the efficiency of state 
consistency review for OCS Plans by achieving a single consistency 
certification for all related permitted activities, including air and 
water discharges, conducted pursuant to either an exploration plan, or 
a plan of development and production. Contrary to any suggestion that 
such a change would unacceptably limit state consistency review 
information, DOI regulations require an exacting explanation of the 
Federal applicant's plans, including air and water discharges.
    Attached to this testimony for this Subcommittee's ready reference 
are the requirements for OCS exploration and development plans set 
forth at 30 C.F.R. Sec. Sec. 250.203 and 250.204. These MMS regulations 
state in detail information requirements for both water and air 
emissions and include specific discussion of ``[e]nvironmentally 
sensitive areas (onshore as well as offshore) . . . and areas of 
particular concern identified by an affected State pursuant to the 
Coastal Zone Management Act . . . which may be affected by the proposed 
activities.'' There is also specific direction for consultation by the 
MMS with CZMA agencies of affected states regarding any limitation on 
the amount of information necessary to be included.
    Moreover, language requiring activities to be described ``in 
detail'' is already built into the OCS information exchange process by 
the language of the OCSLA. Most pertinently, for development and 
production plans, the OCSLA at 43 U.S.C. Sec. 1351(d) specifically says 
that ``the Secretary shall not grant any license or permit for any 
activity described in detail in a plan and affecting any land use or 
water use in the coastal zone of a State . . . unless the State concurs 
or [if an override decision is issued].'' (Emphasis added). 
Substantially similar language is found under the provisions for 
exploration plans at 43 U.S.C. Sec. 1340(c)(3), which directs that ``an 
exploration plan submitted under this subsection shall include 
[information] in the degree of detail which the Secretary may by 
regulation require.'' (Emphasis added). The attached MMS regulations 
implementing these provisions abundantly satisfy concerns regarding 
detailed information being provided to support consistency 
certifications.
    C. Amend 16 U.S.C. Sec. 1456(c)(3)(B) to recognize that the 
Secretary of the Interior will determine information requirements for 
consistency certifications
    This proposed amendment is closely related to the preceding 
amendment regarding a single consistency certification determination. 
To further promote the efficiency of the consistency process, not only 
should a permit applicant be permitted to file a single consistency 
determination for its OCS plans, but the information supplied in 
support of that consistency determination should be allowed to conform 
to a known set of information requirements identified by the Department 
of the Interior. In the past, the consistency process has broken down 
all too often based on unreasonable and unceasing unilateral state 
information requests. Moreover, certain states have lodged such 
consistency objections even while refusing to respond to the OCS permit 
applicant's request for a simple itemization of the information that 
the state may find lacking.
    While existing regulations provide that state information 
requirements are subject to a public approval oversight process, state 
expansions of consistency review information requirements have on more 
than one occasion been treated as merely ``routine'' amendments to 
state programs requiring minimum public notice and comment. In 
addition, Commerce's past uncritical endorsement of state demands for 
``adequate information'' ignores the realpolitik of state consistency 
review information requests. The CZMA experience has shown to any 
disinterested observer that certain coastal states have used purported 
findings of ``lack of information'' to deny consistency certifications 
and to obstruct OCS activity on very questionable grounds, especially 
considering the abundance of information on OCS oil and gas exploration 
and development that has been accumulated over the last 50 years.
    Finally, any question whether the Secretary of the Interior is 
qualified to determine what information is needed for a state to make 
an informed consistency decision should be convincingly answered by the 
detailed MMS information requirements for OCS Plans attached to this 
memorandum, as well as the specific OCSLA requirements for DOI 
consultation with state coastal zone authorities regarding areas of 
particular state concern.
    D. Amend 16 U.S.C. Sec. 1456(c)(3)(B)(iii) to provide that the 
Secretary of Interior would decide override appeals concerning OCS 
activities
    The Manteo consistency review process led to the Secretary of 
Commerce making unprecedented rulings declining to override North 
Carolina's objections and putting into question the Secretary's very 
recognition of the importance of future exploration of frontier OCS 
areas in environmentally sound ways. Commerce's recent CZMA rulemaking 
has now further put into question the application of the legal 
criterion for Secretarial overrides in a way that would work 
presumptively against frontier OCS exploration. These experiences, as 
well as consideration of the greater expertise possessed by the 
Secretary of the Interior with regard to OCS plans and their 
environmental effects, support an amendment of 16 U.S.C. 
Sec. 1456(c)(3)(B) (iii) to allow the Secretary of the Interior to 
handle appeals of state objections to OCS Plans.
    First, we are concerned that a superficially minor change made to 
the Secretarial override criteria in recent rulemaking could now 
authorize arbitrary and capricious agency action. Commerce's CZMA 
rulemaking has changed the Secretarial override criteria. 15 C.F.R. 
Sec. 930.121 previously included the specific finding that ``[t]he 
challenged activity furthers one of the national objectives or purposes 
of the [CZMA],'' but the new CZMA rules have added the requirement that 
the activity must ``significantly or substantially'' further the 
national interest requirements. While this change to the ``national 
interest'' criterion may appear innocuous, it could have substantial 
detrimental impacts. For example, while Commerce in its December 8, 
2000 preamble makes a point of noting that ``[a]n example of an 
activity that significantly or substantially furthers the national 
interest is the siting of energy facilities or OCS oil and gas 
development,'' 65 Fed. Reg. 77150 (bottom middle column), this 
observation gives OCS lessees a degree of comfort as to the new 
criterion's application to OCS development, but not necessarily to 
exploration. This distinction is significant because the Secretary of 
Commerce's Manteo POE and NPDES permit override decisions specifically 
found, contrary to longstanding Secretarial precedent, that the 
drilling of an exploration well in an important frontier OCS area would 
only provide a ``minimal contribution'' to the national interest. 
Particularly emphasizing that the Manteo POE had indicated that there 
was a 10 percent chance of actually finding mineral reserves (which in 
the industry is a quite solid chance for even conservative decision 
making), the Secretary found that the supposedly small chance of 
exploratory success diminished the Manteo project's contribution to the 
national interest. Therefore, the new override criterion could now be 
used by the Secretary of Commerce to reject the importance of OCS 
exploratory activity in frontier areas.
    Any possible suggestion that the Secretary of the Interior lacks 
experience with CZMA issues, or that the CZMA's override decisionmaking 
procedures would be ``inappropriately bifurcated,'' is unfounded. 
First, such concern pointedly ignores the educational process that all 
Federal agencies have undergone over the last 25 years in administering 
CZMA consistency review requirements regarding their actions. Federal 
agencies in general--and DOI with its myriad agencies with coastal 
responsibilities in particular--have become quite sophisticated in 
determining project impacts on a state's coastal zone. Indeed, this 
educational process is embedded in the very framework of Commerce's 
consistency regulations.
    A related concern that the DOI Secretary would lack 
``responsibility for the implementation of the statute upon which the 
decision is based'' ignores the long existing, parallel process under 
which the Secretary of Commerce has exercised authority, as part of the 
CZMA override process itself, to determine a private permit applicant's 
satisfaction of the requirements of both the Clean Air Act and the 
Clean Water Act. Neither statute is directly administered by Commerce, 
but this analogous circumstance evidently has not hampered past 
Secretarial override decisionmaking.
    Finally, the bifurcation of the processing of override appeals 
achieved by this amendment would be entirely consistent with the 
already existing statutory division between OCS Plans' consistency 
review and all other private permit review, as established in the 
separate CZMA sections of 16 U.S.C. Sec. 1656(c)(3)(A) and (B). The 
pre-existing statutory recognition of a unique OCS planning process 
would only be strengthened by Congressional recognition of the 
Secretary of the Interior, in charge of administering OCS activity, as 
the appropriate decision-maker to weigh the beneficial vs. adverse 
impacts of such planning.
    E. Amend 16 U.S.C. Sec. 1465 to ensure timely decisions by 
Secretary in override appeals
    Despite Congress's 1996 amendment to the CZMA to add 16 U.S.C. 
Sec. 1465, which was specifically intended to expedite the override 
decisionmaking process, these appeals continue to be drawn out by 
overlong agency commenting, and by Commerce's implementation of the 
present requirement that the deadline for decisionmaking does not begin 
to run until after the administrative record is ``closed.'' A new 
amendment is needed to institute a definite deadline that is only 
governed by the time an appeal is filed.
    The member companies note that in practice the materials that 
comprise the administrative record for the Secretarial override 
decision are fully developed by the time a state's consistency 
objection is lodged. The override criteria can be readily applied to 
the already-assembled information. If unusual situations arise where 
legitimate reasons exist for an extension of the decisionmaking 
deadline, the 1996 amendment already allows a 45-day ``safety valve'' 
extension.
    There is no foundation to any suggestion that the change could 
result in Secretarial decisions based on ``incomplete information'' 
regarding possible coastal impacts. Indeed, speculation regarding such 
vague and lingering information concerns essentially makes the case for 
the need for this new amendment. There will always be a Federal 
regulatory mindset, shared by certain of the coastal states, that tilts 
towards preferring ``one more study to be completed'' before ever 
reaching a final decision. The need for predictability in these 
override decisions mandates a preordained time for review; otherwise, 
continuing abuse will be endemic to the decisional process.
Conclusion
    We believe that the foregoing discussion has amply demonstrated 
that the continuing development of OCS resources is vital to the 
nation's energy future, an observation which Congress included as an 
explicit finding in the Outer Continental Shelf Lands Act Amendments 
enacted over 22 years ago this year. This testimony has also identified 
several areas of concern with regard to the future effectiveness of 
this process as it relates specifically to states' consistency reviews 
over OCS activity. The testimony's suggested amendments to the CZMA as 
part of the reauthorization legislation would work to distinctly 
improve the efficiency, as well as the fundamental fairness, of that 
process.
                               attachment
                      TITLE 30--MINERAL RESOURCES
                       DEPARTMENT OF THE INTERIOR

PART 250--OIL AND GAS AND SULPHUR OPERATIONS IN THE OUTER CONTINENTAL 
SHELF

    Subpart B--Exploration and Development and Production Plans
    Sec. 250. 203 Exploration Plan.
    (a) The leasee shall submit for approval an Exploration Plan which 
includes the following:
    (1) The proposed type and sequence of exploration activities to be 
undertaken together with a timetable for their performance from 
commencement to completion.
    (2) A description of the type of mobile drilling unit, platform, or 
artificial island to be used including a discussion of the drilling 
program and important safety and pollution-prevention features. In the 
Alaska OCS Region, lessees shall include provisions for----
    (i) Drilling a relief well should a blowout occur,
    (ii) Loss or disablement of a drilling unit, and
    (iii) Loss or damage to support craft.
    (3) A table indicating the approximate location of each proposed 
exploratory well, including surface locations, proposed well depths, 
and water depth at well sites.
    (b) The lessee shall submit the following supporting information to 
accompany the Exploration Plan:
    (1) Data and information described below which the Regional 
Supervisor deems necessary to evaluate geologic conditions:
    (i) Current structure contour maps drawn to the top of each 
prospective hydrocarbon accumulation showing the approximate surface 
and bottomhole location of each proposed well.
    (ii) Full-scale interpreted, and if appropriate, migrated Common 
Depth Point seismic lines intersecting at or near the primary well 
locations.
    (iii) A time versus depth chart based on the appropriate velocity 
analysis in the area of interpretation.
    (iv) Interpreted structure sections corresponding to each seismic 
line submitted in paragraph (b)(1)(ii) of this section showing the 
location and proposed depth of each well.
    (v) A generalized stratigraphic column from the surface to total 
depth.
    (vi) A description of the geology of the prospect.
    (vii) A plat showing exploration seismic coverage of the lease.
    (viii) A bathymetry map showing surface locations of proposed 
wells.
    (ix) An analysis of seafloor and subsurface geologic and manmade 
hazards. Unless the lessee can demonstrate to the satisfaction of the 
Regional Supervisor that data sufficient to determine the presence or 
absence of such conditions are available, the lessee shall conduct a 
shallow hazards survey in accordance with the Regional Supervisor's 
specifications. The Regional Supervisor may require the submission of a 
shallow hazards report and the data upon which the analysis is based.
    (2) An oil-spill response plan as described in part 254 or 
reference to an approved Regional Response Plan.
    (3) A discussion of the measures that have been or will be taken to 
satisfy the conditions of lease stipulations.
    (4) A list of the proposed drilling fluids, including components 
and their chemical compositions, information on the projected amounts 
and rates of drilling fluid and cuttings discharges, and method of 
disposal.
    (5) Information concerning the presence of hydrogen sulfide 
(H<INF>2</INF>S) and the following proposed precautionary measures:
    (i) A classification of the lease area as to whether it is within 
an area known to contain H<INF>2</INF>S, an area where the presence of 
H<INF>2</INF>S is unknown, or an area where the absence of 
H<INF>2</INF>S has been confirmed as described in Sec. 250.417 of this 
part and the documentation supporting the classification; and
    (ii) If the classification is an area known to contain 
H<INF>2</INF>S or an area where the presence of H<INF>2</INF>S is 
unknown, an H<INF>2</INF>S Contingency Plan as required in Sec. 250.417 
of this part.
    (6) A detailed discussion of new or unusual technology to be 
employed. The lessee shall indicate which portions of the supporting 
information the lessee believes are exempt from disclosure under the 
Freedom of Information Act (FOIA) (5 U.S.C. 552) and the implementing 
regulations (43 CFR part 2). The lessee shall include a written 
discussion of the general subject matter of the deleted portions for 
transmittal to the recipients of plan copies.
    (7) A brief description of the onshore facilities to be used to 
support the exploration activities including information as to whether 
the facilities are existing, proposed, or are to be expanded; a brief 
description of support vessels to be used and information concerning 
their frequency of travel; and a map showing the lease relative to the 
shoreline and depicting proposed transportation routes.
    (8) For onshore support facilities, except in the western GOM, 
indicate the following:
    (i) The location, size, number, and land requirements (including 
rights-of-way and easements) of the onshore support and storage 
facilities and, where possible, a timetable for the acquisition of 
lands and the construction or expansion of any facilities.
    (ii) The estimated number of persons expected to be employed in 
support of offshore, onshore, and transportation activities and, where 
possible, the approximate number of new employees. and families likely 
to move into the affected area.
    (iii) Major supplies, services, energy, water, or other resources 
within affected States necessary for carrying out the related plan.
    (iv) The source, composition, frequency, and duration of emissions 
of air pollutants.
    (9) The quantity, composition, and method of disposal of solid and 
liquid wastes and pollutants likely to be generated by offshore, 
onshore, and transportation operations.
    (10) Historic weather patterns and other meteorological conditions 
of offshore areas including temperature, sky cover and visibility, 
precipitation, storm frequency and magnitude, wind direction and 
velocity, and freezing and icing conditions listing, where possible, 
the means and extremes of each.
    (11) Physical oceanography including onsite direction and velocity 
of currents and tides, sea states, temperature, and salinity, water 
quality, and icing conditions, where appropriate.
    (12) Onsite flora and fauna including both pelagic and benthic 
communities, transitory birds and mammals that may breed or migrate 
through the area when proposed activities are being conducted, 
identification of endangered and threatened species and their critical 
habitats that could be affected by proposed activities, and typical 
fishing seasons and locations of fishing activities. The results of any 
biological surveys required by the Regional Supervisor (including a 
copy of survey reports or references to previously submitted reports) 
should be incorporated into this discussion.
    (13) Environmentally sensitive areas (onshore as well as offshore), 
e.g., refuges, preserves, sanctuaries, rookeries, calving grounds, and 
areas of particular concern identified by an affected State pursuant to 
the Coastal Zone Management Act (CZMA) which may be affected by the 
proposed activities.
    (14) Onsite uses of the area based on information available, e.g., 
shipping, military use, recreation, boating, commercial fishing, 
subsistence hunting and fishing, and other mineral exploration in the 
area.
    (15) If the Regional Director believes that an archaeological 
resource may exist in the lease area, the Regional Director will notify 
the lessee in writing. Prior to commencing any operations, the lessee 
shall prepare a report, as specified by the Regional Director, to 
determine the potential existence of any archaeological resource that 
may be affected by operations. The report shall be prepared by an 
archaeologist and geophysicist and shall be based on an assessment of 
data from remote-sensing surveys and of other pertinent archaeological 
and environmental information.
    (16) Existing and planned monitoring systems that are measuring or 
will measure environmental conditions and provide data and information 
on the impacts of activities in the geographic areas.
    (17) An assessment of the direct and cumulative effects on the 
offshore and onshore environments expected to occur as a result of 
implementation of the Exploration Plan, expressed in terms of magnitude 
and duration, with special emphasis upon the identification and 
evaluation of unavoidable and irreversible impacts on the environment. 
Measures to minimize or mitigate impacts should be identified and 
discussed.
    (18) Certificate(s) of coastal zone consistency as provided in 15 
CFR part 930.
    (19) For each OCS facility, the lessee shall submit the information 
described below when it is needed to make the findings under Sec. 
250.303 or Sec. 250.304 of this part:
    (i)(A) Projected emissions from each proposed or modified facility 
for each year of operation and the basis for all calculations to 
include (if the drilling unit has not yet been determined, the lessee 
shall use worst-case estimates for the type of unit proposed):
    (1) For each source, the amount of the emission by air pollutant 
expressed in tons per year and the frequency and duration of emissions.
    (2) For each facility, the total amount of emissions by air 
pollutant expressed in tons per year and, in addition for a modified 
facility only, the incremental amount of total emissions by air 
pollutant resulting from the new or modified source(s).
    (3) A detailed description of all processes, processing equipment, 
and storage units, including information on fuels to be burned.
    (4) A schematic drawing which identifies the location and elevation 
of each source.
    (5) If projected emissions are based on the use of emission-
reduction control technology, a description of the controls providing 
the information required by paragraph (b)(19)(iv) of this section.
    (B) The distance of each proposed facility from the mean high water 
mark (mean higher high water mark on the Pacific coast) of any State.
    (ii)(A) The model(s) used to determine the effect on the onshore 
air quality of emissions from each facility, or from other facilities 
when required by the Regional Supervisor, and the results obtained 
through the use of the model(s). Only model(s) that has been approved 
by the Director may be used.
    (B) The best available meteorological information and data 
consistent with the model(s) used stating the basis for the data and 
information selected.
    (iii) The air quality status of any onshore area where the air 
quality is significantly affected (within the meaning of Sec. 250.303 
of this part) by projected emissions from each facility proposed in the 
plan. The area should be classified as nonattainment, attainment, or 
unclassifiable to include the status of each area by air pollutant, the 
class of attainment area, and the air-pollution control agency whose 
jurisdiction covers the area identified.
    (iv) The emission-reduction controls available to reduce emissions, 
including the source, the emission-reduction control technology, 
reductions to be achieved, and monitoring system the lessee proposes to 
use to measure emissions. The lessee shall indicate which emission-
reduction control technology the lessee believes constitutes the best 
available control technology and the basis for that opinion.
    (20) The name, address, and telephone number of an individual 
employee of the lessee to whom inquiries by the Regional Supervisor and 
the affected State(s) may be made.
    (21) Such other information and data as the Regional Supervisor may 
require.
    (c) Information and data discussed in other documents previously 
submitted to MMS or otherwise readily available to reviewers may be 
referenced. The material being referenced shall be cited, described 
briefly, and include a statement of where the material is available for 
inspection. Any material based on proprietary data which is not itself 
available for inspection shall not be so referenced.
    (d) The Regional Director, after consultation with the Governor of 
the affected State(s) or the Governor's designated representative, the 
CZM agency of affected State(s), and the Office of Ocean and Coastal 
Resource Management of the National Oceanic and Atmospheric 
Administration (NOAA) may limit the amount of information required to 
be included to that necessary to assure conformance with the Act, other 
laws, applicable regulations, and lease provisions.
    (e) The Regional Supervisor shall determine within 10 working days 
after receipt of the Exploration Plan whether additional information is 
needed. If no deficiencies are identified and the required number of 
copies have been received, the plan will be deemed submitted.
    (f) Within 2 working days after we deem the Exploration Plan 
submitted, the Regional Supervisor will send by receipted mail a copy 
of the plan (except those portions exempt from disclosure under the 
Freedom of Information Act and 43 CFR part 2) to the Governor or the 
Governor's designated representative and the CZM agency of each 
affected State. Consistency review begins when the State's CZM agency 
receives a copy of the deemed submitted plan, consistency 
certification, and required necessary data and information as directed 
by 15 CFR 930.78.
    (g) In accordance with the National Environmental Policy Act 
(NEPA), the Regional Supervisor shall evaluate the environmental 
impacts of the activities described in the Exploration Plan.
    (h) In the evaluation of an Exploration Plan, the Regional 
Supervisor shall consider written comments from the Governor of an 
affected State or the Governor's designated representative which are 
received prior to the deadline specified by the Regional Supervisor. 
The Regional Supervisor may consult directly with affected States 
regarding matters contained in the comments.
    (i) Within 30 days of submission of a proposed Exploration Plan, 
the Regional Supervisor shall accomplish one of the following:
    (1) Approve the plan;
    (2) Require the lessee to modify any plan which is inconsistent 
with the provisions of the lease, the Act, or the regulations 
prescribed under the Act including air quality, environmental, safety, 
and health requirements; or
    (3) Disapprove the plan if the Regional Supervisor determines that 
a proposed activity would probably cause serious harm or damage to life 
(including fish and other aquatic life), property, natural resources 
offshore including any mineral deposits (in areas leased or not 
leased), the national security or defense, or the marine, coastal, or 
human environment, and that the proposed activity cannot be modified to 
avoid the condition(s).
    (j) The Regional Supervisor shall notify the lessee in writing of 
the reason(s) for disapproving an Exploration Plan or for requiring 
modification of a plan. For plans requiring modification, the Regional 
Supervisor shall also notify the lessee in writing of the conditions 
that must be met for plan approval.
    (k)(1) The lessee may resubmit an Exploration Plan, as modified, to 
the Regional Supervisor in the same manner as for a new plan. Only 
information related to the proposed modifications need be submitted. 
The Regional Supervisor shall approve, disapprove, or require 
modification of the resubmitted plan based upon the criteria in 
paragraph (i) of this section within 30 days of the resubmission date.
    (2) An Exploration Plan which has been disapproved pursuant to 
paragraph (i)(3) of this section may be resubmitted if there is a 
change in the conditions which caused it to be disapproved. The 
Regional Supervisor shall approve, require modification, or disapprove 
such a plan within 30 days of the resubmission date.
    (l) When a State objects to a lessee's coastal zone consistency 
certification, the lessee shall modify the plan to accommodate the 
State's objection(s) and resubmit the plan to----
    (1) The Regional Supervisor for review pursuant to the criteria in 
paragraphs (h), (i), and (j) of this section; and
    (2) Through the Regional Supervisor to the State for review 
pursuant to the CZMA and the implementing regulations (15 CFR 930.83 
and 930.84). Alternatively, the lessee may appeal the State's objection 
to the Secretary of Commerce pursuant to the procedures described in 
section 307 of the CZMA and the implementing regulations (subpart H of 
15 CFR part 930). The Regional Supervisor shall approve or disapprove a 
plan as resubmitted within 30 days of the resubmission date.
    (m) If the Regional Supervisor disapproves an Exploration Plan, the 
Secretary may, subject to the provisions of section 5(a)(2)(B) of the 
Act and the implementing regulations in Sec. 250.182 and 256.77 of this 
chapter II, cancel the lease(s), and the lessee shall be entitled to 
compensation in accordance with section 5(a)(2)(c) of the Act.
    (n)(1) The Regional Supervisor shall periodically review the 
activities being conducted under an approved Exploration Plan and may 
request updated information on schedules and procedures. The frequency 
and extent of the Regional Supervisor's review shall be based upon the 
significance of any changes in available information and in other 
onshore or offshore conditions affecting or affected by exploration 
activities being conducted pursuant to the plan. If the review 
indicates that the plan should be revised to meet the requirements of 
this part, the Regional Supervisor shall require the needed revision.
    (2) Revisions to an approved or pending Exploration Plan, whether 
initiated by the lessee or ordered by the Regional Supervisor, shall be 
submitted to the Regional Supervisor for approval. Only information 
related to the proposed revisions need be submitted. When the Regional 
Supervisor determines that a proposed revision could result in a 
significant change in the impacts previously identified and evaluated 
or requires additional permits, the revisions shall be subject to all 
of the procedures in this section.
    (o) To ensure safety and protection of the environment and 
archaeological resources, the Regional Director may authorize or direct 
the lessee to conduct geological, geophysical, biological, 
archaeological, or other surveys or monitoring programs. The lessee 
shall provide the Regional Director, upon request, with copies of any 
data obtained as a result of those surveys and monitoring programs.
    (p) The lessee may not drill any well until the District 
Supervisor's approval of an Application for Permit to Drill (APD), 
submitted in accordance with the requirements of Sec. 250.414 of this 
part, has been received. The District Supervisor shall not approve any 
APD until all affected States with approved CZM programs have concurred 
or have been conclusively presumed to concur with the applicant's 
coastal zone consistency certification accompanying a plan, or the 
Secretary of Commerce has made the finding authorized by section 
307(c)(3)(B)(iii) of the CZMA. The APD's must conform to the activities 
described in detail in the approved Exploration Plan and shall not be 
subject to a separate State coastal zone consistency review.
    (q) Nothing in this section or in an approved plan shall limit the 
lessee's responsibility to take appropriate measures to meet emergency 
situations. In such situations, the Regional Supervisor may approve or 
require departures from an approved Exploration Plan.

                      TITLE 30--MINERAL RESOURCES
                       DEPARTMENT OF THE INTERIOR
PART 250--OIL AND GAS AND SULPHUR OPERATIONS IN THE OUTER CONTINENTAL 
SHELF

    Subpart B--Exploration and Development and Production Plans
    Sec. 250. 204 Development and Production Plan.
    (a) The lessee shall submit for approval a Development and 
Production Plan which includes the following:
    (1) A description of and schedule for the development and 
production activities to be performed including plan commencement date, 
date of first production, total time to complete all development and 
production activities, and dates and sequences for drilling wells and 
installing facilities and equipment.
    (2) A description of any drilling vessels, platforms, pipelines, or 
other facilities and operations located offshore which are proposed or 
known by the lessee (whether or not owned or operated by the lessee) to 
be directly related to the proposed development, including the 
location, size, design, and important safety, pollution prevention, and 
environmental monitoring features of the facilities and operations.
    (b) The lessee shall submit the following supporting information to 
accompany the Development and Production Plan:
    (1) Geological and geophysical (G&G) data and information, 
including the following:
    (i) A plat showing the surface location of any proposed fixed 
structure or well.
    (ii) A plat showing the surface and bottomhole locations and giving 
the measured and true vertical depths for each proposed well.
    (iii) Current interpretations of relevant G&G data.
    (iv) Current structure map(s) showing the surface and bottomhole 
location of each proposed well and the depths of expected productive 
formations.
    (v) Interpreted structure sections showing the depths of expected 
productive formations.
    (vi) A bathymetric map showing surface locations of fixed 
structures and wells or a table of water depths at each proposed site.
    (vii) A discussion of seafloor conditions including a shallow 
hazards analysis for proposed drilling and platform sites and pipeline 
routes. This information shall be derived from the shallow hazards 
report required by Sec. 250.909 of this part.
    (2) Information concerning the presence of H<INF>2</INF>S and 
proposed precautionary measures, including the following:
    (i) A classification of the lease area as to whether it is within 
an area known to contain H<INF>2</INF>S, an area where the presence of 
H<INF>2</INF>S is unknown, or an area where the absence of 
H<INF>2</INF>S has been confirmed as described in Sec. 250.417 of this 
part and the documentation supporting the classification; or
    (ii) If the classification is an area known to contain 
H<INF>2</INF>S or an area where the presence of H<INF>2</INF>S is 
unknown, an H<INF>2</INF>S Contingency Plan as required in Sec. 250.417 
of this part.
    (3) A description of the environmental safeguards to be 
implemented, including an updated oil-spill response plan as described 
in part 254 of this chapter or reference to an approved plan.
    (4) A discussion of the steps that have been or will be taken to 
satisfy the conditions of lease stipulations.
    (5)(i) A description of technology and reservoir engineering 
practices intended to increase the ultimate recovery of oil and gas, 
i.e., secondary, tertiary, or other enhanced recovery practices;
    (ii) A description of technology and recovery practices and 
procedures intended to assure optimum recovery of sulphur; or
    (iii) A description of technology and recovery practices and 
procedures intended to assure optimum recovery of oil and gas and 
sulphur.
    (6) A discussion of the proposed drilling and completion programs.
    (7) A detailed description of new or unusual technology to be 
employed. The lessee shall indicate which portions of the information 
the lessee believes are exempt from disclosure under the FOIA (5 U.S.C. 
552) and the implementing regulations (43 CFR part 2). The lessee shall 
include a written discussion of the general subject matter of the 
deleted portions for transmittal to recipients of plan copies.
    (8) A brief description of the following:
    (i) The location, description, and size of any offshore, and to the 
maximum extent practicable, land-based operations to be conducted or 
contracted for as a result of the proposed activity, including the 
following:
    (A) The acreage required within a State for facilities, rights-of-
way, and easements.
    (B) The means proposed for transportation of oil, gas, and sulphur 
to shore; the routes to be followed by each mode of transportation; and 
the estimated quantities of oil, gas, and sulphur to be moved along 
such routes.
    (C) An estimate of the frequency of boat and aircraft departures 
and arrivals, the onshore location of terminals, and the normal routes 
for each mode of transportation.
    (ii) A list of the proposed drilling fluids including components 
and their chemical compositions, information on the projected amounts 
and rates of drilling fluid and cuttings discharges, and method of 
disposal. If the information is provided in an approved Environmental 
Protection Agency, National Pollutant Discharge Elimination System 
permit, or a pending permit application, the lessee may reference these 
documents.
    (iii) The quantities, types, and plans for disposal of other solid 
and liquid wastes and pollutants likely to be generated by offshore, 
onshore, and transport operations and, regarding any wastes which may 
require onshore disposal, the means of transportation to be used to 
bring the wastes to shore, disposal methods to be utilized, and 
location of onshore waste disposal or treatment facilities.
    (iv) The following information on onshore support facilities, 
except in the western GOM:
    (A) The approximate number, timing, and duration of employment of 
persons who will be engaged in onshore development and production 
activities, an approximate number of local personnel who will be 
employed for or in support of the development activities (classified by 
the major skills or crafts that will be required from local sources and 
estimated number of each such skill needed), and the approximate total 
number of persons who will be employed during the onshore construction 
activity and during all activities related to offshore development and 
production.
    (B) The approximate number of people and families to be added to 
the population of local nearshore areas as a result of the planned 
development.
    (C) An estimate of significant quantities of energy and resources 
to be used or consumed including electricity, water, oil and gas, 
diesel fuel, aggregate, or other supplies which may be purchased within 
an affected State.
    (D) The types of contractors or vendors which will be needed, 
although not specifically identified, and which may place a demand on 
local goods and services.
    (E) The source, composition, frequency, and duration of emissions 
of air pollutants.
    (v) A narrative description of the existing environment with an 
emphasis placed on those environmental values that may be affected by 
the proposed action. This section shall contain a description of the 
physical environment of the area covered by the related plan. This 
portion of the plan shall include data and information obtained or 
developed by the lessee together with other pertinent information and 
data available to the lessee from other sources. The environmental 
information and data shall include the following, where appropriate:
    (A) If the Regional Director believes that an archaeological 
resource may exist in the lease area, the Regional Director will notify 
the lessee in writing. Prior to commencing any operations, the lessee 
shall prepare a report, as specified by the Regional Director, to 
determine the potential existence of any archaeological resource that 
may be affected by operations. The report shall be prepared by an 
archaeologist and geophysicist and shall be based on an assessment of 
data from remote-sensing surveys and of other pertinent archaeological 
and environmental information.
    (B) The aquatic biota, including a description of fishery and 
marine mammal use of the lease and the significance of the lease, and a 
description of any threatened and endangered species and their critical 
habitat. The results of any biological surveys required by the Regional 
Supervisor (including a copy of survey reports or references to 
previously submitted reports) should be incorporated into these 
discussions.
    (C) Environmentally sensitive areas (e.g., refuges, preserves, 
sanctuaries, rookeries, calving grounds, coastal habitat, beaches, and 
areas of particular environmental concern) which may be affected by the 
proposed activities.
    (D) The predevelopment, ambient water-column quality and 
temperature data for incremental depths for the areas encompassed by 
the plan.
    (E) The physical oceanography, including ocean currents described 
as to prevailing direction, seasonal variations, and variations at 
different water depths in the lease.
    (F) Historic weather patterns and other meteorological conditions, 
including storm frequency and magnitude, wave height and direction, 
wind direction and velocity, air temperature, visibility, freezing and 
icing conditions, and ambient air quality listing, where possible, the 
means and extremes of each.
    (G) The other uses of the area known to the lessee, including 
military use for national security or defense, subsistence hunting and 
fishing, commercial fishing, recreation, shipping, and other mineral 
exploration or development.
    (H) The existing or planned monitoring systems that are measuring 
or will measure impacts of activities on the environment in the 
planning area.
    (9) For sulphur operations, the degree of subsidence that is 
expected at various stages of production, and measures that will be 
taken to assure safety of operations and protection of the environment. 
Special attention shall be given to the effects of subsidence on 
existing or potential oil and gas production, fixed bottom-founded 
structures, and pipelines.
    (10) For sulphur operations, a discussion of the potential toxic or 
thermal effects on the environment caused by the discharge of 
bleedwater, including a description of the measures that will be taken 
into account to mitigate these impacts.
    (11) An assessment of the effects on the environment expected to 
occur as a result of implementation of the plan, identifying specific 
and cumulative impacts that may occur both onshore and offshore, and 
the measures proposed to mitigate these impacts. Such impacts shall be 
quantified to the fullest extent possible including magnitude and 
duration and shall be accumulated for all activities for each of the 
major elements of the environment (e.g., water or biota).
    (12) A discussion of alternatives to the activities proposed that 
were considered during the development of the plan including a 
comparison of the environmental effects.
    (13) Certificate(s) of coastal zone consistency as provided in 15 
CFR part 930.
    (14) For each OCS facility, such information described below needed 
to make the findings under Sec. 250.303 or Sec. 250.304 of this part:
    (i)(A) Projected emissions from each proposed or modified facility 
for each year of operation and basis for all calculations to include 
the following:
    (1) For each source, the amount of the emission by air pollutant 
expressed in tons per year and frequency and duration of emissions;
    (2) For each proposed facility, the total amount of emissions by 
air pollutant expressed in tons per year, the frequency distribution of 
total emissions by air pollutant expressed in pounds per day and, in 
addition for a modified facility only, the incremental amount of total 
emissions by air pollutant resulting from the new or modified 
source(s);
    (3) A detailed description of all processes, processing equipment, 
and storage units, including information on fuels to be burned;
    (4) A schematic drawing which identifies the location and elevation 
of each source; and
    (5) If projected emissions are based on the use of emission-
reduction control technology, a description of the controls providing 
the information required by paragraph (b)(12)(iv)(A) of this section.
    (B) The distance of each proposed facility from the mean high water 
mark (mean higher high water mark on the Pacific coast) of any State.
    (ii)(A) The model(s) used to determine the effect on the onshore 
air quality of emissions from each facility, or from other facilities 
when required by the Regional Supervisor, and the result obtained 
through the use of the model(s). Only model(s) that has been approved 
by the Director may be used.
    (B) The best available meteorological information and data 
consistent with the model(s) used stating the basis for the information 
and data selected.
    (iii) The air quality status of any onshore area where the air 
quality is significantly affected (within the meaning of Sec. 250.303 
of this part) by projected emissions from each facility proposed in the 
plan. The area should be classified as nonattainment, attainment, or 
unclassifiable listing the status of each area by air pollutant, the 
class of attainment areas, and the air pollution control agency whose 
jurisdiction covers the area identified.
    (iv)(A) The emission-reduction controls available to reduce 
emissions including the source, emission-reduction control technology, 
reductions to be achieved, and monitoring system the lessee proposes to 
use to measure emissions. The lessee shall indicate which emission-
reduction control technology the lessee believes constitutes the best 
available control technology and the basis for that opinion.
    (B) The ownership of the offshore and onshore offsetting source(s) 
and the reduction obtainable from each offsetting source.
    (15) A brief discussion of any approved or anticipated suspensions 
of production necessary to hold the lease(s) in an active status.
    (16) The name, address, and telephone number of an individual 
employee of the lessee to whom inquiries by the Regional Supervisor and 
the affected State(s) may be directed.
    (17) Such other data and information as the Regional Supervisor may 
require.
    (c) Data and information discussed in other documents previously 
submitted to MMS or otherwise readily available to reviewers may be 
incorporated by reference. The material being incorporated shall be 
cited and described briefly and include a statement of where the 
material is available for inspection. Any material based on proprietary 
data which is not itself available for inspection shall not be 
incorporated by reference.
    (d)(1) Development and Production Plans are not required for leases 
in the western GOM. For these leases, the lessee shall submit to the 
Regional Supervisor for approval a Development Operations Coordination 
Document with all information necessary to assure conformance with the 
Act, other laws, applicable regulations, lease provisions, or as 
otherwise needed to carry out the functions and responsibilities of the 
Regional Supervisor.
    (2) Any information required in paragraph (d)(1) of this section 
shall be considered a Development and Production Plan for the purpose 
of references in any law, regulation, lease provision, agreement, or 
other document referring to the preparation or submission of a plan.
    (e) The Regional Director, after consultation with the Governor(s) 
of the affected State(s) or the Governor's designated representative, 
the CZM agency of the affected State(s), and the Office of Ocean and 
Coastal Resource Management of NOAA may limit the amount of information 
required to be included in a Development and Production Plan to that 
necessary to assure conformance with the Act, other laws, applicable 
regulations, and lease provisions. In determining the information to be 
included in a plan, the Regional Director shall consider current and 
expected operating conditions together with experience gained during 
past operations of a similar nature in the area of proposed activities.
    (f) The Regional Supervisor shall determine within 20 working days 
after receipt whether additional material is needed. If no deficiencies 
are identified and the requested number of copies have been received, 
the plan shall be deemed submitted.
    (g) Within 5 working days after a Development and Production Plan 
has been deemed submitted, the Regional Supervisor shall transmit a 
copy of the plan, except for those portions of the plan determined to 
be exempt from disclosure under the FOIA and the implementing 
regulations (43 CFR part 2), to the Governor or the Governor's 
designated representative and the CZM agency of each affected State and 
to the executive of each affected local government that requests a 
copy. The Regional Supervisor shall make copies available to 
appropriate Federal Agencies, interstate entities, and the public. The 
plan will be available for review at the appropriate MMS Regional 
Public Information Office.
    (h) The Governor or the Governor's designated representative and 
the CZM agency of each affected State and the executive of each 
affected local government shall have 60 days from the date of receipt 
of the Development and Production Plan to submit comments and 
recommendations to the Regional Supervisor. The executive of any 
affected local government must forward all recommendations to the 
Governor of the State prior to submitting them to the Regional 
Supervisor. The Regional Supervisor shall accept those recommendations 
from the Governor that provide for a reasonable balance between the 
national interest and the well-being of the citizens of the affected 
State. The Regional Supervisor shall explain in writing the reasons for 
accepting or rejecting any recommendations. In addition, any interested 
Federal Agency or person may submit comments and recommendations to the 
Regional Supervisor. All comments and recommendations shall be made 
available to the public.
    (i) We will process the plan according to this section and 15 CFR 
part 930. Accordingly, consistency review begins when the State's CZM 
agency receives a copy of the deemed submitted plan, consistency 
certification, and required necessary data and information as directed 
by 15 CFR 930.78.
    (j) The Regional Supervisor will evaluate the environmental impact 
of the activities described in the Development and Production Plan 
(DPP) and prepare the appropriate environmental documentation required 
by the National Environmental Policy Act of 1969. At least once in each 
planning area (other than the western and central Gulf of Mexico 
planning areas), we will prepare an environmental impact statement 
(EIS) and send copies of the draft EIS to the Governor of each affected 
State and the executive of each affected local government that requests 
a copy. Additionally, when we prepare a DPP EIS and when the State's 
Federally approved coastal management program requires a DPP NEPA 
document for use in determining consistency, we will forward a copy of 
the draft EIS to the State's CZM Agency. We will also make copies of 
the draft EIS available to any appropriate Federal Agency, interstate 
entity, and the public.
    (k) Prior to or immediately after a determination by the Director 
that approval of a Development and Production Plan requires that the 
procedures under NEPA shall commence, the Regional Supervisor may 
require lessees of tracts in the vicinity, for which Development and 
Production Plans have not been approved, to submit preliminary or final 
plans for their leases.
    (l) No later than 60 days after the last day of the comment period 
provided in paragraph (h) of this section or within 60 days of the 
release of the final EIS describing the proposed activities, the 
Regional Supervisor shall accomplish the following:
    (1) Approve the plan;
    (2) Require modification of the plan if it is determined that the 
lessee has failed to make adequate provisions for safety, environmental 
protection, or conservation of resources including compliance with the 
regulations prescribed under the Act; or
    (3) Disapprove the plan if one or more of the following occurs:
    (i) The lessee fails to demonstrate that compliance with the 
requirements of the Act, provisions of the regulations prescribed under 
the Act, or other applicable Federal laws is possible;
    (ii) State concurrence with the applicant's coastal zone 
consistency certification has not been received, the State's 
concurrence has not been conclusively presumed, or the State objects to 
the consistency certification, and the Secretary of Commerce does not 
make the determination authorized by section 307(c)(3)(B)(iii) of the 
CZMA;
    (iii) Operations threaten national security or defense; or
    (iv) Exceptional geological conditions in the lease area, 
exceptional resource value in the marine or coastal environment, or 
other exceptional circumstances exist, and all of the following:
    (A) Implementation of the plan would probably cause serious harm or 
damage to life (including fish and other aquatic life), property, any 
mineral deposits (in areas leased or not leased), the national security 
or defense, or to the marine, coastal, or human environments.
    (B) The threat of harm or damage will not disappear or decrease to 
an acceptable extent within a reasonable period of time.
    (C) The advantages of disapproving the plan outweigh the advantages 
of development and production.
    (m) The Regional Supervisor shall notify the lessee in writing of 
the reason(s) for disapproving a Development and Production Plan or for 
requiring modification of a plan and the conditions which must be met 
for plan approval.
    (n) The lessee may resubmit a Development and Production Plan, as 
modified, to the Regional Supervisor. Only information related to the 
proposed modifications need be submitted. Within 60 days following the 
60-day comment period provided for in paragraph (h) of this section, 
the Regional Supervisor shall approve, disapprove, or require 
modification of the modified plan.
    (o)(1) If a Development and Production Plan is disapproved for the 
sole reason that a State consistency certification has not been 
obtained, the Regional Supervisor shall approve the plan upon receipt 
of the concurrence, at the time when concurrence is conclusively 
presumed, or when the Secretary of Commerce makes a finding authorized 
by section 307(c)(3)(B)(iii) of the CZMA.
    (2) If a Development and Production Plan is disapproved because a 
State objects to the lessee's coastal zone consistency certification, 
the lessee shall modify the plan to accommodate the State's 
objection(s) and resubmit the plan to (i) the Regional Supervisor for 
review pursuant to the criteria in paragraph (l) of this section; and 
(ii) through the Regional Supervisor, to the State for review pursuant 
to the CZMA and the implementing regulations (15 CFR 930.83 and 
930.84). Alternatively, the lessee may appeal the State's objection to 
the Secretary of Commerce pursuant to the procedures described in 
section 307 of the CZMA and the implementing regulations (subpart H of 
15 CFR part 930). The Regional Supervisor shall approve, disapprove, or 
require modification of a plan as revised within 60 days following the 
60-day comment period provided for in paragraph (h) of this section.
    (p) Development and Production Plans disapproved pursuant to 
paragraph (l)(3) of this section are subject to the provisions of 
section 25(h)(2) of the Act and the implementing regulations in Secs. 
250.183 and 256.77 of this chapter.
    (q)(1) The Regional Supervisor shall periodically review the 
activities being conducted under an approved Development and Production 
Plan. The frequency and extent of the Regional Supervisor's review 
shall be based upon the significance of any changes in available 
information and onshore or offshore conditions affecting or impacted by 
development or production activities being conducted pursuant to the 
plan. If the review indicates that the plan should be revised to meet 
the requirements of this part, the Regional Supervisor shall require 
the needed revisions.
    (2) Revisions to an approved or pending Development and Production 
Plan, whether initiated by the lessee or ordered by the Regional 
Supervisor, shall be submitted to the Regional Supervisor for approval. 
Only information related to the proposed revisions need be submitted. 
When the Regional Supervisor determines that a proposed revision could 
result in a significant change in the impacts previously identified and 
evaluated, requires additional permits, or proposes activities not 
previously identified and evaluated, the revision shall be subject to 
all of the procedures in this section.
    (3) When any revision to an approved Development and Production 
Plan is proposed by the lessee, the Regional Supervisor may approve the 
revision if it is determined that the revision is consistent with the 
protection of the marine, coastal, and human environments and will lead 
to greater recovery of oil and natural gas; will improve the 
efficiency, safety, and environmental protection of the recovery 
operation; is the only means available to avoid substantial economic 
hardship to the lessee; or is otherwise not inconsistent with the 
provisions of the Act.
    (r) Whenever the lessee fails to submit a Development and 
Production Plan in accordance with provisions of this section or fails 
to comply with an approved plan, the lease may be cancelled in 
accordance with sections 5 (c) and (d) of the Act and the implementing 
regulations in Secs. 250.183 and 256.77 of this chapter.
    (s) To ensure safety and protection of the environment and 
archaeological resources, the Regional Director may authorize or direct 
the lessee to conduct geological, geophysical, biological, 
archaeological, or other surveys or monitoring programs. The lessee 
shall provide the Regional Director, upon request, copies of any data 
obtained as a result of those surveys and monitoring programs.
    (t) The lessee may not drill any well until the District 
Supervisor's approval of an APD, filed in accordance with the 
requirements of Sec. 250.414 of this part, has been received. All APD's 
and applications to install platforms and structures, pipelines, and 
production equipment must conform to the activities described in detail 
in the approved Development and Production Plan and shall not be 
subject to a separate State coastal zone consistency review.
    (u) Nothing in this section or approved plans shall limit the 
lessee's responsibility to take appropriate measures to meet emergency 
situations. In such situations, the Regional Supervisor may approve or 
require departures from an approved Development and Production Plan.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Wyman.
    Ms. Claussen?

STATEMENT OF EILEEN CLAUSSEN, PRESIDENT AND CHAIR OF THE BOARD, 
             STRATEGIES FOR THE GLOBAL ENVIRONMENT

    Ms. Claussen. Good afternoon. My name is Eileen Claussen 
and I am the president and chairman of the board of Strategies 
of the Global Environment. I am also the president of the Pew 
Center on Global Climate Change.
    I serve on the Pew Oceans Commission as well, an 
independent group conducting a national dialogue on the 
policies--
    Mr. Gilchrest. Ms. Claussen, can pull the mike a little 
closer to you?
    Thank you.
    Ms. Claussen. To promote a national dialogue, the 
commission has been conducting meetings and hearings in coastal 
communities in every region of the nation.
    Senator Carlotta Leon Guerrero from Guam, another member of 
the Pew Oceans Commission, is also here today.
    As you resume work on reauthorization the Coastal Zone 
Management Act, it is important that everyone appreciates how 
valuable this program is. Although its funding level is modest, 
the Coastal Zone Management Act supports the activities of over 
1,000 Federal and state marine experts who work every day to 
reduce conflicts in the use of coastal resources and to protect 
the quality of life that draws an even greater portion of our 
population to reside in coastal communities.
    The Resources Committee is to be commended for its careful 
attention to this program over its long history, reauthorizing 
the law five times and updating its provisions to anticipate 
new uses and issues as they come along.
    Let me also emphasize the importance of the National 
Estuarine Research Reserves system. As the commission has 
traveled across the country, we have had the opportunity to 
visit some of the reserves that have been organized under this 
program. They are national treasures.
    The Elkhorn Slough north of Monterey, California, is a 
wetland teeming with vitality in a state where over 90 percent 
of the original wetlands have been lost.
    Commission members counted more than 30 threatened southern 
sea otters, 1.5 percent of the total population, on a morning 
kayak trip through Elkhorn Slough. We worked as well.
    [Laughter.]
    And we testify based on experience to the value of this 
program and would fully support efforts to expand and enhance 
the system as proposed in your bills.
    In addition to our hearings and focus groups, the Pew 
Oceans Commission has also arranged for the publication of a 
series of papers, setting forth the best-available science on 
the most serious threats to our marine environment.
    Mr. Chairman, I would like to thank you for the opportunity 
you gave us to present the first of these reports, a paper on 
marine pollution done by a group of scientists led by Dr. Don 
Boesch from the University of Maryland and Dr. Richard 
Burroughs here on my right from the University of Rhode Island, 
when you met with our Chair, Leon Panetta, earlier this year.
    Our next paper, due in late June, will be on the subject of 
aquaculture and will be followed by papers on invasive species, 
the ecological effects of fishing, and the impacts of coastal 
development.
    What does the best science say about marine pollution? The 
principal threat comes from nutrient pollution that over-
enriches coastal waters, causing explosive growth in 
microscopic organisms that, in some places, literally choke the 
life out of marine ecosystems.
    The adverse effects are delivered by three mechanisms.
    First, increased amounts of plankton block sunlight, 
causing a loss of seagrasses that had provided habitat for many 
larger life forms.
    Second, when the plankton dies and drifts to the bottom of 
our marine environment, processes of decomposition may use up 
available oxygen, causing the death or flight of bottom-
dwelling organisms.
    And finally, nutrient pollution may promote toxic algal 
blooms that kill fish and other marine animals outright, and by 
the millions, and threaten human uses, including recreation and 
fishing in affected areas.
    The principal nutrient of concern in coastal waters is 
nitrogen. Our use of commercial fertilizer and the combustion 
of fossil fuels has had a dramatic effect on the global 
nitrogen cycle.
    U.S. coastal ecosystems are receiving 100 to 400 percent 
more nitrogen than natural systems would experience. That is a 
huge change in a fundamental part of the life cycles in these 
environments. And as a result, more than one-third of our 
estuaries are highly stressed.
    Nitrogen pollution can travel very long distances in the 
atmosphere and in watersheds. One-third of the nitrogen 
impacting the Chesapeake Bay is air pollution from power plant 
and vehicle exhaust.
    Nitrogen oxides emitted to the air may travel 500 to 1,000 
miles from the source before they are deposited. Ninety percent 
of the nitrogen pollution that contributes to the dead zone in 
the Gulf of Mexico is discharged to tributaries in the 
Mississippi and Ohio River watersheds from farms and cities 
located north of St. Louis, Missouri.
    Everyone understands that our nation has failed to make a 
dent in the nonpoint pollution problem over the past 30 years. 
Our marine pollution report provides guidance for a new focus 
and a new sense of urgency.
    Although the Pew Oceans Commission has yet to adopt 
recommendations on this subject, the science points in a clear 
direction: Over-enrichment resulting from huge increases in 
nitrogen loadings threaten life in more than one-third of the 
nation's estuaries. This nitrogen is released from farm fields, 
animal feed lots, sewage treatment plants, power plant stacks, 
and vehicle tailpipes. It travels long distances.
    It is time we had a national strategy with a real Federal 
commitment to address this threat.
    In addition to reauthorizing the CZMA, you will also be 
working on a national energy policy and a farm bill in the 
coming months. We urge the Congress to use these and other 
opportunities to focus on nitrogen pollution and to address it 
as the truly national problem it is.
    Mr. Chairman, in closing, I would like to commend the 
provisions in your draft legislation that promote the use of 
measurable goals and evaluation tools in the national coastal 
zone management program. One thing that we have learned as we 
have studied innovative local and regional efforts to manage 
coastal resources is that clear goals adopted in an open 
process and with stakeholders involved, and with a commitment 
to measured progress and to make midcourse corrections as 
needed, has been a key ingredient in successful watershed 
protection programs across the nation.
    We commend you for bringing these tools to the Coastal Zone 
Management Act in your bill.
    Thank you for this opportunity to testify on behalf of the 
work of the Pew Oceans Commission and reauthorization of the 
Coastal Zone Management Act.
    [The prepared statement of Ms. Claussen follows:]

    Statement of Eileen Claussen, President and Chair of the Board, 
     Strategies for the Global Environment, and Member, Pew Oceans 
                               Commission

    Good morning, Mr. Chairman and members of the Subcommittee. My name 
is Eileen Claussen. I am President and Chair of the Board of Strategies 
for the Global Environment, and President of the Pew Center on Global 
Climate Change. I am also a member of the Pew Oceans Commission, an 
independent group of American leaders conducting a national dialogue on 
the policies needed to restore and protect living marine resources in 
U.S. waters.
    The ultimate goal of the Pew Oceans Commission is to make 
recommendations to Congress and the public on whatever changes to U.S. 
ocean law and policy are needed to conserve marine biodiversity and to 
maintain the health and integrity of marine ecosystems. We plan to have 
a final report to you in the fall of 2002.
    To promote a national dialogue, the Commission has been conducting 
meetings and hearings in coastal communities in every region of the 
nation. We've heard from local fishermen and business people; local, 
state, and Federal Government officials; marine scientists; 
conservationists; and concerned citizens. Members of the Coastal States 
Organization who administer coastal zone programs in their workday 
lives have been valuable partners in making each of our meetings a 
success.
    As you resume work on reauthorization of the Coastal Zone 
Management Act, it is important that everyone appreciates how valuable 
this program is. Although its funding level is modest, the Coastal Zone 
Management Act supports the activities of over 1000 Federal and state 
marine experts who work everyday to reduce conflicts in the use of our 
coastal resources and to protect the quality of life that draws an ever 
greater portion of our population to reside in coastal communities.
    Hundreds of projects planned and leveraged by CZMA funds have made 
state, local and private dollars available to assure public access to 
beaches and the water, to protect our infrastructure investment from 
natural hazards, to conserve the physical and biological character of 
marine ecosystems, and to promote sustainable economic use of coastal 
resources. These are essential governmental functions, Mr. Chairman, 
needed more now than 30 years ago when CZMA was first enacted. The 
Resources Committee is to be commended for its careful attention to 
this program over its long history, reauthorizing the law five times 
and updating its provisions to anticipate new uses and issues as they 
came along.
    Let me also emphasize the importance of the National Estuarine 
Research Reserve System. As the Commission has traveled across the 
country, we have had the opportunity to visit some of the reserves that 
have been organized under this program. They are national treasures. 
The Elkhorn Slough, north of Monterey, California is a wetland teeming 
with vitality in a state where over 90 percent of the original wetlands 
have been lost. Commission members counted more than 30 threatened 
southern sea otters, 1.5 percent of the total population, on a morning 
kayak trip through Elkhorn Slough.
    When the Commission visited Charleston, South Carolina, members 
visited the ACE Basin, another project involving a diverse set of 
participants who rightfully take great pride in their wonderful 
wildlife reserve that provides nesting grounds for endangered turtles. 
With adequate funding and expanded authority, this system can do even 
more to protect pristine coastal ecosystems and the endangered marine 
animals that depend on these habitats. We can testify based on 
experience to the value of this program and would fully support efforts 
to expand and enhance this system as proposed in your bills.
    In addition to our hearings and focus groups, the Pew Oceans 
Commission has also arranged for the publication of a series of papers 
setting forth the best available science on the most serious threats to 
our marine environment. Mr. Chairman, I would like to thank you for the 
opportunity you gave us to present the first of these reports, a paper 
on marine pollution done by a group of scientists led by Dr. Donald 
Boesch from the University of Maryland and Dr. Richard Burroughs from 
the University of Rhode Island, when you met with our Chair, Leon 
Panetta, earlier this year. Our next paper due in late June will be on 
the subject of aquaculture and will be followed by papers on invasive 
species, the ecological effects of fishing, and the impacts of coastal 
development.
    What does the best available science say about marine pollution? 
The principal threat comes from nutrient pollution that over enriches 
coastal waters causing explosive growth in microscopic organisms that 
in some places literally chokes the life out of marine ecosystems. The 
adverse effects are delivered by three mechanisms. First, increased 
amounts of plankton block sunlight causing a loss of seagrasses that 
had provided habitat for many larger life forms. Second, when the 
plankton dies and drifts to the bottom of a marine environment, 
processes of decomposition may use up available oxygen causing the 
death or flight of bottom dwelling organisms. And finally, nutrient 
pollution may promote toxic algal blooms that kill fish and other 
marine animals outright and by the millions and threaten human uses 
including recreation and fishing in affected areas.
    The principal nutrient of concern in coastal waters is nitrogen. 
Our use of commercial fertilizer and combustion of fossil fuels has had 
a dramatic effect on the global nitrogen cycle. U.S. coastal ecosystems 
are receiving one hundred to four hundred percent more nitrogen than 
natural systems would experience. That is a huge change in a 
fundamental part of life cycles in these environments. As a result, 
more than one-third of our estuaries are highly stressed--stressed from 
eutrophication in ways that inhibit recovery from other human 
disturbances such as overfishing, physical development, invasive 
species and climate change.
    Nitrogen pollution can travel very long distances in the atmosphere 
and in watersheds. One-third of the nitrogen impacting the Chesapeake 
Bay is air pollution from powerplant and vehicle exhaust. Nitrogen 
oxides emitted to the air may travel 500 to 1000 miles from the source 
before they are deposited. Ninety percent of the nitrogen pollution 
that contributes to the ``dead zone'' in the Gulf of Mexico is 
discharged to tributaries in the Mississippi and Ohio River watersheds 
from farms and cities located north of St. Louis, Missouri.
    I bring these science facts to your attention because they have an 
important message for the Coastal Zone Management Act. By any 
accounting we must admit that the section 6217 program to control 
nonpoint pollution in coastal states has been slow to develop. After 10 
years, only four state programs have been fully approved and it is 
clear that many coastal states will continue to resist the adoption of 
enforceable measures over large areas applying to all sources, because 
the law asks them to do too much with too little assistance from the 
Federal Government. The 6217 program as currently administered by EPA 
and NOAA is simply not an adequate response to threat of nutrient 
pollution in our coastal waters.
    Everyone understands that our nation has failed to make a dent in 
the nonpoint pollution problem over the past thirty years. Our marine 
pollution report provides guidance for a new focus and new sense of 
urgency. Although the Pew Oceans Commission has yet to adopt 
recommendations on this subject, the science points in a clear 
direction. Overenrichment resulting from huge increases in nitrogen 
loadings threatens life in more than one-third of the nation's 
estuaries. This nitrogen is released from farm fields, animal feedlots, 
sewage treatment plants, powerplant stacks, and vehicle tailpipes. It 
travels long distances. It is time we had a national strategy with a 
real Federal commitment to address this threat. In addition to 
reauthorizing CZMA, you will also be working on a national energy 
policy and a farm bill in the coming months. We urge the Congress to 
use these and other opportunities to focus on nitrogen pollution and to 
address it as the truly national problem it is.
    Mr. Chairman, in closing I would like to commend the provisions in 
your draft legislation that promote the use of measurable goals and 
evaluation tools in the national Coastal Zone Management program. There 
is little doubt that the Coastal Zone Management Act has provided 
substantial protection to coastal resources in its nearly 30 years of 
existence. But the CZMA is a product of its time a process oriented law 
in which state coastal zone plans were approved on a showing of certain 
authorities, processes, and mechanisms, with little requirement to show 
performance.
    One thing we have learned as we have studied innovative local and 
regional efforts to manage coastal resources around the country is that 
it is imperative to set measurable performance goals. The establishment 
of clear goals provides a yardstick against which to measure the 
performance of management measures. It promotes accountability by 
government managers and allows them to determine which approaches are 
most effective, and therefore most deserving of scarce resources.
    A 1998 study by Oregon Sea Grant assessed the effectiveness of 
state CZM programs at protecting estuaries and coastal wetlands, two 
critical types of coastal habitat. This study found that state programs 
for which adequate outcome data was available were moderately to highly 
successful at protecting these habitats. However, many programs lacked 
sufficient data to assess program performance. The study also found 
that many state programs did not adequately protect nontidal freshwater 
wetlands. Given the importance of wetlands in protecting water quality, 
a priority-setting process targeting water quality probably would have 
acknowledged the need to protect freshwater wetlands and provided 
additional protection earlier.
    Clear goals adopted in an open process with stakeholder involvement 
and with a commitment to measure progress and make mid-course 
corrections as needed has been a key ingredient in successful watershed 
protection programs across the nation. We commend you for bringing 
these tools to the Coastal Zone Management Act in your bill.
    Mr. Chairman, thank you for this opportunity to testify on the work 
of the Pew Oceans Commission and reauthorization of the Coastal Zone 
Management Act.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Ms. Claussen.
    Ms. Savitz?

   STATEMENT OF JACQUELINE SAVITZ, EXECUTIVE DIRECTOR, COAST 
                            ALLIANCE

    Ms. Savitz. Thank you, Mr. Chairman, Mr. Underwood. It is a 
pleasure to be here today on behalf of Coast Alliance. I am the 
executive director of the Coast Alliance, which leads a network 
of over 600 organizations, both local and national 
organizations, on all four coasts of this country.
    We are happy to be here to offer testimony on the 
reauthorization of Coastal Zone Management Act on behalf of 26 
of those organizations, which is the number I was able to 
contact in the short period of time I had. These organizations 
also contributed to our testimony.
    Coast Alliance has a long track record with the Coastal 
Zone Management Act. We have consistently and resolutely 
supported its reauthorization, and we have worked closely with 
EPA and NOAA to maintain the consistency aspects of the Coastal 
Zone Management Act. We also have worked hard to educate the 
public, as you heard from Congressman Saxton, about the 
importance of the Act and about the importance of the coastal 
nonpoint source pollution control program.
    In spite of nearly 30 years of environmental management in 
this country, our coasts continue to be inundated with 
pollution, causing severe impacts on critical habitats as well 
coastal economies.
    As you know, things like closed beached, closed shellfish 
beds, harmful algae blooms, clogged shipping channels, even 
contaminated drinking water, are all too common on our coasts 
and are all tied to pollution runoff.
    The coastal nonpoint program places runoff control in the 
hands of the states and provides guidance, including management 
measures designed to actually reduce or even stop pollution. 
That is why the coastal nonpoint program is widely recognized 
as being our best chance to finally address this last and 
greatest source of pollution on our coasts.
    With the growing human impact on the coasts, our greatest 
hope lies in a carefully and well-designed Coastal Zone 
Management Act. Coast Alliance believes strongly that the Act 
has provided much needed attention to coastal issues and 
promoted intergovernmental coordination and comprehensive 
solutions.
    However, it has not sufficiently addressed coastal 
pollution.
    As Congress embarks on this important task, we believe that 
any reauthorization should reflect four principles, just like 
CSO.
    First, since polluted runoff is the number one cause of 
water quality impairment, the coastal nonpoint program must be 
integrated into the Act and sufficient funding must be 
authorized for its support.
    In particular, we believe that program requires about $25 
million in order to work effectively, per year.
    Second, the program's requirements for state level 
enforcement must be maintained.
    Third, as you heard many other people today, the act's 
consistency provisions, which provide an important tool for 
states to protect coastal habitats, must not be weakened.
    We have heard discussions about weakening these provisions, 
and we hope the Subcommittee will work to stop any such 
changes.
    Last, any new projects or grant programs funded under this 
Act must be environmentally protective. That means maintaining 
the natural integrity of coastal environments.
    The impacts of projects, as you know, like dredging and 
shoreline stabilization, may be a matter of debate; however, 
there are ample sources for those kinds of controversial 
projects. The limited resources available through the Coastal 
Zone Management Act should be focused on projects that have 
agreed upon benefits to coastal resources and not those with 
definite or potential ecological impact.
    Our coasts are constantly barraged by an increasing 
population bringing additional pollution and robbing coastal 
habitats of their resilience. Such impacts have to be 
minimized, not facilitated, by a new CZMA.
    A reauthorization of the Act that is not designed to uphold 
these principles will exacerbate existing challenges and 
plainly would not pass the straight-face test. Therefore, Coast 
Alliance would oppose any reauthorization of CZMA that failed 
to uphold the four principles I just outlined.
    As you know, Coast Alliance strongly supported H.R. 2669 in 
the last Congress, and that support continues for H.R. 897, 
which achieves the same goals. In particular, the bill 
authorizes funding to implement the coastal nonpoint program 
while maintaining existing objectives and guidelines for 
funding projects through the act.
    We are pleased that the proposed discussion draft also 
authorizes funding for the coastal nonpoint program. In 
particular, we appreciate that the discussion draft sets aside 
a minimum amount of funding rather than limiting the funding 
that could be used by states for this purpose.
    We do have some concerns with the discussion draft that we 
hope can be worked out. These include the lack of explicit 
eligibility for expenditures under Section 309 for the coastal 
nonpoint program; the amount of funding authorized; the absence 
of land acquisition as an authorized use of funding; and the 
lack of clear objectives to ensure that projects funded through 
Section 309 have a net environmental benefit and do not create 
environmental harm.
    And I will be very happy to articulate these points further 
today, if you wish.
    In summary, we look forward to working with the 
Subcommittee to craft a bill that explicitly provides funding 
for environmentally sound projects and authorizes funding for 
nonpoint pollution.
    Thank you, Mr. Chairman, Mr. Underwood, for the opportunity 
to testify today.
    [The prepared statement of Ms. Savitz follows:]

Statement of Jacqueline Savitz, Executive Director, Coast Alliance, on 
   Behalf of the Following Organizations: Natural Resources Defense 
  Council, New York, New York; Sierra Club, Washington, D.C.; Audubon 
   Society, Washington, D.C.; World Wildlife Fund, Washington, D.C.; 
   Center for Marine Conservation, Washington, D.C.; American Oceans 
 Campaign, Washington, D.C.; Cook Inlet Keeper, Homer, Alaska; Florida 
   Keys Environmental Fund, Islamorada, Florida; Cape Arago Audubon 
      Society, North Bend, Oregon; The Chester River Association, 
 Chestertown, Maryland; Waterkeeper Alliance, White Plains, New York; 
   Massachusetts Audubon Society, Lincoln, Massachusetts; Northwest 
   Environmental Advocates, Portland, Oregon; Mobile Bay Watch, Inc./
Mobile BayKeeper, Mobile, Alabama; New York-New Jersey Baykeeper, Sandy 
  Hook, Highlands, New Jersey; Americal Littoral Society, Sandy Hook, 
    Highlands, New Jersey; New River Foundation, Midway Park, North 
Carolina; Save the Sound, Stamford, Connecticut; North Carolina Coastal 
Federation, Newport, North Carolina; Apalachicola Bay and Riverkeeper, 
Florida; Gulf Restoration Network, New Orleans, Louisiana; Conservation 
   Law Foundation, Rockland, Maine; Save the Bay, Providence, Rhode 
Island; Friends of Casco Bay, South Portland, Maine; and Pacific Whale 
                        Foundation, Maui, Hawaii

Introduction
    The Coast Alliance welcomes the opportunity to submit testimony to 
this Subcommittee on the reauthorization of the Coastal Zone Management 
Act. The Alliance leads a network of over 600 organizations along all 
four United States coasts, including the Great Lakes. Together we work 
to protect this nation's priceless coastal resources. This testimony is 
endorsed by the twenty-five organizations listed on the cover page.
    Coast Alliance has a long history of work to support the Coastal 
Zone Management Act (CZMA) and has been very active in its 
reauthorizations. We look forward to working with this Subcommittee to 
reauthorize the Act again. Since the Act was originally passed in 1972, 
there has been little respite from human impacts in coastal areas. The 
latest population estimates suggest that by 2015, the coasts will be 
home to nearly 25 million more people. Where will our already crowded 
coasts put these 25 million people? What impact will these new 
residents have? What will be left of our precious marshes, beaches and 
woodlands? How will our coastal bays, lakes and estuaries fare?
    The answers, and our greatest hope for the coasts, lie in a 
carefully crafted and well-defined Coastal Zone Management Act. Coast 
Alliance believes strongly that the Coastal Zone Management Act has 
been a very important program, providing much needed attention to 
coastal issues, and ensuring interagency coordination and comprehensive 
solutions. Through reauthorization we can give it a chance to be 
effectively implemented.
    As Congress embarks on this important task, the Coast Alliance and 
its affiliated organizations believe that in order to achieve its 
goals, the Act must reflect the following principles:
    (1) The Coastal Nonpoint Pollution Control Program in its current 
form must be integrated into the Act, and sufficient funds must be 
authorized for its support because polluted runoff is the number one 
cause of water quality impairment, threatening coastal economies, and 
aquatic resources and habitats.
    (2) The Coastal Nonpoint Pollution Control Program's requirements 
for enforceable mechanisms must be retained if the Act is to achieve 
its goals.
    (3) The Act's consistency provisions, which provide an important 
tool for states to protect their coastal ecosystems must not be 
weakened.
    (4) The financial resources made available through CZMA should 
focus on projects that provide agreed-upon benefits to coastal 
resources, and not those with definite or potential ecological risks. 
Any new projects or grant programs supported through appropriations 
under CZMA must be environmentally protective, maintaining the natural 
integrity of coastal ecosystems. While the impacts of some projects 
such as beach filling, dredging and shoreline stabilization may be a 
subject of debate, there are certainly many sources of funding 
available for such programs and they should not take precedence over 
coastal protection programs.

Background
    Population growth on the coasts simultaneously barrages the area 
with additional sources of pollution and robs the coast of its 
resilience or its ability to withstand stress. Marshes, forests, and 
grasslands, for example, are replaced with impervious surfaces that 
cause polluted water to speedily rush to near-shore habitats. The 
result is not just a degraded habitat, but in many cases the loss of 
fisheries and other coastal resources worth billions to the economy. 
Such impacts should be minimized, not facilitated, by a new Coastal 
Zone Management Act.
    The extensive benefits of these ecosystems have consistently been 
under-appreciated since today's cost-benefit studies are not equipped 
to measure the intrinsic values of wetlands, rivers or the ocean. Where 
they are considered, generally only those goods that can actually be 
bought or sold are included in the equation. Besides the obvious 
market-based values such as fisheries and transportation, coastal 
ecosystems quietly provide us with more varied life-supporting 
services. These ecological services, such as the roles a forest plays 
in producing oxygen, or preventing runoff, are almost never considered 
in cost-benefit analysis. Careful consideration of the values of these 
ecological services provided by coastal resources can help understand 
and demonstrate the need for conservation.
    Economists estimate that the global ecosystem provides $33 trillion 
each year in services to humankind. The coasts, which include oceans, 
estuaries, the continental shelf, lakes, rivers, seagrass beds, 
wetlands, and coral reefs were valued around $27 trillion, making up 80 
percent of the total value of the earth's ecosystem services.
    Coastal ecosystems prevent runoff, support fisheries, and regulate 
the gases in the atmosphere that maintain global temperature, shield us 
from harmful solar radiation, and allow us to breathe. Ecosystem 
services also include purification of water, mitigation of floods and 
drought, pollination, pest control and generation of fertile soils 
(Nature 1998). There are also the obvious benefits: recreation, 
cultural opportunities, and the provision of resources like lumber, 
fuel and food (Costanza et al. 1997). All we need to do to realize 
these immense benefits is to protect the coasts, and the $27 trillion 
figure provides a clear indication of the importance of doing so.
    Development and pollution, the two greatest threats to the coasts, 
need to be addressed by the Coastal Zone Management Act. Whether the 
source is agricultural runoff, sloppy forestry practices or 
uncontrolled urban runoff, control over the continued onslaught from 
polluted runoff is long overdue.
    The most common source of pollution, runoff comes from thousands of 
diffuse sources, such as farms, logging areas, new and existing 
developments, natural waters, marinas, septic systems, dams and other 
sources. Together they create a serious and ubiquitous water pollution 
problem. However, compared to factories and sewage treatment plants, 
runoff pollution remains essentially unregulated.
    In spite of the prevailing myth that the sources are too diffuse to 
address, the truth is that there are proven methods of controlling 
polluted runoff. Like point source pollution, polluted runoff can be 
managed and the time has come to level the playing field.
    The Coastal Nonpoint Pollution Control Program can help us begin to 
solve these problems. This policy tool that Congress created can stop 
runoff from taking its toll on local waterways. Coast Alliance has been 
working closely with state and Federal Government agencies to ensure 
that the Federal investment in this program is well spent. We also have 
worked hard to help ensure adequate funding for the program; however, 
to date the funding level does not reflect the need, or the degree to 
which runoff harms ecosystems.
    As Congress embarks on its reauthorization process, we would like 
to draw your attention to this important problem. Coast Alliance has 
produced a number of reports including Pointless Pollution: Preventing 
Polluted Runoff and Protecting America's Coasts and Mission Possible: 
State Progress Controlling Runoff Under the Coastal Nonpoint Pollution 
Control Program. These reports compile information on the state of the 
coasts with respect to polluted runoff problems and summarize coastal 
states' efforts to address the problem through the Coastal Nonpoint 
Pollution Control Program. A summary of our findings follows.

The Need to Prevent and Control Polluted Runoff
    America's coastal waters are a critical resource providing food, 
drinking water and recreational opportunities to all of its citizens. 
However, those are not all of the benefits. According to a recent 
economic analysis, coastal ecosystems such as wetlands, estuaries, and 
coral reefs provide us with billions of dollars worth of services such 
as air and water purification, flood prevention, and provision of 
habitat. When these ecosystems are destroyed by pollution or unmanaged 
development, we lose more than a pretty place. It costs us our air 
filtering system, flood control, natural water filters--losses we may 
never recoup ``this goes beyond marketable resources we extract from 
the coasts. Recognizing the need to ensure sustainable use of our 
fisheries and other coastal resources, Congress created the Coastal 
Zone Management Act.
    Studies show that the Act holds promise (Hershman et al. 1999). Yet 
our coasts are increasingly subject to diverse sources of stress. As a 
result of the ever increasing population and pollution pressure, the 
coasts endure constant challenges such as harvesting forests and 
draining wetlands, which would otherwise contribute to coastal 
resilience. As our population grows, the coasts' allure may also be 
their detriment, and already the impacts are becoming clear.
    Polluted runoff continues to rob coastal economies of billions of 
dollars that might otherwise be generated by tourism, fishing, and 
wildlife-watching. Coastal resources such as wetlands, oceans, and 
estuaries, are significant income generators and have tremendous 
ecological values. These coastal resources offer us many services that 
are lost as the resources diminish. Increasing populations will cost 
the coasts dearly unless runoff is prevented.
    Coastal program managers agree. A recent evaluative study (Hershman 
1999) found that one failure of the program according to its senior 
managers was that it has not adequately addressed water quality 
protection, watershed management, or nonpoint source pollution. Coast 
Alliance's report, Mission Possible, corroborated this finding.

State of the Coasts
    According to the Environmental Protection Agency (EPA), most, if 
not all of the estuaries in the National Estuary Program identify 
nutrient enrichment as a primary environmental problem (Wayland 1996). 
Nationally, only about six percent of the nitrogen comes from point 
sources (Wayland 1996). The remainder results from runoff, and other 
nonpoint sources. In many areas such as Chesapeake Bay, nearly two 
thirds of the load originates as traditional nonpoint sources: 
agriculture, forestry and development (Boesch 1996).

Runoff Closes Shellfish Beds, Destroying a Livelihood
    In 1995, 3.5 billion acres, or nearly one in every seven acres of 
classified shellfish beds were not approved for harvest due to poor 
water quality. The causes--failing septic systems, pollution by marinas 
and boating, agricultural runoff and feedlots--are precisely the 
sources that can and should be reduced by the Coastal Nonpoint 
Pollution Control Program.
    According to data from the National Oceanic and Atmospheric 
Administration (NOAA), nonpoint source pollution was a cause of 85 
percent of these shellfish bed closures overall <SUP>1</SUP>. In 14 of 
the 21 coastal states included in the National Shellfish Register, more 
than 95 percent of the area closed to shellfishing was impaired by 
nonpoint sources. This includes eight states where 100 percent of the 
acres closed were attributed, at least in part, to polluted runoff.
---------------------------------------------------------------------------
    \1\ Acreage affected by nonpoint sources were calculated by the 
Coast Alliance based on data provided by the National Marine Fisheries 
Service. These values represent only areas where waters were closed due 
to water quality concerns as documented in the database. To estimate 
percentage closed, Coast Alliance included areas where shellfishing is 
prohibited, restricted, or conditionally restricted, but not areas 
where shellfishing is conditionally approved or approved. Areas were 
considered impacted by nonpoint sources if nonpoint sources were 
documented in the NMFS database as an ``actual'' or ``probable'' cause 
of closures. Nonpoint sources are listed as probable causes where it is 
the best professional judgment of the agency that they are a 
contributor, but where no corroborating data are available.
---------------------------------------------------------------------------
Runoff Leads to Low Oxygen Conditions, Threatening Fisheries
    Scientists have shown that hypoxia caused by nutrients carried in 
runoff may affect fisheries resources by killing fish, reducing the 
habitat or food that is available, or by making them more susceptible 
to their predators, including humans (Rabalais et al. 1996).
    While hypoxia is generally a temporary condition, long-term low 
oxygen trends have been observed in lakes and estuaries around the 
country. In places like the Gulf of Mexico and Chesapeake Bay there is 
little respite from continuous loads of nutrients fed into the water 
from agriculture, urban runoff, wastewater treatment, air deposition, 
and otherwise.
    The most vivid example is the Dead Zone, an area in the Gulf of 
Mexico, near the mouth of the Mississippi River. Roughly 40 percent of 
the continental United States drains its fertilizers, pesticides, and 
other runoff into the Mississippi, contributing to the Dead Zone. The 
size of the Dead Zone varies from year to year depending on weather 
conditions and runoff volume among other factors.
    Scientists have studied this area over a series of years and found 
that below certain critical oxygen levels shrimp fishermen rarely catch 
shrimp in their trawl nets. Mobile organisms such as fish disappear as 
the oxygen levels drop (Harper and Rabalais 1996); they have likely 
left these areas in search of more oxygen-rich waters. Animals such as 
crabs and anemones, that are incapable of escaping, have been observed 
to die on the bottom. Since the natural scavengers have died or fled, 
the corpses are not consumed as they normally would be (Harper and 
Rabalais 1996). They simply lie on the bottom as a testament to the 
lifelessness of the Dead Zone.
    Estuaries and lakes on all four coasts suffer from low oxygen due 
to nutrient enrichment. Management measures in the Coastal Nonpoint 
Pollution Control Program guidance (EPA 1993), if applied in watersheds 
like the Mississippi River and its tributaries, could begin to shrink 
``dead zones'' and bring back the fisheries.

Runoff Stimulates Harmful Algae Blooms
    Pollution problems begin to really hit home when they threaten 
public health. The summer of 1997 saw an extremely frightening 
environmental disaster: fish kills that could sicken humans. A toxic 
micro-organism called Pfiesteria came onto the scene. That year alone, 
Pfiesteria killed more than a million fish, and caused human health 
problems including memory loss, reduced ability to solve simple math 
problems, and skin lesions resembling those found on dead and dying 
fish. Other algae species that can cause similar effects on fish 
communities and humans have caused blooms in other coastal areas as 
well.
    Since Pfiesteria was first found in nature in 1991, it has caused 
major fish kills in North Carolina's Neuse and Pamlico Rivers and in 
Maryland's Pocomoke River. In the summer of 1997, besides the million 
fish killed in North Carolina, an additional kill (10,000 fish) 
followed in the Pocomoke River in Maryland (Burkholder and Glasgow 
1997). An outbreak of Pfiesteria also was documented in the Indian 
River in Delaware (EPA 1998). According to Dr. JoAnn Burkholder (1996), 
these outbreaks coincide with increases in pollution and wetland loss.
    The excessive non-point source loads of nitrogen and phosphorus in 
coastal North Carolina and Maryland are undeniable. While the poultry 
and swine industries have been quick to deny that their wastes could be 
contributing to this problem, scientists have acknowledged that 
reducing nutrients would likely reduce the Pfiesteria problem (WRRI 
1998, Boesch 1997, Boesch et al. 1997). In spite of industry's claims, 
according to a scientific consensus, the benefits of reducing nutrient 
pollution are clear:
    ``There can be little question that decreases in nutrient loading 
(both organic and inorganic forms of nitrogen and phosphorus) will 
reduce eutrophication and thereby, lower the risk of toxic outbreaks of 
Pfiesteria-like dinoflagellates, hypoxia and fish kills.'' Findings of 
the Raleigh Report, 1998 (WRRI 1998).
    There is no time to waste in addressing harmful algae blooms like 
Pfiesteria. The facts are in, and the Coastal Nonpoint Pollution 
Control Program is poised to fulfill this immediate water quality need.

Runoff Clogs Harbors, Costing Taxpayers Millions
    The mouth of the Maumee River in Ohio demonstrates yet another 
costly problem resulting from insufficient environmental controls. The 
tremendous plume of sediments that washes into Toledo Harbor clogs 
channels and challenges the Lake Erie ecosystem. In total, about 6.4 
million tons of soil are eroded from cropland during rainstorms. While 
much of this soil remains on land, 1.3 million tons of sediment flows 
into the Harbor <SUP>2</SUP> (Sohngen 1998).
---------------------------------------------------------------------------
    \2\ The primary source of this information was the United States 
Department of Agriculture, Soil Conservation Service 1993 report: 
Erosion and Sediment Dynamics of the Maumee River Basin and their 
Impact on Toledo Harbor.
---------------------------------------------------------------------------
    Toxic metals in Toledo Harbor and Lake Erie contaminate these new 
sediments after they enter the river. As a result, most sediments 
dredged from the area are contaminated and must be confined in a 
facility designed to prevent toxics from escaping into the environment.
    Reducing sediment runoff from farms could significantly reduce 
dredging and disposal costs. By slowing the flow of sediments into the 
river, and reducing the amount of material to be dredged by about two 
million cubic yards, the Army could prolong the life of the disposal 
facility and postpone its construction by about two years. These 
outcomes would save taxpayers as much as $1.3 million each year 
(Sohngen 1998). In addition, spawning habitat for fish and other 
aquatic life would be improved, costs would be saved in treating 
drinking water, and recreational opportunities in the area would 
improve.
    Preventing runoff can also save money for farmers. Besides topsoil, 
runoff carries valuable nutrients away from farm fields and into nearby 
waterways. By minimizing nutrient losses, farmers can save money on 
nutrient inputs, such as fertilizer and feed.
    The measures needed to achieve these significant benefits for 
taxpayers, ports, farmers and the environment are precisely the type 
that would be provided by the Coastal Nonpoint Pollution Control 
Program. EPA's guidance contains management measures that could prevent 
sedimentation in rivers and harbors everywhere.

Runoff Contaminates Beaches, Making Swimmers Sick
    A study conducted by the Santa Monica Bay Restoration Project 
(SMBRP) identified health threats at prime swimming and surfing spots 
on the Southern California coast that were not previously under a 
swimming advisory (SMBRP 1996).
    Santa Monica is a popular swimming and surfing area near Los 
Angeles in Southern California. On a typical day, storm drains carry 
runoff from more than 400 square miles, releasing from 10 to 25 million 
gallons of stormwater into the bay. When it rains, more than 10 billion 
gallons of runoff may wash into the ocean (Knudson and Vogel 1996). 
With the runoff come waste products of millions of residents in one of 
the most densely developed areas of the country. Besides toxic 
chemicals from anti-freeze, brake pads, leaking oil, urban lawn 
chemicals and the like, bacteria and viruses creep in, from leaking 
sewage systems, animal waste, and fertilizers. These viruses can cause 
illness and render waters unsuitable for swimming.
    The study found that people who swam near storm drains had 
increased incidence of fever, chills, vomiting, coughing with phlegm, 
ear discharge, respiratory disease, and gastrointestinal illness among 
other ailments. These problems were especially pronounced in swimmers 
who swam closest to the drains. When the total coliform counts were 
high, swimmers encountered the same problems more frequently, even when 
they swam further away from the storm drains (SMBRP 1996).
    Certainly the severe problems experienced in Santa Monica Bay and 
elsewhere should be considered by those charged with planning new 
development in coastal areas. This calls for strong management measures 
for new and existing development in states' coastal runoff plans.
The Coastal Nonpoint Pollution Control Program
    By 1990, Congress recognized that earlier efforts to control the 
polluted runoff problem had not been successful and that coastal areas 
were especially vulnerable to this type of pollution. To ensure that 
states and Federal agencies worked together to deal with this 
increasingly serious problem, Congress created the Coastal Nonpoint 
Pollution Control Program.
    This program focuses exclusively on efforts to prevent and control 
polluted runoff in coastal watersheds. As more and more people move to 
the coasts, disproportionate impacts, including runoff-related water 
quality degradation, make the focused attention to these areas not only 
appropriate, but essential.
    The Coastal Nonpoint Pollution Control Program is the only Federal 
program designed to address runoff in an accountable, targeted and 
enforceable manner, stressing coordination among agencies as well as 
local solutions. Run jointly by the Environmental Protection Agency 
(EPA) and the National Oceanic and Atmospheric Administration (NOAA), 
the Program requires coastal states to develop and implement plans to 
prevent polluted runoff. Its requirements initially allow the use of 
voluntary measures, but require back-up enforceable means to insure 
implementation where voluntary measures fail. This is the first time 
that a Federal runoff control program has moved beyond voluntary 
efforts that have proven insufficient to solve the problem.
    By issuing technology-based guidance, EPA and NOAA have provided 
states with measures that are known to be effective in preventing or 
controlling each major source of runoff (EPA 1993). These management 
measures address the most prevalent sources of runoff. Most of the 
measures recommended by EPA are cost-effective, and some will even save 
money for those who put them in place. As a result, the coastal program 
could serve an excellent model for the rest of the country.
    As a result of the purely voluntary nature of other runoff control 
programs, little significant progress has been made in cleaning up 
polluted runoff into America's coastal waters over the past decade. The 
Coastal Nonpoint Pollution Control Program requires that plans, which 
may include voluntary programs, also must have back-up measures that 
are mandatory and enforceable to be used if and when the voluntary 
programs fail.
    As a result, the Coastal Nonpoint Pollution Control Program offers 
a ray of hope in controlling and preventing polluted runoff. Failure to 
fund implementation of the Coastal Nonpoint Pollution Control Program 
will result in the continued costly degradation of America's most 
valuable ecosystems.

Authorizing Funding to Carry Out the Coastal Nonpoint Pollution Control 
        Program
    In September, 2000, Coast Alliance released a report entitled 
Mission Possible, analyzing state progress in carrying out the Coastal 
Nonopoint Pollution Control Program. The analysis consisted of surveys 
of state and Federal officials as well as citizens. We found unanimous 
agreement among all those we talked to that the Program is effective 
but needs additional funding to achieve its goals. Coast Alliance 
specifically surveyed 5 states facing very diverse coastal pollution to 
identify innovative approaches to solving runoff problems, as well as 
barriers to doing so. Four common themes emerged from this analysis:
    1. Runoff is recognized as a major pollution problem in every state 
surveyed. Major sources vary but are clearly identified in most states.
    2. Funding to control polluted runoff is a pressing need in each 
state. However, many states that receive Federal funding for coastal 
programs do not necessarily allocate funds specifically for the Coastal 
Nonpoint Pollution Control Program. This demonstrates the need for a 
specific earmark for this program.
    3. Overwhelmingly, the Coastal Nonpoint Pollution Control Program 
has promoted increased administrative coordination in the participating 
states. This is one of the objectives of the CZMA.
    4. While some state programs have been finalized, others are still 
being developed. Each of these programs needs continued financial 
support to ensure it is implemented and that the anticipated benefits 
are achieved.
    It is clear from this analysis that funding is critically needed by 
states, and should be provided through the reauthorization of the 
Coastal Zone Management Act.

Maintaining the Enforceable Nature of the Coastal Nonpoint Pollution 
        Control Program
    Enforceable measures have been the cornerstone of successful 
environmental programs. For example, the Clean Water Act has 
enforceable regulations for controlling the discharge of pollution from 
point sources into waterways that are used by everyone. As a result, a 
factory or wastewater treatment plant would require a permit to 
discharge the amount of pollution that runs unregulated off of farms 
and developments every day.
    The costs of polluted runoff to fisheries and tourism economies, 
not to mention the impacts on the ecological services otherwise 
provided by coastal areas, certainly justify the use of enforceable 
measures when voluntary measures fail. In the reauthorization of the 
Coastal Zone Management Act, for the sake of the coastal resources that 
the Act is to protect, the enforceability of the program should not be 
lost or weakened. Since the Coastal Nonpoint Pollution Control Program 
is the only program with enforceable provisions, if anything, these 
provisions should be strengthened and used as a model for other 
programs.

Consistency of Federal Projects with State Coastal Management Plans
    The Coastal Nonpoint Pollution Control Program is strengthened by a 
provision of the Coastal Zone Management Act that requires Federal 
actions in states' coastal zones to be consistent with state coastal 
zone programs. Since this includes the Coastal Nonpoint Pollution 
Control Program, the consistency provision will ensure that Federal 
projects adhere to states' pollution control requirements, preventing 
such projects from undermining the states' efforts to protect their 
coastal zones. Considered by many to be one of the most critical 
aspects of the Coastal Zone Management Act, the consistency provisions 
serve an important purpose and must not be weakened.
    We are concerned about references in the Bush Administration's 
energy policy that suggest a need facilitate energy development 
activities on the coasts. There appears to be some interest in the 
repeal of state authority, provided through the Coastal Zone Management 
Act, to ensure that Federal actions in the coastal zone are consistent 
with state Coastal Zone Management Plans. It is critical that the 
consistency provisions of the Coastal Zone Management Act remain 
strong, and we hope that this Subcommittee will be prepared to prevent 
any efforts to roll-back this important state authority.

Proposed Legislation
    There are two pieces of legislation currently under consideration 
by this Subcommittee that would reauthorize the Coastal Zone Management 
Act. Those are H.R. 897, introduced by Congressman Saxton and the 
Discussion Draft entitled Coastal Communities Conservation Act of 2001. 
In addition, a bill was introduced in the Senate by Senators Snowe, 
Kerry, McCain, Hollings and Breaux (S. 328). Each bill has a number of 
components that we support and hope to see enacted as part of a 
reauthorization bill this year.

H.R. 897
    H.R. 897 is similar to a bill we supported last year introduced by 
Congressman Saxton that passed the subcommittee (H.R. 2669). 
Unfortunately, it was amended and significantly weakened during full 
Committee markup. H.R. 897 would reauthorize the Coastal Zone 
Management Act, creating a program for ``Coastal Community Conservation 
Grants'' that would assist local communities in carrying out 
conservation projects. Importantly, this bill would establish the 
coordination and implementation of coastal nonpoint pollution control 
program components as well as activities that reduce the causes and 
impacts of polluted runoff on coastal waters and habitats as objectives 
and approved uses of its grants. This objective and this use for CZMA 
grants does a good job of carrying out the principles we have outlined 
above.
    Specifically, this bill sets aside funding for the implementation 
of this program as part of the Section 306A Coastal Resource 
Improvement Program. This funding is of great importance to the 
environmental community and is a key aspect of the reauthorization in 
achieving the Act's environmental protection objectives.
    Importantly, H.R. 897 preserves important ecological objectives in 
Section 309 enhancement grants, by requiring that programs funded under 
that Section attain one or more coastal zone enhancement objectives. 
These objectives include protection, restoration or enhancement of 
coastal wetlands, development of measures to assess, consider and 
control cumulative impacts of coastal growth and development, and 
adoption of enforceable policies for the siting of energy facilities. 
As described above, we believe that funding through CZMA should be 
limited to projects that achieve ecological benefits and programs that 
harm the environment should be prevented. The preservation of the 
enhancement objectives in H.R. 897 helps keep the Act on track in that 
regard.

Coastal Community Conservation Act of 2001
    The Coastal Community Conservation Act of 2001 Discussion Draft 
would also reauthorize the Coastal Zone Management Act. While this bill 
is a good start, it needs to be strengthened to adequately address the 
challenges of dealing with nonpoint source pollution. In this bill, two 
distinct grant programs currently provided in the Act are essentially 
repealed. The Section 309 grant program is expanded to allow funding 
for states to implement, modify and amend their Coastal Zone Management 
Programs that otherwise have been supported through Section 306 grants.
Funding to Control Runoff Pollution
    The bill also seeks to authorize the use of grant funds toward 
implementation of the Coastal Nonpoint Pollution Control Program, 
however the bill's authorization of expenditures of funds for this 
purpose should be clarified prior to final consideration of the bill by 
the Subcommittee.
    Unlike H.R. 897, the Section 309 Grant Program contemplated by the 
Discussion Draft does not clearly incorporate the implementation of the 
Coastal Nonpoint Pollution Control Program into either the 
implementation of the state's management program under Section 306 or 
the newly created Coastal Community Conservation Projects. It does, 
however, clearly state that no less than 10% of the funding provided 
for Section 309 must be spent to implement the Coastal Nonpoint 
Pollution Control Program. As a result it is unclear whether the draft 
bill authorizes the use of Section 309 grants for implementation of the 
Coastal Nonpoint Pollution Control Program.
    The Coastal Community Conservation Projects would limit funding to 
technical assistance; construction; planning, design and engineering 
reports; and monitoring and assessment. This appears to exclude 
implementation and development of management measures required by the 
Coastal Nonpoint Pollution Control Program.

Balance of Environmental and Economic Objectives (Funding for 
        Acquisition)
    Under the Section 309 Coastal Community Conservation Project 
eligibility, funds can be used for construction, and not acquisition. 
These limited funds should be prioritized for uses that would not be 
otherwise possible. Under the existing law, funds for acquisition can 
be provided, however, the relevant section is repealed by this bill. We 
urge that the new section be revised to authorize acquisition for 
conservation purposes to ensure that our last remaining undeveloped 
coastal lands can be preserved for posterity.

Loss of Section 309 Enhancement Objectives
    The environmental community is concerned about the loss of clear 
objectives in Section 309 that would help to ensure that projects 
funded under this section have a net ecological benefit. Under existing 
law, the enhancement objectives include protection, restoration or 
enhancement of coastal wetlands; development of measures to assess, 
consider and control cumulative impacts of coastal growth and 
development; and adoption of enforceable policies for the siting of 
energy facilities. Some of these objectives are even more critical 
today than they were when the law was enacted.
    With the current trends in coastal development, energy exploration 
and species extinction, now more than ever, such objectives need to be 
clearly stated, and funds need to be dispersed according to coastal 
management criteria. The loss of these enhancement objectives leaves 
the Act with a single grant program in which funds may be dispersed 
irrespective of coastal management priorities. This raises significant 
concerns in the environmental community as to the direction that the 
Coastal Zone Management Act is taking with regard to environmental 
protection.
    A reauthorization of CZMA must appropriately update these 
objectives to ensure that coastal protection is being achieved through 
the use of CZMA grants. We were disappointed to see that this is not 
achieved by the proposed discussion draft. Rather, important objectives 
are being lost. We would welcome an opportunity to work with the 
Subcommittee to preserve these objectives as it further develops this 
legislation.

Habitat Creation
    While restoration and creation of habitat can have significant 
environmental benefits, The Coastal Zone Management Act should define 
protection of natural habitat as a principal goal in order to minimize 
the need to restore and create new habitat. Wetland creation, for 
example, should not be seen as a replacement for protection of natural 
wetlands, since engineered wetlands rarely serve the same ecological 
function as a natural wetland would. The inclusion of the term 
``creation'' is of concern due, in part, to the absence of clear 
language to prioritize the protection of natural ecosystems. This is a 
concern in both the Discussion Draft and H.R. 897.
    We also are concerned that this could increase funding availability 
for activities such as the creation of islands from dredged material. 
This would not only take away funding from desperately needed 
environmental protection, but it could also allow such creation of 
islands to become a commonplace solution for dredging waste disposal, 
trading aquatic habitat for new land, and encouraging dredging and 
channel deepening where it is unnecessary or economically unjustified. 
In such a case, spoil islands are not guaranteed to mimic natural 
habitats, and in some cases, glorified disposal projects have created 
more serious ecological problems than they have solved. This is a 
separate issue from restoration of natural areas, which tends to have a 
higher probability of success than does creation.
    Both bills should begin by defining habitat protection as a 
principle goal if they are going to expand the Act to address creation 
of habitat, which is a secondary priority.
Definition of Underutilized
    The term ``underutilized'' proposed for insertion in Section 102 of 
the discussion draft should be defined. While we recognize that this 
term is commonly used in the context of brownfields redevelopment, it 
would be useful to define it for the purposes of this Act to ensure 
that it is not interpreted as referring to ``undeveloped'' coastal 
lands or other lands whose development may not be consistent with the 
Act.

Authorization of Funding
    The proposed bill would authorize funding to be set aside 
specifically for the implementation of the Coastal Nonpoint Pollution 
Control Program, which we wholeheartedly support. We appreciate that 
the bill intends to provide no less than 10% of the funds available 
through Section 309 for this purpose. As described above, however, we 
are concerned that the authorization of expenditures for the program is 
unclear and we strongly urge the Subcommittee to clarify this.
    Secondly, we respectfully note that the 10% allocation 
unfortunately would not be sufficient to support these programs and is 
not even equivalent to the amount appropriated for this purpose for 
fiscal year 2001, which was $10 million. Significantly increased 
funding is needed to develop and implement the coastal nonpoint 
pollution control program in future years. We would suggest that this 
amount be raised by increasing the total amount of funds authorized for 
Section 309 to $25 million.

Summary
    In summary, we urge the Subcommittee to consider a carefully 
crafted Coastal Zone Management Act reauthorization bill that would 
revise the management process to be consistent with current stresses 
and threats to the coasts. Coast Alliance and its affiliated 
organizations strongly recommend that the Act should embody the 
following principles in order to achieve its goals:
    1. The Coastal Nonpoint Pollution Control Program in its current 
form must be integrated into the Act, and sufficient funds must be 
authorized for its support.
    2. The Program's requirements for enforceable mechanisms must be 
maintained.
    3. The Act's consistency provisions which provide an important tool 
for states to protect their coastal ecosystems must not be weakened.
    4. Principles or objectives should be included to ensure that 
projects or programs supported through appropriations under this Act 
prioritize environmental protection, protecting and maintaining the 
natural integrity and complexity of coastal ecosystems.
    Since runoff is the primary cause of aquatic habitat degradation, 
achieving the goals of the Act requires preventing runoff through the 
Coastal Nonpoint Pollution Control Program. Without a doubt, the 
success or failure of the that program depends on three factors: 
adequate plans to control the true causes of polluted runoff, the 
presence of enforceable mechanisms to make sure those sources are 
reduced, and adequate resources to implement these plans. To date, 
states and the Federal Government have invested in the development of 
runoff prevention and control plans. Some are finalized and many others 
are on the verge of completion. Congress can continue its efforts to 
protect the coasts by ensuring that the Coastal Nonpoint Pollution 
Control Program is reauthorized and funded as part of the Coastal Zone 
Management Act Reauthorization this year and that the revised Act is 
designed with necessary objectives to prioritize environmental 
protection. Coast Alliance looks forward to working with this 
Subcommittee toward that end.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Ms. Savitz.
    You raised an interesting perspective about comparing 
funding for coastal protection to funding for other coastal 
activities.
    For example, in my district, you could get a single 
dredging project for $100 million and it will sail through 
virtually without question. But the entire coast protection is 
about $80 million for this single program.
    I am not saying there is anything wrong with dredging and 
the activities that it is supposed to support. But at this 
point in time, it might be advantageous for us to begin to 
compare those two Federal allocations.
    Mr. Wyman, you mentioned four things that you would like to 
see us do in the legislation dealing with consistency review.
    Mr. Wyman. Yes.
    Mr. Gilchrest. And the last one was a timely review of the 
process, which I guess you mean put a timeframe, a time 
certain, for the review to be completed?
    Mr. Wyman. That is correct. You may recall, Congress added 
16 U.S. Code 1465, I believe, about 4 or 5 years ago in an 
attempt to establish a timeframe for those decisions to be 
issued.
    There has been a hangup based on the development of an 
administrative record that we believe can be further worked out 
by statutory-firm deadline.
    But my experience with these override appeals, and I happen 
to have participated in six of them--my law firm has, and I 
have done a lot briefs in the last 0 or 12 years--is that the 
administrative record will be virtually fully developed by the 
time the state's consistency objection is lodged, especially in 
matters of plans of exploration, for which the EIS, which may 
pertain to that particular project, would have been done at the 
time of lease sale.
    Even when there development projects for which Interior 
would decide to have an EIS be prepared, because of concerns 
that agencies would want to see the final EIS in order to make 
the final decision, I believe that the system could work, that 
the final EIS would be able to be finally developed, and, 
therefore, the administrative record could be given to the 
decisionmaker and a firm deadline could be imposed. And there 
would be no more uncertainties about when the administrative 
record would close and then the time limits would kick in.
    Mr. Gilchrest. Do you have a suggested timeframe for that?
    Mr. Wyman. Yes, I believe--the specific amendment is not 
before me right now, and sometimes these delays vary, with all 
delays I handle for other appeals. I can't remember exactly. I 
believe it is 90 days.
    Mr. Gilchrest. Ninety days.
    Mr. Wyman. With another 45 days given as an escape hatch in 
case there was some unforeseen development in the 
decisionmaker's review of the record.
    Mr. Gilchrest. You mentioned four things for changes with 
the present consistency review provisions. Could you go over 
the first one again, dealing with the states?
    Mr. Wyman. Yes, I think that has--at least some people may 
have misunderstood that; I am not saying they would agree with 
my articulation of what we mean, by any means.
    But one of the things we see--and this came out of, really, 
a Commerce rulemaking that was finalized on December 8, 2000, 
that has been subject to a lot of attention.
    There is now a suggestion that states can review activities 
taking place in neighboring states, in neighboring state's 
coastal zones or otherwise that could affect their own coastal 
zone.
    We are reviewing that rulemaking. I actually was first 
persuaded of that being a serious legal issue by comments filed 
by the city of Virginia Beach, Virginia, who had fought its own 
fight in the early 1990's against a North Carolina veto of what 
city of Virginia Beach considered a very important water 
project.
    And the city of Virginia Beach went to court about it. And 
it is my appreciation the briefs were filed, and that, 
actually, the North Carolina veto was not sustained, even by 
the Secretary of Commerce in the override decision.
    I think it is bad policy. But I also believe there are 
constitutional questions of whether a state can veto an 
activity of another state that has been briefed but not finally 
decided.
    I also believe that approach was the Federal Government's 
position until 1993, when Secretary Brown under the Clinton 
administration was persuaded by his lawyers that he should 
change the department's position.
    But it has led to final rulemaking, and we would like to 
change that.
    Very important: We are not even questioning whatsoever a 
state's continued right to review OCS activity. That is built 
in the statute plainly. We would not mean for that amendment to 
accomplish any restrictions of a state's review of OCS 
activities. It is part and parcel of the act, and we know it 
will continue to be.
    Mr. Gilchrest. I appreciate that, and I know that is an 
area of concern with you. And it is an area that we will take a 
close look as we proceed with developing this legislation.
    Mr. Wyman. Thank you.
    Ms. Claussen, the earlier panel seemed to be opposed to 
earmarking a percentage of dollars for the grant program for 
nonpoint source pollution.
    Could you comment on that?
    Ms. Claussen. Well, I should start by saying that Pew 
Oceans Commission has not taken this up in a specific way, so I 
can't give you an answer based on commission deliberations. I 
can probably give you a personal view.
    Mr. Gilchrest. That would be good.
    Ms. Claussen. I can say that when I was in government, 
which I was for more than 20 years, I always thought 
flexibility was really important.
    Mr. Gilchrest. You thought what was really important?
    Ms. Claussen. Flexibility.
    Mr. Gilchrest. Flexibility.
    Ms. Claussen. But now that I am not--
    [Laughter.]
    Mr. Gilchrest. Okay.
    Ms. Claussen. And because 10 percent seems like such a 
small percentage, and because I am really concerned about how 
few states have actually moved forward in a vigorous way to 
deal the nonpoint problem, in part because I think the total 
dollars that they get are not enough. You know, funding has 
been late and sort of slow on this.
    My personal view is that it is probably a good idea.
    Mr. Gilchrest. Thank you.
    Ms. Savitz?
    Ms. Savitz. Are you asking me to comment on that question?
    Mr. Gilchrest. Yes.
    Ms. Savitz. Well, Coast Alliance feels very strongly that a 
certain percentage of Coastal Zone Management Act funding be 
allocated to the coast nonpoint program implementation. There 
are a number of reasons for that. Most importantly, of course, 
is just the degree of importance of nonpoint pollution.
    And I honestly think it is safe to say Coast Alliance would 
take the position that states ought to be spending 50 percent 
of their coastal management money controlling nonpoint source 
pollution. It is the number one source of pollution on the 
coasts. Ten percent is a way of saying, at the very least, this 
an important issue.
    We did a study last year. It came out in September, which 
we titled ``Mission Possible,'' which is a very optimistic 
title for our reports which are generally more downbeat.
    What we did was we surveyed five states. We surveyed state 
program managers, we surveyed Federal agency folks at NOAA, and 
we surveyed citizens, to see how coastal nonpoint program 
development was going. And we found a lot of agreement, number 
one, that pollution runoff is a problem; number two, that the 
biggest barrier to addressing the polluted runoff is a lack of 
funding.
    And one of the things we found was that even when states 
are allocating funding to control nonpoint, it doesn't always 
get spent in that way. Or when they are allocating funding 
coastal zone purposes, oftentimes controlling nonpoint is a low 
priority.
    And I believe that if you talk to some of the people in the 
states who are actually in charge of the nonpoint program, 
privately they would tell you that they think this is a great 
idea.
    I would also point out that states are very different, and 
some states, you know, may reflect what I just said and other 
states may be the exact opposite. They may spend a lot of 
resources dealing with nonpoint pollution.
    Obviously, the states who had their programs approved, like 
Maryland and California, have invested more in this process 
than other states.
    For those states, it is important that their neighboring 
states also invest in polluted runoff. As you know, there are a 
lot of interstate issues associated with this problem.
    So, you know, I think that this is a small amount. It shows 
that there is a commitment to controlling the number one source 
of pollution on the coast. And without doing that, we have no 
guarantee that this problem will ultimately be solved.
    Mr. Gilchrest. Thank you.
    Dr. Burroughs, a comment on that?
    Mr. Burroughs. Yes. I guess my response will be somewhat 
different than the others.
    My thought is that you can look at the new scientific 
information to target where your nitrogen-based nonpoint source 
problems are the greatest. And you can also look at the 
authorities that you have under the Coastal Zone Management 
Act, and as one of the other commentators mentioned earlier, a 
lot of these are ultimately local decisions.
    And using the coastal community provisions of the act, you 
could encourage states with their local partners, to come 
forward with innovative plans.
    I don't know what that would turn out to be as a percentage 
of the overall funding, but that would be very much consistent 
with what I understand to be our recently developed scientific 
knowledge.
    And what it would do for those dollars that flow in that 
direction is it would give them the maximum amount of impact. 
In other words, we would target those geographic areas and 
nutrient delivery processes, if you will, that are causing a 
great problem and for which each dollar that we put forward, we 
could expect to see a significant reduction.
    Mr. Gilchrest. So you are suggesting that an actual 
percentage earmarked toward nonpoint source pollution control 
would be a good idea?
    Mr. Burroughs. I am suggesting that a process whereby you 
make it highly desirable for states to propose those programs 
is good.
    Now, if you ask me what percentage that would be, I can't 
give you a number. But I think what the science tells you is 
that there are ways of directing your interests and the panel's 
interests in fixing that problem to certain geographic areas 
and certain nutrient delivery systems--
    Mr. Gilchrest. Yes.
    Mr. Burroughs. --recognizing that perhaps atmospheric and 
point-source nitrogen, which is a big factor in the coastal 
zone, are things perhaps the CZMA might wish to stay away from, 
given there are other authorities that are dealing with them.
    Mr. Gilchrest. Thank you very much.
    Mr. Burroughs. Thank you.
    Mr. Gilchrest. I yield to Mr. Underwood.
    Mr. Underwood. Thank you very much, Mr. Chairman.
    And thank you very much for your testimonies.
    I guess I would like to ask Mr. Wyman a couple of 
questions. I would venture to say that your testimony is a lot 
different than all the rest that we have heard today--
    [Laughter.]
    --from any of the three panels.
    Basically, let me just quote a couple of things that are 
coming from your statement.
    ``The CZMA consistency program has allowed states to 
unilaterally use the process as a tool in their philosophical 
opposition to offshore drilling.''
    My question to you is, what is wrong with that?
    Mr. Wyman. As I appreciate the Coastal Zone Management Act, 
it is a collaborative process. What we are dealing with are 
states sitting down and talking with private permit applicants 
with a give-and-take.
    That certainly happens in Louisiana in its coastal zone 
management process in how they address any problems they have 
on outer continental shelf lands activity.
    I have personally been a part of dialogue with the state's 
CZMA program there in which pipelines coming in from the Outer 
Continental Shelf are planned and are prepared consistent with 
the coastal zone management plan of Louisiana. Then the area is 
fully restored, and there is mitigation that takes place.
    That dialogue does not take place in certain other areas of 
the country in which the states have categorically opposed 
offshore drilling in their areas. It is Federal property on the 
Outer Continental Shelf Lands Act; I mean, I am not trying to 
belabor an obvious point.
    But the most that I see the Coastal Zone Management Act 
doing is giving the states rights in that process. I do not 
think the process can be a unilateral effort to stifle any 
development whatsoever.
    The Act should work to coordinate the planning of that in a 
constructive way. And I have not had that experience in three 
different areas of this country.
    Mr. Underwood. I would submit that the Coastal Zone 
Management Act is supposed to be the vehicle for which states 
and localities can actually deal with the entire process and 
provide a basis for getting their point of view across.
    You know, I would have to say that, coming from a 
territory--which in many of these kinds of issues, we are 
relatively unarmed in trying to deal with some issues 
concerning economic development or interests, certain big 
economic interests--that we have successfully used CZMA to deal 
with the Federal Government, because there are some Federal 
agencies that want to do things differently, including the 
Department of Defense.
    We have had to deal with economic interests who we think 
are not good for the community in the long run. And we have 
also used it as an opportunity to deal with social and cultural 
issues, which are of enormous consequence in a place that has 
indigenous fishing practices that have to be taken into 
account.
    And I am little concerned about giving it this 
philosophical twist because I believe that, at the end of the 
day, policy must be driven by some kind of general 
philosophical attitude.
    The rate of success in Louisiana cannot be the benchmark 
for the rate of success in California or the rate of success in 
other areas.
    And so, I was taken a little bit taken aback by that 
comment.
    Mr. Wyman. Let me suggest this, because I should point out 
that our amendments are not, I believe, in any way naive, or 
that we are going to really ultimately accomplish any 
philosophical change by any of these states.
    Mr. Underwood. I totally--
    Mr. Wyman. We believe California will remain California, 
and the other areas.
    All we are trying to do is level the playing ground in this 
dialogue process, level the playing field for industry to 
propose its activities, know the information the states will 
require, do its best to certify consistency, but then further 
level the playing field for the act's recognition that if a 
state is philosophically opposed, is going to object to 
consistency, there will at least be an appeal process that 
works.
    And I believe that our amendments will improve the 
efficiency of that appellate process. The states can remain the 
states, and they can be philosophically opposed. I am trying to 
level the playing field under the act--
    Mr. Underwood. Okay.
    Mr. Wyman. --for how those rights interact.
    Mr. Underwood. Okay. Well, you know, that brings me to the 
next point, which is what you also raised in your testimony, 
that the suggested amendments would work to distinctly improve 
the efficiency as well as the fundamental fairness of that 
process.
    And I guess in reading the statistics on some of the 
disputes, or some of the concerns that have been expressed, I 
understand that 95 percent of the projects reviewed under 
Federal consistency, the states have concurred with that, and 
that there were only 40 times that state objection was appealed 
to the Secretary of Commerce.
    Of these 40 appeals to the Secretary's decisions, 14 were 
for outer continental shelf oil and gas activities. And there 
were only 14 instances where the oil and gas industry appealed 
a state's objection to the Secretary; of those 14 cases, there 
were seven decisions to override the state's decision, and 
seven decisions not to override the states.
    So it seems to me that that kind of balance and fairness, 
although there may be some elements of it that could improve 
the efficiency, but at the end of day, it seems to me that the 
decisions that have been actually made under this regime have 
been--you know .500 baseball is pretty good.
    [Laughter.]
    Mr. Wyman. I respectfully submit that statistics can very 
much mislead the reader.
    And I think that I have also encountered those statistics. 
I don't dispute the fact that there are so many development 
plans and exploration plans for the central and western gulf 
that you can gin up an excellent figure for the fact that very 
many of these plans go forward.
    I have fought, on behalf of certain clients, consistency 
battles in major frontier areas of this country--we will have 
to assess those natural resources, at least as a country; 
perhaps it will be over the next 50 years.
    I believe that those seven decisions that you are talking 
about really effectively helped cut vast swathes, areas out of 
what would be perhaps be future exploration and development.
    I think that those seven critical decisions are the core of 
the problem.
    Mr. Underwood. Well, I--
    Mr. Wyman. You cannot use all that--
    Mr. Underwood. You know--
    Mr. Wyman. --success offshore in the central and western 
gulf to assess those seven decisions.
    Mr. Underwood. Well, I don't want to deal with the issue 
that we have ginned up the statistics here, but it seems to me 
that the statistics speak for themselves.
    I think that the existing regime has worked well. I think 
it balances all the elements that need to be balanced, 
including local sentiments and including the interests of 
energy. And I think that the existing system has worked well.
    I wanted to ask, just briefly talk to Ms. Eileen Claussen.
    And I want to thank you for your own work, too, and the Pew 
Trust, and for acknowledging the work of Senator Carlotta Leon 
Guerrero in that.
    So could you characterize in your own work what are some of 
the concerns? I understand you had a meeting in the Pacific--at 
great expense.
    [Laughter.]
    Ms. Claussen. Our interest is in preserving marine 
biodiversity. And that is sort of the charge of the Pew Oceans 
Commission.
    We have 19 members of the commission. It is a very 
interesting, diverse group of people, politically balanced. We 
have some governors, some former governors. We have scientists. 
We have people, some industry people. We have sort of an 
interesting mix.
    We have divided our work into four areas: pollution, which 
is, obviously, what I talked a little bit about today; and 
coastal development, which is the other piece of this; fishing; 
and governance.
    We have been in many different parts of the country. We 
still have some to go to. So we are going to be in Maine in 
June. And we are going to be Alaska in August.
    We do a lot of open hearings and meetings. We do fisherman 
focus groups. We have done focus groups with affected 
industries.
    It has been a very open process. And we hope to have a 
report that we can provide to the Congress by the fall of next 
year.
    Mr. Underwood. Thank you very much.
    Mr. Gilchrest. Thank you, Mr. Underwood.
    Do you have any questions, Mr. Miller?
    Mr. Miller. I have two quick questions.
    Mr. Gilchrest. Yes, sir. You are recognized for 5 minutes.
    Mr. Miller.I apologize for my absence, but the Commerce 
Committee today is marking up an energy bill, and we had a 
California caucus apropos that subject.
    Mr. Wyman, if I might, in reading your presentation, your 
prepared statement, on page 4, you talk about CZMA's 
relationship to the OCS leasing program.
    And if I understand that, you are suggesting there that 
CZMA, through the appeals process and final determinations, 
that that puts uncertainty and puts a fair amount of capital at 
risk. Is that--
    Mr. Wyman. Yes, sir.
    I am really here to speak from really sort of the trenches 
of my experience with some of these override appeals.
    And I have seen capital tied up in the Mobil and Marathon 
case, that ended up before the Supreme Court, for 19 years, 
$158 million in bonus monies first put into the Federal 
Government in a lease sale in 1981. It was ultimately returned 
to the lessees in the year 2001.
    But all of that investment capital, which could have been 
working several other places, was tied up.
    All of these appeals tie up investment capital.
    Mr. Miller. For me, it raises and interesting point, 
because I guess I hearken back to when we wrote the OCS Act and 
there was a great debate. I was one of those who believed that 
we should have gotten rid of the bonus bid system, on the 
theory that there was always a discussion--to some extent, I 
think, with great pride--that they left X hundreds of millions 
of dollars on the table from people. And then it didn't pan 
out, or what have you.
    My sense was always that the bonus bid--and the industry 
fought very, very hard to hold onto the bonus bid--that that 
sort of defined who the players were, because obviously you had 
to come up with a substantial amount of money. And as you point 
out, you may leave it there for a long time and not be 
successful.
    And I never quite understood why the industry didn't go to 
a straight royalty bid system and say, ``If we win, you win,'' 
to the government. So you don't have any money laying around in 
an escrow account or you don't have any money laying around in 
the government that we have already spent and then we have to 
figure out how to return it to you or buy back a lease or what 
have you.
    If those aren't successful, you know, why don't we just 
move to that system? And then the industry won't have this 
money sitting around in accounts unused that could be used for 
research and development or to buy something else or whatever 
you want to do with it.
    Mr. Wyman. Congressman, I am not your man on finance 
issues. If I was better at finance, I would be retired by now 
or something like that.
    I really don't--
    Mr. Miller. But it is crucial because in your first 
statement you say the OCS leases require to pay an up-front 
bonus. We don't require an up-front bonus at all. It is one 
system that may be selected by the Secretary of Interior.
    Mr. Wyman. I agree with you.
    Mr. Miller. And if Secretary Norton thinks that this is 
unfair in terms of the dormant use of capital, we can go to a 
lease bid. There is a whole array of systems that can be used.
    I just don't think that argument justifies changing CZMA. 
It justifies changing the bid systems.
    Mr. Wyman. I am really not prepared to address that. I 
realize the OCS Lands Act has provisions that allowed for a lot 
of imaginative ways to approach lease sales and how you can 
even apportion royalty after you find production.
    My focus is really on these more narrow issues right now.
    Mr. Miller. Then let me suggest that I think that you ought 
to address this, because, as I read what you are saying, you 
are using that as leverage to say that ``we have to knock down 
these appeal processes because we are denied access to our 
capital.''
    In one case, I guess it is the North Carolina case, the 
capital was tied up for 15 years or whatever and then finally 
we got a refund. I quite believe we should have refunded that.
    But all I am saying is, I don't think you can come here 
with that argument when there are alternatives to that system 
that don't require you to put capital at risk.
    What I suspect is, when we were debating to get rid of 
bonus bid systems, the industry, the major players, liked the 
bonus bid systems because it defines the people who are going 
to show up to make the bids and where the better bids go.
    Mr. Wyman. Well, I think that--
    Mr. Miller. You then can't come say, you know, ``We fought 
to retain the bonus bid system but now the bonus bid system is 
what causes us to say you have to rethink the appeals process 
in CZMA.''
    Hell, put in a refundable bonus bid or however you want to 
design it.
    I have never been one who believes that we should take all 
this money and think the government won and you lost because 
you didn't get the tracks or the oil didn't show up. It ought 
to be related to--you know, you spend a lot of money to figure 
out if you are going to get oil.
    If you get the oil and if the royalty is 16 percent or 20 
percent or whatever the hell it is, 12 percent, then we get 
that share, you get your share, and we on about our merry way.
    I just don't think you can use the bonus bid here.
    So when you say you are not prepared to address it, I don't 
think it is fair to use it in an argument as a battering ram 
against the CZMA when it is the industry that has insisted on 
the bonus bid system.
    Mr. Wyman. Okay, I think we are at--
    Mr. Miller. There are people behind you shaking their heads 
yes, people behind you shaking their heads no.
    [Laughter.]
    So they can help clarify this.
    [Laughter.]
    Mr. Wyman. For my approach--
    Mr. Miller. I appreciate your--
    Mr. Wyman. It is the reality of the moment and the 
foreseeable future that the bonus bids are a factor in the 
lease investment.
    Mr. Miller. You have an new Secretary of Interior; I don't 
know what the reality of the moment is, from my perspective.
    [Laughter.]
    This I don't think--if you use this as your argument, you 
are quite capable of saying this is about tens of billions of 
dollars and, therefore, it is these regulations that is causing 
the loss of this capital. No, it is not. It is because this is 
the preferred system that industry seeks to use and even in 
light and knowledge of these regulations.
    And I think it is pretty simple, from my side, to change 
the bidding system--apparently not simple within the industry.
    Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Miller.
    We will have all of those people who were shaking their 
heads sideways or up and down to come testify.
    [Laughter.]
    Mr. Miller. Thank you, Mr. Chairman. Thank you very much 
for letting me sit with the Committee and to ask the questions.
    Mr. Gilchrest. Thank you, Mr. Miller.
    Thank you, all of you, for your testimony.
    We apologize again for the fragmented nature of the House 
and our proceedings. But your information given to us is quite 
valuable.
    I just want to make one mention. Dr. Burroughs, your 
evaluation of state coastal zone management program outcomes is 
very intriguing to us, and we will do what we can if not in 
fact plug that into the process. It has been very helpful.
    Mr. Burroughs. I would be glad to help you.
    Mr. Gilchrest. I do have to say that Congressman Lynn 
Woolsey would like to submit a statement into the record. So, 
without objection, we will do that.
    [The prepared statement of Ms. Woolsey follows:]

     Statement for the Record by The Honorable Lynn C. Woolsey, A 
        Representative in Congress from the State of California

    Mr. Chairman, I appreciate the opportunity to share my opposition 
to proposed amendments to the Coastal Zone Management Act (CZMA) that 
your subcommittee is considering. Like many of my California 
colleagues, I am opposed to these amendments that are strongly backed 
by the petroleum and gas trade associations. We are strongly concerned 
that these amendments undermine the CZMA by weakening the right of the 
states to review Federal activities inside or outside their coastal 
zone. States deserve this right to ensure that Federal activities are 
consistent with their own coastal management programs.
    Californians, including my constituents in Marin and Sonoma 
counties, take seriously the protection of our coast. They recognize 
that it's our state's most precious natural resource. That's why our 
state established the California Coastal Commission, which has overseen 
the management of our coastal resources with a comprehensive statewide 
plan since 1965. The enactment of the CZMA seven years later solidified 
each state's right to review Federal coastal activities, such as 
offshore oil and gas development. California has fought to protect its 
coast from offshore oil drilling. Unfortunately, these proposed 
amendments to the CZMA would undermine this principle and erode 
California's ability to reject such activities that it believes would 
significantly impact its coastal zone. Considering California's 
leadership and success in protecting its coast, it's wrong to rewrite 
the CZMA in a manner that would remove California from the process of 
deciding what's best for our its coast.
    Mr. Chairman, I urge your subcommittee to reject these proposed 
amendments. Instead, I urge you to recognize the critical role that 
states, in particular California, have provided in managing and 
protecting its coastal zone. Any reauthorization of the CZMA should 
only continue, or strengthen, this model of stewardship.
    Thank you.
                                 ______
                                 
    Mr. Gilchrest. And, again, thank you very much for your 
testimony.
    The hearing is adjourned.
    [Whereupon, at 1:05 p.m., the Subcommittee was adjourned.]


</pre></body></html>
